<html>
<title> - WORLD HUNGER FROM AFRICA TO NORTH KOREA</title>
<body><pre>[Senate Hearing 108-77]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-77
 
                        WORLD HUNGER FROM AFRICA
                             TO NORTH KOREA

=======================================================================

                                HEARING


                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS


                             FIRST SESSION


                               __________

                           FEBRUARY 25, 2003

                               __________



       Printed for the use of the Committee on Foreign Relations





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-718 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)



                            C O N T E N T S

                               ----------                              
                                                                   Page

Biden, Hon. Joseph R. Jr., U.S. Senator from Delaware, opening 
  statement......................................................    14
    Prepared statement...........................................    14
Feingold, Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................    33
Hackett, Ken, Executive Director, Catholic Relief Services.......    65
    Prepared statement...........................................    67
Levinson, Ellen S., Government Relations Director, Cadwalader, 
  Wickersham and Taft............................................    55
    Prepared statement...........................................    58
Lugar, Hon. Richard, U.S. Senator from Indiana, Chairman, opening 
  statement......................................................     1
Morris, James T., Executive Director, The World Food Program, 
  United Nations.................................................     3
    Prepared statement...........................................     5
Natsios, Hon. Andrew S., Administrator, United States Agency for 
  International Development......................................    15
    Prepared statement...........................................    19
        Additional questions submitted for the record to Mr. 
      Natsios from Senator Biden.................................    51
Von Braun, Dr. Joachim, Director General, The International Food 
  Policy Research Institute......................................    71
    Prepared statement...........................................    73

                                 (iii)




                        WORLD HUNGER FROM AFRICA
                             TO NORTH KOREA

                              ----------                              


                       Tuesday, February 25, 2003

                               U.S. Senate,
                    Committee on Foreign Relations,
                                           Washington, D.C.
    The committee met, pursuant to notice, at 9:33 a.m., in 
Room SH-216, Hart Senate Office Building, the Hon. Richard 
Lugar, chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Coleman, Sununu, Biden, 
Sarbanes, Feingold, Nelson and Corzine.
    The Chairman. This meeting of the Senate Foreign Relations 
Committee will come to order.
    I will have an opening statement. I will call upon my 
colleague Senator Biden for his opening statement when he 
arrives. And we will proceed then with the witnesses.
    We have two distinguished panels before us this morning, 
and so we want to offer ample opportunity for their testimony 
and for questions and answers from the committee members.

  OPENING STATEMENT OF HON. RICHARD LUGAR, U.S. SENATOR FROM 
                       INDIANA, CHAIRMAN

    In recent weeks, this committee has considered significant 
public policy issues including weapons of mass destruction on 
the Korean Peninsula, and reconstruction in Afghanistan and 
post-war Iraq. It is appropriate today that we review global 
hunger issues, which in addition to obvious humanitarian 
aspects, ultimately bear on security interests of other 
countries and our own.
    For many Americans, global hunger issues are ``out of 
sight'' and, consequently, often ``out of mind.'' The 
intersection of hunger and HIV/AIDS issues in parts of Africa 
are destroying fundamentals of governments in addition to 
massive loss of life. The North Korean government makes 
judgments on who among the elderly, children and pregnant women 
will receive food through the World Food Program. With 
Secretary Powell's reference this past weekend to ongoing 
provision of food assistance to the north, it is clear that 
hunger issues stand in significance alongside nuclear issues on 
the Korean Peninsula.
    I would like to express heartfelt gratitude to the 
outstanding collection of witnesses present today to provide 
information on the state of world hunger.
    According to the Agency for International Development, 
overall trends in food and nutrition have shown a steady 
improvement over the last 40 years. Per capita, caloric intake 
has risen worldwide. People are living longer and healthier 
lives. However, many countries remain mired in poverty, and 
many have experienced a decline in per capita incomes. A 
variety of factors contribute to this reality.
    As already stated, the leaders in some countries have 
implemented policies tantamount to selective starvation for 
segments of their population. Other countries are plagued with 
corruption and inept bureaucracies.
    The scourge of HIV/AIDS is having an especially significant 
effect in reversing gains in certain countries and deepening 
poverty in others.
    Today's hearing is timely, given the food aid review 
currently conducted--or, rather, recently conducted by the Bush 
Administration. Overall assistance provided by the United 
States throughout the years has been substantial. It is 
essential that we review the need, assess our response and 
formulate wise and efficient policy for the future. According 
to the World Food Program, over 24,000 persons die daily from 
hunger and related causes.
    Our first panel includes James T. Morris, Executive 
Director of the World Food Program and Andrew Natsios, 
Administrator of the Agency for International Development.
    The second panel will include Ellen Levinson, a food aid 
specialist who works with a consortium of private voluntary 
organizations; Ken Hackett, Executive Director of Catholic 
Relief Services; and Dr. Joachim Von Braun, Director General of 
the International Food Policy Research Institute.
    While the first four panelists will report on the global 
hunger scene and alert us to the challenges of an effective 
response, Dr. Von Braun has been asked to assist the committee 
in thinking through new or enhanced global hunger relief 
strategies.
    As I indicated earlier, I will ask Senator Biden to give 
his statement when he comes. But it is a personal privilege to 
introduce today Jim Morris, who has been a personal friend for 
many, many years. Those of you who are not acquainted with our 
friendship should know that he was a part of my work in the 
mayor's office in Indianapolis, Indiana a long time ago when I 
began public service in that capacity in 1968. He served as my 
chief of staff for many years prior to his distinguished 
service with the Lilly Endowment of which we are very proud in 
our city. And so it is a special thrill to see him in his role 
as head of the World Food Program. And in my visits with Kofi 
Annan at the UN, he has affirmed the strength of his support 
for Jim Morris. So I say it is a special pleasure to ask him to 
testify this morning.
    And after he has completed his testimony, my understanding 
is that Mr. Natsios is en route and he will follow thereafter. 
And then we will raise questions of both of these witnesses.
    Mr. Morris.

  STATEMENT OF JAMES T. MORRIS, EXECUTIVE DIRECTOR, THE WORLD 
                  FOOD PROGRAM, UNITED NATIONS

    Mr. Morris. Thank you, Mr. Chairman, members of the 
committee. This is an extraordinary privilege for me to do this 
as well, sir. We have been together in so many circumstances, 
and now to share this experience will be something I will never 
forget.
    I am pleased to be here for a variety of reasons. First, to 
say thank you to the United States of America, to the American 
people for really the most extraordinary generosity the world 
has ever known. The support the United States provides for 
hungry, starving, at-risk people all over this globe in many 
places that you would not expect the U.S. to be is absolutely 
remarkable. And the good news is that the U.S. has made these 
decisions and has made these decisions effectively through the 
work of USAID, the State Department, and the Department of 
Agriculture. But the decisions that I have been focused on, the 
U.S. has made humanitarian decisions, and the commitment has 
always been to support the well-being of people, the people at 
risk, especially women and children.
    The U.S. is our largest supporter; in 2001, it provided 
over $1 billion, and nearly that much last year. Also, it is 
one of the five largest per capita supporters of the World Food 
Program.
    The World Food Program is the largest humanitarian agency 
in the world. It is the largest program of the United Nations. 
Our job is to feed the hungry poor wherever they are. We have a 
dual mandate to respond to emergencies and also to support 
development opportunities.
    The message I bring to you this morning is that we have 
never had more challenges, more issues before us in our 
history. Changes in the world related to natural disasters and 
weather, HIV/AIDS conflict, tough issues of politics and 
governance and macroeconomic policy, have dramatically 
increased the number of people in this world who are at risk in 
food emergencies.
    The requirement of the world to respond to emergencies, to 
people who are risk of death or people who are in very 
difficult circumstances of the moment, has caused us to have 
less resources to invest in development and the prevention of 
hunger.
    Ten years ago the World Food Program had a huge focus on 
development, 80 percent of funding. Today, it is 80 percent in 
responding to emergencies. And these emergencies are all around 
the globe, but the issues in Africa are particularly difficult. 
I have the responsibility of serving as Kofi Annan's Special 
Envoy for Southern Africa, the countries of Mozambique, Malawi, 
Zambia, Zimbabwe, Lesotho, and Swaziland. I spend a lot of time 
in this part of the world. And I report to you that there are 
more than 15 million people at risk of starvation. Half of the 
people live in Zimbabwe. This crisis is caused by very 
difficult weather patterns, complicated in ways that you can 
hardly find words to describe by the HIV/AIDS issue, and then 
further complicated by very tough issues of governance and poor 
choices of macroeconomic policy.
    The world has responded generously in this part of Southern 
Africa, and we have been able to get food delivered with the 
help of some remarkable NGOs, and some of them are in the room 
this morning. We have been able to get food positioned 
throughout the region so that people have not died, but we are 
faced with a comparable problem again this year. Hopefully, we 
will be on top of the food issue. But the HIV/AIDS issue will 
change this part of the world forever.
    I have met with presidents and prime ministers in this part 
of the world frequently, and they talk about their countries 
being at risk of extinction. They talk about the future of 
their countries in the most desperate and dramatic terms 
possible. And the impact of these issues on women, and 
children, and the elderly is almost beyond comprehension.
    Unfortunately, we have a comparable situation to a 
different degree, with different causes, in the Horn of Africa 
again, where we now have 13.2 million people at risk of 
starvation in Ethiopia and Eritrea. These two countries that 
depend on rain-fed agriculture had no rain last year. In part 
because of not very good efforts at prevention and development, 
they find themselves in tough circumstances.
    There are also problems in West Africa, you understand. The 
problems in Liberia and Guinea and Sierra Leone, with huge 
numbers of internally displaced people floating about. Maybe 
the number could approach 5 million. There are issues in the 
Western Sahara, once again a drought in Mauritania, Mali, Cape 
Verde, Senegal. Then there are food issues in Angola, in the 
Sudan, in the Congo, and Northern Uganda; we can simply say 
that there are nearly 40 million people at risk of starvation, 
of terrible food deficits in Africa.
    Our requirements in the World Food Program for Africa in 
2003 will equal our requirements for our worldwide programs in 
2002. The world is beginning to focus on this. There is no 
question that the State Department and USAID are heavily 
focused. I visited with the leaders of the G8 in Paris last 
week, and the G8 has called a special meeting in the next two 
weeks of ministerial level people to focus on the African 
crisis.
    This situation is further compounded by ongoing challenges 
in Afghanistan, ongoing challenges in the DPRK, North Korea. 
Needs in Palestine are enormous. The work in Colombia is much 
more difficult than it has been. There are very serious pockets 
of real child and acute chronic malnutrition in parts of 
Central America.
    So these are the challenges before the World Food Program. 
By the way, all of our support is voluntary. We raise every 
penny that we have to use every single year. Once again, the 
U.S. our most generous supporter, but the countries in Europe 
are helpful, as is the European Community, and Australia, 
Japan, and Canada. So it is good to have this opportunity to 
talk about these issues--natural disasters that 136 million 
people were affected last year. There were twice as many 
natural disasters at the end of the decade as there was at the 
beginning of the decade, the HIV/AIDS issue, the terrible 
impact conflict and war have on food security, and their impact 
on children; and then the issue of governance. These are the 
things that come together that are causing the world to be in 
the difficult situation it is in from a humanitarian 
perspective.
    So I am grateful for this privilege of being with you, sir, 
and with your colleagues, and look forward to an opportunity to 
talk about these issues or other issues that may be of 
interest.
    The Chairman. Thank you very much, Mr. Morris.
    [The prepared statement of Mr. Morris follows:]


                 Prepared Statement of James T. Morris

    In January I was on a mission to southern Africa and visited with a 
70 year old Zambian woman far out in the countryside. She was rather 
frail and losing her sight, but she was still pretty clearly in charge 
of her household. What struck me most was her overwhelming exhaustion. 
The reason for it was clear enough--all around the hut where she lived 
there were children. I couldn't count them all, but there were far more 
than a dozen. They were her grandchildren, her nieces and nephews, the 
children of neighbors--all of them orphaned by AIDS.
    A generation has been lost to AIDS in that Zambian village and a 
worn and aging woman left alone with all those many children. That 
Zambian grandmother and her children are among 15 million people in 
southern Africa living on the brink of starvation. They are at the 
epicenter of a potential famine, largely helpless to do much about it.
    Thanks to the tremendous generosity of the American people and the 
dedication of people like Andrew Natsios and his team at USAID, a huge 
international effort is holding famine at bay in southern Africa, at 
least for now. That is the good news.
    And there is other good news. President Bush recently announced a 
$200 million commitment to a famine fund for the Fiscal Year 2004 
budget and there are plans to work with other members of the G8 on an 
initiative against famine when France hosts the G8 this summer. 
Meanwhile, the EU and its member states have also sent a signal, 
boating contributions to WFP for food aid by $150 million last year. 
Nontraditional donors--while still small--have doubled contributions 
and we are looking to Russia, India and China to become larger donors. 
Private contributions to WFP are only around $5 million but are 
growing. Finally, this Congress has had the compassion to vote a 
supplemental appropriation for $250 million to help aid agencies cope 
with food crises stretching through much of the Africa continent. That 
is also very good news.
    The bad news is that all this will not be enough.
The Greatest Threat to Life
    We are losing the battle against hunger. Not only are we losing the 
battle in emergencies like those in Afghanistan, North Korea and Africa 
where we often lack the funds needed, we are losing the battle against 
the chronic hunger that bedevils the lives of hundreds of millions of 
families who are not the victims of war or natural disasters.
    Last year WHO released a report ranking the greatest threats to 
health and life. Was the leading threat heart disease, cancer or AIDS? 
No, the greatest threat to life remains what it was a hundred years 
ago, five hundred years ago, a thousand years ago--it is hunger.
    The problem is not that trade, investment, and economic aid are not 
producing results. They are. In the 1990s, poverty was reduced by 20 
percent worldwide, but hunger--its most extreme manifestation--was cut 
by barely 5 percent. In fact, if you exclude China from the data the 
number of hungry people actually rose by more than 50 million across 
the developing world.
    I cannot say the resurgence of hunger has received much attention 
from the media. Perhaps that is because there is such a long history of 
progress. We have always assumed that hunger was declining and would 
continue to do so. But, in fact we are losing the battle against 
hunger. No agency is more aware of that than the World Food Program, as 
we struggle to bring food aid to the growing number of families living 
on the brink of starvation.
A Rising Tide of Food Crises
    Let me try to put the current humanitarian crises in context and, 
at the same time, tell you a bit about the World Food Program's role in 
addressing hunger.
    Up to the early 1990s, WFP used most of its food aid in food for 
work, nutrition and education projects. But in recent years we have 
been forced to become an ambulance service for the starving. Nearly 80 
percent of our work is now emergency driven--reaching out to Afghan 
families suffering the effects of drought and decades of war, 
malnourished infants and children of North Korea, and families driven 
from their homes by violence in Chechnya, southern Sudan and Colombia. 
Today, WFP has few resources for nutrition and school feeding to help 
bring the number of chronically hungry people down from 800 million--we 
are barely funding our emergency operations and, I am afraid, the worst 
is yet to come.
    The number of food emergencies is skyrocketing. In the first half 
of the 1990s, WFP conducted 18 emergency food needs assessments per 
year with FAO, in the second half the number nearly doubled to 33. The 
number of victims of natural disasters has tripled compared to the 
1960s, averaging 136 million a year and the poorest among them need 
food assistance. This year WFP faces the daunting task of finding $1.8 
billion just to run our operations in Africa--a sum equal to all the 
funds we received last year. Never before have we had to contend with 
potential starvation on the scale we face today.
    The sheer intensity of these crises has transformed WFP into the 
largest humanitarian agency in the world. Few people know that. At the 
same time, we have quietly become the logistics arm of the United 
Nations when emergencies strike--providing air service and 
communications links for other UN agencies and our NGO partners, At the 
height of the bombing campaign against the Taliban, we kept 2000 trucks 
on the road every day. We brought food to 6 million hungry Afghans who 
were already reeling from the effects of three years of drought, the 
oppression of the Taliban, and decades of civil war.
    Our annual budget already outstrips the UN in New York. We were the 
first UN agency to ever get a contribution of more than a billion 
dollars from a single member state--the United States. Eight of our ten 
leading donors have boosted contributions, in part because we have one 
of the lowest overhead rates you can find. Yet with all this 
generosity, we are falling behind.
    For lack of funds, WFP is now engaged in an exercise in triage 
among those threatened by starvation. Who will we feed? Who will we 
leave hungry? In North Korea we have had to cut off rations for 3 
million women, children and the elderly. In Afghanistan we have delayed 
and cut rations. Refugee camps in Kenya and Uganda are always teetering 
at the edge, about to run out of food for people who simply cannot help 
themselves. And now, a task that could dwarf all our earlier relief 
operations may well await us in Iraq if no political solution is found 
to the current impasse.
Why Are We Seeing More Food Emergencies?
    What is driving the explosion in food emergencies? Basically, there 
are four immediate triggers for large-scale food emergencies. Most 
recent crises have been fueled by a combination of these factors:

  <bullet> Failing economic policies,

  <bullet> Political and ethnic violence,

  <bullet> AIDS, and

  <bullet> A sharp rise in natural disasters.

    I. Failing Economic Policies.--The principal example here is the 
DPRK and, given the heightened political interest, we are submitting a 
more detailed statement to the committee on the situation there, 
especially with regard to WFP's repeated requests over 8 years to the 
Government to allow us to strengthen monitoring to meet our normal 
operational standards. The severe contraction of the industrial base in 
North Korea after the fall of the Soviet Union, the lack of structural 
reform and cyclical drought and flooding have combined to create major 
food shortages and claimed enormous numbers of lives. Estimates of the 
loss of life from hunger range from several hundred thousand up to two 
million. We simply do not know for sure. This year the DPRK had 
relatively benign weather and was still 1 million metric tons short of 
needs. The country simply lacks the arable land and technology to be 
self-sufficient even under ideal conditions. The only way out is 
structural reforms that will revive the industrial sector where two-
thirds of North Koreans work so the country can earn foreign exchange 
to import food commercially.
    There is one bright spot. The nutrition survey by UNICEF, WFP and 
the Government of North Korea released last week showed some marked 
improvement in nutritional indicators for children, but they are still 
alarming by WHO standards and a breakdown in food deliveries could mean 
we lose the ground we have gained. The hard work of WFP and dedicated 
NGOs has had an impact. Andrew Natsios is well known as an expert on 
North Korea and can give you more guidance on food issues there.
    WFP is also working, under more promising conditions, in some of 
the ex-CIS states, such as Azerbaijan, Armenia and Georgia, which are 
struggling with the transition from centrally planned to market 
economies. Our goal is to help maintain social safety nets as these 
countries go through the often painful transition process.
    Failed economic policies have also contributed to a slowdown in 
southern Africa, with the most dramatic troubles now surfacing in 
Zimbabwe. I would like to go into a bit of detail about Zimbabwe 
because it is the greatest source of alarm in the region.
    Ironically, Zimbabwe has been a traditionally strong food exporter. 
In the 1980s WFP purchased up to a half million tons of food a year 
there for use in operations in other parts of Africa. But politics, 
bureaucracy and bad economics have conspired to damage food output and, 
worse yet slow down the aid response.
    It is not our place to judge the merits of land redistribution in 
Zimbabwe or elsewhere. But the scheme now operating in Zimbabwe is 
damaging. Thousands of productive farms have been put out of commission 
and food output will be a mere 40 percent of normal levels this year. 
This scheme along with restrictions on private sector food marketing 
and a monopoly on food imports by the Government's Grain Marketing 
Board are turning a drought that might have been managed into a 
humanitarian nightmare. More than half of Zimbabwe's 12 million people 
are now living with the threat of starvation.
    Nationwide shortages of basic commodities and fuel, high parallel 
market prices and runaway inflation are a formula for disaster. Levels 
of malnutrition are worsening and we are seeing hunger related diseases 
such as pellagra. Children have dropped out of schools and desperate 
families in rural Zimbabwe have resorted to eating both wild fruit and 
tubers--some poisonous--just to survive. Despite pressure from UN 
agencies, the Government has declined permission for us to conduct 
nutritional surveys that would help target what resources we have to 
the hardest hit areas.
    There have been widespread accusations of food being withheld from 
opposition groups and news reports make it clear that food is seen as a 
weapon in domestic politics. Let me assure you that as far as the food 
aid we distribute with our NGO partners is concerned, we have a zero 
tolerance policy on political interference. We have suspended local 
distributions twice over the issue. But the simple fact is that we do 
not control all the food--far from it. Our goal is to provide roughly a 
third of what is needed--about 800,000 tons, while the Government and 
private traders are to provide the rest. Thus far, none of us is 
reaching the target.

    II. Political and Ethnic Violence.--The second trigger for food 
crises is political and ethnic violence. Northern Uganda, Chechnya, 
Burundi, Cote d'lvoire, and the Democratic Republic of the Congo are 
some leading examples.
    Violence and hunger go hand in hand now in West Africa, Liberia is 
now the epicenter of a conflict that engulfs the whole region and will 
impede economic recovery in Guinea and Sierra Leone. Significant new 
influxes of Liberian refugees have been recorded in Sierra Leone, 
Guinea and Cote d'Ivoire and 135,000 people are displaced within 
Liberia itself. The ongoing civil unrest in Cote d'lvoire has displaced 
180,000 people and that figure may go higher. Further delay in 
resolving the underlying political problems there could lead to another 
major food crisis in Africa.
    Violence and hunger go hand in hand now in West Africa, Liberia is 
now the epicenter of a conflict that engulfs the whole region and will 
impede economic recovery in Guinea and Sierra Leone. Significant new 
influxes of Liberian refugees have been recorded in Sierra Leone, 
Guinea and Cote d'Ivoire and 135,000 people are displaced within 
Liberia itself. The ongoing civil unrest in Cote d'Ivoire has displaced 
180,000 people and that figure may go higher. Further delay in 
resolving the underlying political problems there could lead to another 
major food crisis in Africa.
    Some of these politically driven crises have resolved themselves 
quickly, at least from a food aid perspective. The massive intervention 
WFP made in Kosovo was in response to ethnic violence. With the revival 
of agriculture in the region, we were able to shut down our feeding 
operation relatively quickly. We also intervened in East Timor and 
there too we have been able to move on. An end to violence is not, 
however, always a sign that we can phase out In Angola our case load 
has gone up by more than a half million as we have access to areas we 
could never reach before and we have begun to distribute food to help 
families return home and feed soldiers as they demobilize.
    There are unfortunately some genuinely intractable conflicts like 
the civil war in the south of Sudan that wax and wane but never seem to 
go away. There are also a number of refugee feeding operations, such as 
those in the Western Sahara and Bhutanese refugees in Nepal, that have 
dragged on for more than a decade. The civil war in Colombia shows no 
signs of ending and the pervasive insecurity has brought some of the 
highest food delivery costs anywhere in the world.
    In much of Africa and in Afghanistan we are struggling to cope with 
the legacy of war. Many airstrips in Angola, for example, are so 
heavily mined they are useless for food aid deliveries. Rural bridges 
and roads have not been maintained in years. Ports have deteriorated. 
Many demobilizing soldiers are bringing AIDS and other disease back to 
their native villages after prolonged separation from their families.

    III. AIDS.--We all know AIDS is a health disaster of epic 
proportions. There is far less appreciation of the fact that in many 
countries it has become a major cause of hunger both for its victims 
and their communities. As the disease affects people in their most 
productive years, the burden of producing food falls on the elderly and 
children. Since 1985, more than 7 million agricultural workers have 
died of AIDS in 25 African countries.
    Peter Piot, who heads UNAIDS, has said that in many poor 
communities he has visited the very first thing AIDS victims ask for is 
not medicine, not money--it is food for their families, food for their 
hungry children. For those AIDS victims lucky enough to receive medical 
treatment, nutrition is critical. For the HIV positive, good nutrition 
is crucial in helping them ward off opportunistic infections and stay 
productive as long as possible. Unfortunately, donors have not yet 
recognized that fact fully and WFP certainly is struggling to get 
resources for the operations we have begun for AIDS victims, their 
families and orphans. We are working with the Secretary General and the 
most affected countries on this issue and on getting access to the 
Global AIDS Fund for more nutrition interventions. We would certainly 
welcome active support from the United States and joint initiatives 
with many of the NGOs working in this area.
    In my entire life I do not believe I have ever seen anything as 
disturbing as the impact that AIDS is now having in southern Africa. In 
modern times, we have never before seen a disease with the capacity to 
cause large scale social breakdown, to simply destroy societies. HIV 
infection is aggravating the famine in southern Africa and literally 
decimating the rural labor force, Four out of 5 African farmers are 
women, and women now have higher infection rates--among young people, 
women account for nearly two out of three new cases.
    The number of AIDS orphans in sub-Saharan Africa is staggering--
over 11 million and rising. In some of the villages I visited as the 
Secretary General's Special Envoy for the crisis in southern Africa, 
fields lay unattended with no one to work them. There are many 
thousands of families without parents--one in ten in Malawi. Worse yet, 
what we see today is only the tip of the iceberg as death rates will 
not peak until 2007-2009.
    The longer-term impact of AIDS will have a staggering effect on 
everything from food security to overall political and social 
stability. The ranks of government workers are decimated. A UN 
colleague relates how a ten person delegation from the European Union 
was met by the Minister of Agriculture of one African country. 
Strangely, the Minister arrived at the meeting alone bluntly explaining 
that all his senior staff was either ill or had already died from AIDS. 
The President of Zambia told me his country was losing 2,000 teachers a 
year, while only training 1,000 replacements. You could see in the 
faces of many government officials a horrible resignation, a sense of 
impending collapse.

    IV. A Rise in Natural Disasters.--And finally, and this is really 
the largest threat we face, there is the weather. Yes, the weather. The 
scale of WFP's activities has tracked closely with the occurrence of 
natural disasters brought on by abnormal weather phenomena. And we are 
seeing those phenomena on a scale no one has ever imagined. In the last 
few years, we delivered emergency food aid in response to the largest 
floods in China in a century and to drought victims in over a dozen 
countries stretching from southern Sudan to Pakistan. The past two 
years have brought the highest number of weather-related disasters over 
the decade.
    One-sixth of the main harvest in Ethiopia has been lost to drought, 
six million people are already in need and that figure could more than 
double after the first of the year. WFP has appealed for 80 million 
dollars worth of food aid for the first quarter of 2003, about half the 
total needed. The worst-case scenario will require two million tons of 
food aid at a cost of 700 million dollars. Ethiopia has suffered from 
cyclical droughts for years and has not managed to build up a capacity 
to withstand them. As is the case in much of Africa, state control of 
agriculture has failed to provide the food output needed with high 
population growth rates and Ethiopia--a net food exporter in the 
1960s--is now chronically dependent on food aid.
    Nearly 60 percent of the population of Eritrea--more than 2 million 
people--have also been hit hard by drought and will need food aid this 
year. The effects of recent war with Ethiopia remain: thousands of 
soldiers are yet to demobilize and 1 million people in major grain 
producing areas were dislocated.
    There have been comparisons in the media of the situation today 
with the Ethiopian famine of 1984-85 and the large drought that struck 
southern Africa in 1992. There are critical differences, some positive, 
some negative. First, early warning systems have functioned well; the 
affected governments and donors have known for months of the impending 
food crises. In Ethiopia and Eritrea, we expect to profit from the end 
of hostilities between those countries. Both faced drought just two 
years ago when relief operations were held up by fighting and the fact 
that war was draining a million dollars a day from their national 
treasuries. While the scale of the drought in the Horn of Africa may 
eventually eclipse what we are confronting further south, the political 
climate and the level of organization for coping with such emergencies, 
especially in Ethiopia, will make the relief effort far more effective.
Why Are We Losing Ground to Hunger?
    Why are we losing ground to hunger? Well, part of the answer lies 
in this massive overload from emergencies, an overload I am convinced 
may ebb now and then but will definitely not go away. Donors--including 
the United States--did not anticipate anything like this developing in 
the 1990s and quite naturally they tried to keep a cap on historic 
funding levels for food aid.
    One result is that funding for non-emergency food aid targeting 
pregnant and nursing women, infants and children in the most vulnerable 
areas is simply drying up. WFP's donors want to keep images of dying 
women and children off of our television screens, but the chronically 
hungry are suffering neglect. A stunted child in Kabul covered by an 
emergency operation stands a far better chance of being fed than an 
equally hungry child across the border in Pakistan.
    So there is much more that could be done with a major infusion of 
funding for food aid. But hunger today has its roots in politics and it 
demands political solutions. There are really no obstacles--other than 
lack of political will--that would prevent us from ending hunger 
tomorrow. There is more than enough food worldwide, even developing 
countries collectively have had enough food for every man, woman and 
child for decades. But instead of ending hunger, wealthy and poor 
countries alike have unwittingly adopted political policies that make 
that goal unattainable. There is not enough donor money now to feed 
those starving today, and trade and economic policies--national and 
international--make it unlikely all will be fed in the future.
    I do not, by any means, intend to paint a picture that is hopeless. 
People have asked me if mass starvation in Africa is inevitable. In 
fact, there has not been a major famine in Africa since the massive 
loss of life under the Mengistu regime in Ethiopia In the mid-1980s. 
The international community has successfully countered potential 
famines now for nearly two decades. I believe that USAID can take a lot 
of credit for this as it has helped fund increasingly sophisticated 
early warnings systems and paid attention to the critical issue of 
helping poor families maintain their assets through crises so they are 
not even more vulnerable when the next drought, flood or conflict 
arrives.
    USAID, the World Bank and UNDP have also begun to address the 
really thorny issues of good governance, corruption and interference 
with commercial markets. It was gratifying to see that the additional 
U.S. assistance announced by President Bush in Monterey will reward 
those governments who adopt pro-market policies and show a real 
commitment to devoting their own resources--however limited--to sectors 
like education and health.
Looking Ahead
    So we are beginning to see a more political approach to aid 
programs addressing hunger and poverty. That is a welcome. But if we 
want to succeed any time soon, we will need to take some costly steps 
and tackle some issues we might well want to avoid.
    First, we must have stronger and more consistent funding for 
humanitarian aid. While WFP funding has risen, global food aid has not. 
In fact, during the last three years it has actually dropped by a third 
from 15 million to 10 million metric tons (1999-2002). Emergency food 
aid needs are up and food aid is down. More funds are essential. All 
the major donors need to make a political commitment to a food aid 
system that works and is not dangerously reliant on surpluses, last 
minute appeals or a single donor.
    Should the U.S. look more to multilateral rather than bilateral 
food aid? As the head of a multilateral agency, I am a bit prejudiced 
on that point, but let me offer a few of observations. First, I think 
there is always a multiplier effect in making a multilateral donation 
and a clear challenge to other donors to increase their contributions. 
I also believe other donors appreciate the U.S. contributing food aid 
multilaterally and are somewhat less suspicious that there might be 
trade motives involved if a food donation goes through WFP. Second, WFP 
has been able to start ``twinning'' contributions recently in which we 
combine contributions from more than one donor. We have been doing 
that, for example, with a very large Indian donation to Afghanistan 
announced during the Coalition campaign as a gesture of support to both 
the U.S. and Afghanistan. The Indians have food but not the cash to 
move it. Twinning will also help us in getting private sector donors 
together. There may be some opportunities for the U.S. to leverage its 
contributions this way. There are also economies of scale in areas like 
shipping and logistics in using WFP; we move 40 percent of world food 
aid so we can do it more cheaply and that is vital when every ton 
counts. And I can tell you that when the going is tough--as it was in 
Afghanistan--the donors turn to us because we deliver and we have a 
long record of working well with more than 1,000 NGO partners 
worldwide.
    The second step we must take against hunger is for countries to 
invest more in agriculture. With hunger and malnutrition far from 
eradicated in the developing world, more donor aid needs to be targeted 
on agriculture. Yet investments continue to drop. In 1988, Official 
Development Assistance for agriculture was roughly $14 billion, but it 
was barely $8 billion in 1999. That is hardly logical when the number 
of hungry is on the rise in so many countries. A bright point here is 
that some donors are beginning to turn that situation around; the 
United Kingdom, for example, has boosted its aid for agriculture 
fivefold and USAID raised its aid by 38 percent last year.
    Third, we must free up the private sector. What so many food 
insecure countries have in common are inappropriate restrictions on 
private enterprise in agriculture. They fail to acknowledge what the 
introduction of market measures has done for agriculture in other 
developing countries. According to my colleagues at UNDP, the largest 
mass movement of people out of poverty in history took place in China 
in the mid 1980s when the Government introduced a market system in the 
food sector. Roughly 125 million people rose from the ranks of the 
poor. Yet so many countries where WFP works still impose inflexible, 
state controlled economics on food production.
    Fourth, we need to invest more in nutrition, educational and school 
feeding programs in. the developing world, especially targeted on 
girls. Seven out of the hungry worldwide are female. In Africa, donors 
need to move in aggressively to support NEPAD--a home grown effort 
targeted at, among other things, bringing 40 million African children 
into school using school feeding and other mechanisms that support 
education.
    There is no point in investing in new ports, roads, and schools, if 
we are not investing in sound nutrition for the children who will one 
day use them. One hundred and twenty million children are already 
stunted from malnutrition. They cannot wait for good governance, sound 
investment and even the wisest of aid projects to reach their villages 
and towns. Their lives are not on hold. They are hungry now and that 
hunger is crippling them and robbing them of a future.
    We look especially to the U.S. here--former Senators McGovern and 
Dole have been major advocates of school feeding and the Bush 
Administration has made the Global School Feeding legislation 
permanent. But the funding falls so incredibly far short of needs. U.S. 
domestic nutrition programs are budgeted to receive $42 billion in 
funding in FY 2004--so far funding for Global School Feeding is set at 
$50 million. Is that in the long term interest of the United States? 
Are we not better off having well nourished children in schools 
learning in Afghanistan, Central America, and Africa?
    Finally, we need a new global trade environment. As the Secretary 
General has noted, we need a trading system that encourages African and 
other developing country farmers to produce and export. They simply 
cannot compete with developed country subsidies that now amount to 
nearly a $1 billion a day and allow food to flow into poorer countries 
making private investments in agriculture unprofitable. I am from the 
Midwest and an ardent believer in support for America's farmers, but we 
must negotiate a system--especially with Europe and Japan which have 
far higher farm subsidies--that will not stifle farmers in poor 
countries. Food aid is inherently a short term solution, the people of 
the developing world must be given the conditions and tools they need 
to feed themselves.
    Separating humanitarian aid from political decision-making has not 
worked in the past. It will not work in the future. People are hungry 
because governments have made the wrong political decisions. In the 
end, hunger is a political creation and we must use political means to 
end it.

                               __________

  submission on north korea to the senate foreign relations committee
    North Korea presents the most politically troubling and frustrating 
food crisis in the world today. On the one hand there is continuing, 
desperate need. But, on the other, no government in history has ever 
made normal food aid monitoring so very difficult. Hungry people who 
cannot help themselves have a right to food, but donors providing that 
food have a right to know it is getting to those hungry people.
    Over the eight years of the food aid program in the DPRK, WFP staff 
have literally spent thousands of hours trying to convince North Korean 
officials of the wisdom of a more transparent monitoring regime. 
Monitoring has been a concern of all our major contributors, not just 
the United States. There has been progress, but it has only been in the 
last few months that a very clear signal has gone out to the DPRK 
Government from the United States, as the principal donor, that meeting 
WFP's normal monitoring standards is essential. We hope that signal 
will produce more movement because the humanitarian situation remains 
grave.
    Last fall, lack of resources led WFP to cut the rations of 3 
million North Koreans, mostly children and the elderly. In 2002 some 37 
percent of planned distributions had to be suspended. Reviving 
donations will not be easy. Japan remains averse to contributing food 
aid because of the issue of kidnappings and the targeting of North 
Korean missiles. The United States has pulled back in response to 
reports of diversions it found credible began to surface. South Korea 
will likely remain committed to food aid, but perhaps most will 
continue to be unmonitored and outside the scope of the United Nations.
    Where do we go from here? Well, first, it is critical for the 
committee and the Bush Administration to understand precisely where we 
are with the North Koreans on monitoring. It would be wrong for me to 
depict the regime in Pyongyang as totally uncooperative. Over the years 
the number of WFP staff permitted has steadily risen and monitoring 
site visits were up 25 percent last year. Nevertheless, there remain 
serious problems:

  <bullet> We have received approval for satellite communications from 
        Pyongyang and our sub-offices, but not permission to use the 
        sat phones we imported;

  <bullet> We have access only to 85 percent of the population, even 
        though we are quite certain there are needy people in counties 
        where we are not permitted to enter;

  <bullet> We do not have random access to feeding sites, though the 
        notice time we must give for visits has been reduced;

  <bullet> We are not permitted to have native Korean speakers, though 
        some WFP staff are studying the language, and finally,

  <bullet> We do not have a complete list of beneficiary institutions, 
        though one was promised in August of 2001.

    So you will get no argument from WFP that the Government of North 
Korea has given us the same level of monitoring access we have in our 
other food aid operations. They clearly have not. I raised these issues 
personally and forcefully with North Korean officials, as did my 
predecessor on numerous occasions.
    Under these circumstances, why have we continued to provide food 
there? While we cannot guarantee there have not been food aid 
diversions, we have reasons to believe that most food is getting 
through to the women and children who need it. The most compelling is 
the recently released follow-up nutrition study. The first nutrition 
study done by UNICEF, WFP and the North Korean Government in 1998 
showed catastrophic damage, especially to children. The nutrition 
survey released last week shows notable progress, though I would 
caution that the stunting rate is still extremely high.

  <bullet> The proportion of children underweight (weight-for-age) has 
        fallen from 61 percent in 1998 to 21 percent in 2002.

  <bullet> Wasting, or acute malnutrition (weight-for-height), has 
        fallen from 16 percent to 9 percent.

  <bullet> Stunting, or chronic malnutrition (height-for-age), has 
        dropped from 62 percent to 42 percent.

    Our emergency operation for 2003 calls for 512,000 metric tons (MT) 
of food at a cost of $200 million. As in the past, we will continue to 
target those most at risk--the youngest children, pregnant and nursing 
women, caregivers in children's institutions, some of the elderly. 
These total more than 4 million people. We also plan to reach another 
2.2 million North Koreans for shorter periods of time in the 
agricultural lean season through food-for-work projects.
    While the size of our intervention this year is about 15 percent 
smaller than last years plan in part because of a better harvest, it is 
vitally important we continue or we risk losing many of the nutritional 
gains made in past years; there will surely be more stunting and 
malnutrition among child bearing women and children.
    I visited our operations in DPRK late last year. I traveled to food 
insecure regions far from Pyongyang, talked to our staff and the people 
we assist, and observed how our programs have really made a difference. 
I would only put forward my personal appeal: if millions of young 
children are to avoid lasting mental and physical damage from chronic 
hunger, we have to ensure that food aid continues. But we must all work 
together hard on accessibility, accountability and transparency, even 
if the political climate warms. The problems are too great for us to 
throw up our arms and go home, as a few aid agencies have, abandoning 
some of the most malnourished women and children in the world.


    The Chairman. Let me indicate that we will try, at least 
for our first round, to keep to a seven-minute limit for each 
Senator. And when Mr. Natsios arrives, we will have his 
testimony, but we will take advantage of Mr. Morris for the 
moment.
    Let me begin the questions by asking: What requirements or 
requests have come from the World Food Program to the United 
States government? Is this the only source of food that you 
hope to have? And as an authorizing committee, what kind of 
requirements should we be looking at?
    Mr. Morris. The funds sought by the World Food Program this 
year are something in the neighborhood of $2.4 billion. It is 
$600 million more than last year, by and large because of 
Africa. And I should say these numbers do not include any of 
the work that we will be doing should things become more 
difficult in Iraq. That is a different set of economic matters.
    Last year the United States provided about half of what we 
had to work with. Something more than $600 million came from 
USAID, several hundred million dollars came from the Department 
of Agriculture, and several more tens of millions of dollars 
came from other places in the State Department.
    The Chairman. Was it USDA in kind, or with cash, or how was 
it done?
    Mr. Morris. USDA is essentially in kind. They pay the 
indirect support costs and the transportation in cash.
    The Chairman. Okay.
    Mr. Morris. We are obviously hopeful that USAID will 
continue to support us generously. We have an extraordinary 
relationship with USAID. We work together hand and glove 
programmatically all over the world.
    The loss of the 416(b) commodity support for humanitarian 
assistance was sort of a $260 million hit to the World Food 
Program. Now we made part of that up in cash support from USAID 
and, in fact, we raised nearly $200 million more in value from 
the rest of the world last year than we had raised in 2001.
    But our appeal will be for USAID support to grow and that 
USAID be more focused hopefully on making development 
investments as opposed to the pressure they have to focus so 
heavily on emergency issues. And the specific--if the world is 
serious about the UN Millennium Development Goals of cutting 
hunger and poverty in half by 2015, and if we are committed to 
addressing issues of infant mortality, and mother and child 
health, and getting more children in school--our work in 
feeding school children around the world is one of the most 
important things we do and the most important development 
agenda we have. There are 300 million hungry children in the 
world. Half of them do not go to school, and two-thirds of the 
half are young girls.
    We have an extraordinary program, the McGovern/Dole 
international education effort, that has made resources 
available to provide a meal at a cost of 19 cents a day to a 
child to encourage the parents to send the child to school. A 
hungry child has no chance to learn. A child that is fed has 
all the chances to learn. The child comes to school, and we 
have the opportunity to pursue health interventions and the 
opportunity to dramatically change a child's life.
    In the beginning, the U.S. Government had committed $300 
million to this program, last year $100 million, and the number 
that is in the budget this year is $50 million. My strongest 
hope is, and I believe the most important thing we can do both 
to give hope and opportunity to kids, to cut hunger in half, 
and to begin to build the infrastructure in the poorest parts 
of the world so that economic vitality can occur, is to educate 
children. And feeding them is fundamental to that. My hope is 
that the U.S. will find a way to become once again a very 
generous proponent, supporter of our school feeding program. 
And the U.S.'s leadership in this effort is key to inspiring 
the rest of the world to join on board.
    The Chairman. Before recognizing Mr. Natsios, which I will 
do in just a moment, I want to raise just one more question. 
The figure of 24,000 people dying of starvation every day has 
been attributed to the World Food Program. Is that more or less 
accurate, and what is the source of that statistic, or how is 
that information collected?
    Mr. Morris. Senator, those numbers are a combination of the 
research of the World Health Organization, UNICEF, the Food and 
Agriculture Organization, and the World Food Program. To take 
that number apart, on the face of it, the number of 24,000 
people dying of hunger or related health problems caused by 
hunger--and by the way, the World Health Organization once 
again affirmed it last year, that the most serious health 
problem in the world is hunger. It is number one on their list. 
But 18,000 of the 24,000 are children. And the places around 
the world where children die under the age of two, or under the 
age of five because they are not fed properly or they are born 
to mothers who do not have proper nutrition, are extraordinary. 
So that is the number we use and we trust the number.
    The Chairman. Well, it is a significant and really 
horrifying number, which certainly indicates the importance of 
our inquiry, even more so the importance of the work that you 
and our witnesses today are doing. The loss of 24,000 people a 
day in the world, if it occurred under any other circumstances, 
such as a natural catastrophe, would truly be remarkable and 
horrible. The fact is that we have been inured, perhaps, by the 
fact that these issues are out of sight, out of mind, to the 
horrors that are signified by that statistic. I thank you very 
much for your response to my questions.
    The distinguished ranking member has arrived, and I will 
call upon him for his greeting and opening statement. We have 
had testimony from Mr. Morris and one round of questioning from 
myself at this stage. And as I indicated, that on your arrival, 
you would be recognized and then Mr. Natsios will be recognized 
for his testimony.

 OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR 
                         FROM DELAWARE

    Senator Biden. Well, thank you very much, Mr. Chairman. I 
apologize for being late. I was committed to give an interview 
on Iraq. And for some reason, I did not have all the answers. I 
do not know.
    I would like to thank you, Mr. Chairman, for holding this 
hearing on hunger around the world and the challenges of an 
effective U.S. response. As the Chairman and those that are in 
the room are well aware, there are a number of countries across 
several regions that have long been facing severe food 
shortages. North Korea and Africa are specifically mentioned in 
the hearing title. But food needs in Latin America, South Asia, 
the Middle East are just as urgent and concern us all greatly.
    And we have got a lot of urgent issues in our box: 
preventing North Korea from becoming a plutonium factory, 
dealing with Saddam Hussein, helping establish peace and 
security in Afghanistan. In that context, it is a little bit 
too easy, I think, for all of us to dismiss the problem of 
hunger. I am not suggesting our friends in front of us dismiss 
the problem. They do not at all.
    I will cut to the chase today as they say, Mr. Chairman, 
and suggest that the thing that perplexes me the most, and 
after my colleagues have asked their questions--I will wait 
until then because I am late--I think the amount requested for 
PL 480 Title II food assistance is the same amount of money 
that was requested last year. And I do not know where in the 
budget--it may exist--where the humanitarian assistance and 
food aid for Iraq is factored in. I mean, where will that come 
from? I do not think it is, but I do not know where it comes 
from.
    And I do not know whether or not in any negotiation with 
North Korea, if we get to that point, what impact the food 
assistance which is of a dire concern and necessity in the 
North, assuming we get to that point, how that all factors in. 
And so I am looking forward to hearing--being brought up to 
speed on what the witnesses have already said, or at least what 
Mr. Morris has already said, and hearing Mr. Natsios speak to 
this.
    But I would ask for unanimous consent that the remainder of 
my statement be placed in the record as if read. And I thank 
you both for being here, and you, Mr. Chairman, for the 
courtesy of allowing me to make this brief opening statement.
    The Chairman. It will be placed in the record in full.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    I'd like to thank the Chairman for holding this hearing on hunger 
around the world and the challenges of an effective U.S. response.
    As the Chairman and those in this room are well aware, a number of 
countries across several regions are and have been facing severe food 
shortages. North Korea and Africa are specifically mentioned in the 
hearing title, but food needs in Latin America, South Asia and the 
Middle East are just as urgent, and concern me greatly.
    We've got a lot of urgent issues in our in box: preventing North 
Korea from becoming a plutonium factory, dealing with Saddam Hussein, 
helping to establish peace and security in Afghanistan.
    In that context, it would be all to easy to dismiss the problem of 
hunger. To do so would be a very grave mistake. We have the means to 
help address food needs world wide, and considering the relative 
abundance in the United States, a moral obligation to do so.
    What I would like to hear from our witnesses today is how we can 
better respond. Over the last six years the United States has provided, 
on average, nearly 55 percent of total global food aid and just over 45 
percent of total contributions to the World Food Program. That seems 
like a pretty solid record. Despite our best efforts, however, there is 
still a tremendous amount of need that goes unmet every year.
    In light of that fact, I have several broad questions that I hope 
that our witnesses will address in their testimony today:

  <bullet> First and foremost, what could the United States be doing 
        that we are not now doing to help meet global food needs?

  <bullet> Second, is the rest of the international donor community 
        stepping up to the plate in terms of contributions? If not, why 
        not; and what can we do about it?

  <bullet> Finally, what impact is HIV/AIDS having on both emergency 
        food needs and long term food security needs, especially in 
        Africa?

    I look forward to hearing from our witnesses.

    The Chairman. And Mr. Morris in his opening statement, as 
you suspected, indicated that emergency feeding in Iraq, if 
necessary, really is not in the budget. And so this will 
require the attention of a lot of people, including our 
committee as we pursue the contingency situations in Iraq.
    I would like to call now Mr. Andrew Natsios. It is great to 
have you again before the committee. We would like to hear your 
testimony.

  STATEMENT OF HON. ANDREW S. NATSIOS, ADMINISTRATOR, UNITED 
          STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Natsios. Thank you very Mr. Chairman, and members of 
the committee. I apologize for being late this morning.
    I would like my written testimony to be placed in the 
record. I will not read it because it would take an hour and a 
half to do it.
    The Chairman. Published in full, yes.
    Mr. Natsios. I really am so pleased to be here this morning 
on a subject that is very close to my heart, and an issue that 
is of enormous importance to the United States and the 
international community; and to be here with one of my new best 
friends, Jim Morris, who has become a rock in crises around the 
world. He is a man of great leadership ability, of managerial 
competence, and he is rapidly taking up the leadership of WFP. 
I have never actually seen a senior UN official able to ramp up 
to a level of competence as he has in such a short period of 
time. He actually makes me tired watching him travel around the 
world. I thought I had a tough schedule.
    But I also want to give particular testimony today to WFP 
as an institution. The UN agencies and institutions sometimes 
take heavy hits. And I have to tell you, I have been some of 
the--a critic of some of those institutions, and I will not 
mention them by name. But there are a number of international 
institutions: The International Committee of the Red Cross, the 
International Organization for Migration, UNICEF, and WFP. If I 
could count on the organizations we rely on in the United 
States government as partners to get their work done, among the 
top five in the world would be the World Food Program.
    The staff, the career staff, are of exceptional competence, 
and I have worked with them in the NGO community when I was in 
the NGO community for five years. I worked with them in the 
first Bush Administration. And in each year, they grow in their 
competence and ability. So thank you so much for being here.
    This is a particularly critical time because we have 
something that is very unusual. We have multiple crises at the 
same time. Some of them are induced by bad policy, some by 
predatory governments, some by war, and some by disastrous 
weather conditions, droughts. We have examples of each.
    In Ethiopia, we have weather conditions complicated by 
policies that need to be changed. We have Afghanistan that was 
struck by 20 years of civil war that was a particular category 
of famine. And of course, we have Zimbabwe which was a food 
exporter, one of the powerhouses economically of Southern 
Africa, now a basket case, rapidly sliding into a disastrous 
famine that is politically induced. It is politically induced.
    I have seen up close, both in my role in U.S. Government in 
the first Bush Administration and now, and in the NGO 
community, the horror of famine. I have written books on it. I 
have written articles on it. It is something that has been 
embedded in my mind. I sometimes dream about it because it is 
so horrifying. The Western mind cannot conceive of the horror 
of famine. We have never had a famine in the United States in 
our recorded history. That is probably why it is such a distant 
reality.
    Photographs are not sufficient to understand the horror of 
it. The disfigurement of people who are its victims is so 
terrible. Basically what happens is, as the human body stops 
caloric intake, the body consumes itself to survive. That is 
what starvation is. The body takes calories from the body and 
allows it to survive, and that is why you have the terrible 
disfigurement of it.
    Famines are almost always characterized by mass graves 
where hundreds or thousands of bodies are placed in one large 
grave. The only thing comparable in my mind to famine is 
genocide, and the two are comparable in many cases. And in 
fact, in this last century two genocides, two famines were in 
fact genocides. One was the Cambodian genocide under Khmer 
Rouge. Fifty percent of the people who died in that famine, in 
that genocide, were in fact victims, deliberate victims of 
famine. Of course, Stalin killed 12 million Kulaks in the 
Ukraine in the 1930s, and that was a deliberate attempt to wipe 
out an entire class of people.
    Next week, the Bush Administration, with our allies in the 
G8 will unveil a major new international effort to end famine. 
It is a direct initiative of the President himself. I have been 
given instructions by the President and Secretary of State to 
do all we possibly can to avoid famine around the world.
    The causes of famine are not just drought. I just want to 
say that again. Too many people associate famine in the world 
with one cause, and that is drought. And while some famines are 
caused by drought, they are almost always accompanied by other 
things. We have had a terrible drought in the United States. It 
has been one of the worst agricultural years since the 1930s, 
or the dust bowl in the early 1930s. We do not have a famine in 
the United States. There are drought conditions, major drought 
conditions, in many upper income developing countries, and 
there is no famine, and no food insecurity.
    War causes famine sometimes. In the Sudan, war has killed 
2.5 million people, most of it through starvation deaths. The 
same thing happened in Afghanistan. Afghanistan has the highest 
child mortality and maternal mortality rate in the world. 
Twenty-five percent of the kids do not survive past five years 
old, all related to war, but complicated by food insecurity.
    The Zimbabwean famine was completely preventable. Let me 
say that again. The drought that has affected Southern Africa 
would not have affected Zimbabwe, because 50 percent of the 
farming system of Zimbabwe is irrigated agriculture and the 
lakes were all full of water. It was just a short drought that 
killed the crop. If they had not done this disastrous 
confiscation of the large farms, Zimbabwe would have had more 
than enough food to feed their entire population. Complicated 
by that, there are ten other policies they pursued that have 
been a catastrophe for the food security system of the country.
    One of the major causes of famine is a disinvestment in 
agricultural development. The United States government was 
spending $1.3 billion in 1985 in agricultural development. When 
I arrived at USAID, the amount had gone down to $240 million. 
So it is billion-dollar cut over fifteen years, nothing to do 
with partisanship. It went over several administrations of both 
parties. The fact of the matter is that, in my view, it was the 
worst possible decision that could have been made.
    Most of the economies of the developing world, particularly 
the poorest 48 countries, are agricultural economies. Eighty 
percent of the people in Africa make their living from herding 
or sedentary agriculture. If you do not invest in agriculture, 
how are those people going to eat? If you look at the system in 
agriculture in Africa, there has been a steady decline in 
agricultural productivity over the 15 years since the cuts in 
aid.
    And by the way, when the United States cut its budget in 
agriculture, guess what else happened? The World Bank did. All 
of the regional banks did, and the Europeans and the Canadians 
did. We were followed; we led in a very disastrous way. We are 
trying to build that budget back up again. I am told repeatedly 
there is no constituency in this city for agricultural 
development. I refuse to believe that, particularly with the 
number of farmers we have in the United States Congress. I note 
several on this committee, who are in addition to being United 
States Senators, came from farm families. I refuse to believe 
there is not a constituency in the United States Congress or in 
Washington bureaucracy to invest in agriculture as a way of 
dealing with hunger and dealing with economic growth.
    HIV/AIDS is also complicating the catastrophe in Southern 
Africa and in other areas of the food insecure world because 
the HIV/AIDS pandemic spreads much more rapidly when there are 
high rates of food insecurity.
    Now there are two kinds of famines, and I would like to 
sort of draw the distinction because we think of all famines as 
the same. They are not all the same. There are supply driven 
famines where there is a drop in food production that is 
dramatic. And then there are demand driven famines where there 
is plenty of food at reasonable prices, but people have no 
money to buy the food because they are so poor. Afghanistan was 
the latter case. It was a demand driven famine.
    And I want to just--I am not being critical now, but the 
fact is the tools available to us are almost always just food 
aid. And I have told people in the Administration, if we are 
going to stop famine, we have to have food aid, a robust amount 
of food aid, and other tools at our disposal such as cash-for-
work projects. The appropriate response in the Afghan famine, 
or drought, or war food insecurity of 2001 that we faced when 
we first arrived there with our troops was not driven by 
agricultural collapse primarily. It was driven by complete 
collapse of the national economy and of family income. The 
appropriate response would have been cash-for-work projects to 
increase family income for them to buy food. There was no 
absence of food at reasonable prices in the markets in 
Afghanistan. We could have done the whole thing with no food 
aid at all because we could have just increased family income 
with these cash-for-work projects.
    Ethiopia is the opposite. There has been a 25 percent drop 
in food production in Ethiopia because of this drought. And 
without bringing food in from the outside, we cannot fight the 
famine. Why is that? Because food prices are now dramatically 
rising in Ethiopia to 200 or 300 percent. And there is a 
relationship between markets and starvation. When prices go up 
in 6 months by 300 percent, and you have an income annually of 
$150, there is going to be a famine because people do not have 
that much money to be able to adjust to this massive increase 
in prices in the markets.
    When we talk about famine and food insecurity, Jim always 
puts out in front of everyone the notion of the markets as 
being an essential role in dealing with famine response. It 
cannot just be food aid. We could never provide enough food aid 
to feed everyone in any country in a food emergency. There are 
political famines that are made up by bad policy. I mentioned 
Zimbabwe.
    I also mentioned North Korea. North Korea is a politically 
induced famine. It has been going on now, the food emergency 
there, for eight years. It started in 1994. Droughts do not 
last eight years. There are disastrous, Stalinist economic 
policies in North Korea. Even though they have had their best 
crop in eight years this year, they still do not produce enough 
food to fundamentally feed the country.
    Now, let me end by three points here. One is, if we are 
going to fight famine, we need the food aid. And I just want to 
say, Senator Nelson, we are so pleased at the amendment that 
you offered because that $250 million is going to buy food for 
these complicated emergencies that we are facing right now. So 
I want to thank the Senate and the House for initiating that 
and for providing us those resources. They make a big 
difference. Another thing we need to continue is the Emerson 
Trust. That is an important savings account that we need to 
make sure that we have the resources when there are multiple 
emergencies at the same time.
    The second thing we need is a focus on agricultural 
development. We are hiring a lot more agricultural economists. 
When I arrived, I think there were 40 left in USAID. There used 
to be 300. We are back up to 80 or 90, and we are going to hire 
far more agricultural economists, agricultural scientists. We 
have a major new initiative we announced, Secretary Powell and 
I at the President's instruction, at Monterey, and then in 
Johannesburg.
    The third is that we need other tools than just food aid. 
And that is why the President announced three weeks ago in his 
weekly news address, his weekly radio address two new 
initiatives: One for complex emergencies of $100 million, and a 
$200 million budget for fighting famines through cash, local 
purchase of food when food cannot be moved rapidly enough, and 
for cash-for-work projects. These are very important tools we 
do not now have in sufficient quantity to fight a famine. That 
is in the budget for the 2004 year. That has been added to the 
USAID budget for those years.
    Finally, when we talk about famine and talk about food 
insecurity, we need to look at the markets. One way of dealing 
with famine and food insecurity is not just giving people food; 
it is selling food in local markets when the price has gone up 
300 percent to stabilize the price so that the middle class can 
still afford to access these foods. And WFP and USAID have been 
talking about ways in which we can use food as an intervention 
for the poorest people directly, but also to stabilize prices 
in highly unstable situations where the prices are rising at 
dramatic rates over a short period of time.
    I could talk on for the rest of the day, Senator, but I 
know you all have questions. Thank you very much.
    The Chairman. Well, thank you for that testimony.
    [The prepared statement of Mr. Natsios follows:]


                Prepared Statement of Andrew S. Natsios

    Chairman Lugar, members of the committee: It is an honor to be here 
today to discuss the status of worldwide food security, the role of 
U.S. food aid programs, and the increasingly difficult issues that the 
U.S. and the international community face trying to meet the 
humanitarian food needs of people around the world.
Famine
    Mr. Chairman, persistent hunger continues to be one of the most 
significant global development challenges that we face today. More than 
800 million people worldwide, three-quarters of whom live in rural 
areas, are seriously malnourished. Most of these hungry people live in 
sub-Saharan Africa and South Asia, although there are groups in all 
regions of the world that are vulnerable to undernutrition, either 
continuously or during specific seasons. Most of the hungry are 
farmers, but they are unable to produce adequate food and income to 
ensure their families' well being. Under constant stress from chronic 
poverty, malnutrition, and disease, these vulnerable groups can he 
pushed over the edge toward famine by drought, damaging government 
policies, or conflict.
    Today, we are confronted with concurrent food crises in many areas 
of the world, most notably in Afghanistan, southern Africa, the Horn of 
Africa, and North Korea. We are witnessing for the first time a 
convergence of what the Economist magazine refers to as the ``double 
curse'' of HIV/AIDS and food insecurity. In these difficult times, the 
international community must be pro-active in addressing the causes of 
food insecurity thus preventing famine and its causes.
    The United States committed at the World Food Summit 2002 to join 
with partner countries and other donors to implement a three-pronged 
effort to cut hunger in half by 2015. That commitment addresses access 
to food, availability of food, and the utilization of food by 
increasing agricultural productivity, ending famine, and improving 
nutrition. In order to make progress in this tripartite effort, we need 
to better understand food insecurity and famine. Fortunately, the 
international community continues to learn vital lessons from its 
experiences in using food and non-food resources as global responses to 
these complex food insecurity problems. One of the most important 
lessons that we have learned is that food aid and humanitarian 
assistance alone will not prevent these crises from re-occurring, even 
in the short term
    Famine is an economic crisis in which large numbers of people 
experience starvation and associated mortality. Most famine scholars 
and practitioners would agree that the understanding of famine and its 
complexity has grown enormously over the past half century. This 
research tells us that famine is a process, not an event. It is a 
process that provides us with early indicators (i.e. pre-famine 
indicators) of its onset. Despite this :research too many people 
attribute famine to drought conditions, when the reality is much more 
complex. We now recognize that regressive agricultural policies, failed 
markets, and destructive conflict drive famine more than drought alone. 
These characteristics of fragile, failed, and failing states, 
particularly when combined with a drought and high rates of HIV/AIDS, 
are the conditions that allow famines to occur. Only by addressing the 
root causes of these failures with the appropriate tools can the 
international community expect to prevent famines from occurring.
    Because multiple crises occur simultaneously, the task of 
accurately identifying and addressing the root causes of famine is far 
more complex today than when drought was thought to be ``the only'' 
famine problem. Furthermore, the potential costs of responding with the 
wrong tools, at the wrong time can be terrible, particularly given the 
cost of ``last resort'' interventions such as airdrops of food aid.
    As the President's Coordinator for International Disaster 
Assistance, I have visited famine-prone situations throughout the world 
and have watched vulnerable people cope with multiple famine threats. I 
am convinced that the best way to provide assistance to vulnerable 
families is to provide relief that also contains the seeds of their 
recovery.
    When we see early indicators that may lead to famine, we need to 
intervene in ways to support the economic structures on which 
vulnerable families' survival depends. We are most familiar with using 
food aid to respond to situations approaching a famine. In many cases, 
this is the correct response particularly in the short term. In other 
famine conditions, however, the total availability of food is not the 
primary issue. Where sufficient food is available for the local 
population--yet widespread food insecurity and hunger exists--we need a 
broader range of non-food famine prevention tools that can effectively 
address those factors that limit access to and utilization of those 
food resources
    The present food crisis in Ethiopia is an example of a supply-
driven famine. The country does not produce nearly enough food to feed 
its people, and it lacks the economic reserves to import sufficient 
food to fill the gap. In situations such as this, food aid, and more 
specifically imported food aid, is the appropriate short-term response. 
Food aid alone, however, is clearly not the long-term solution for 
Ethiopia.
    The current crisis in Ethiopia is just the most recent in a series 
of food security crises that have devastated that country in the last 
twenty years. The United States will provide more than $216 million 
dollars worth of food aid this year. During the same period, we will 
provide $4.0 million dollars of agricultural development assistance. 
While the Ethiopian government has taken a leadership role in 
responding to the famine it has been reluctant until very recently to 
embrace the policies that will stimulate growth and investment in its 
agricultural sector to avoid future famines.
    Unless the donor community invests in recovery and prevention 
initiatives while promoting good government policies, these periodic 
shocks will continue. The donor community must allocate more resources 
toward famine prevention activities such as those in the agricultural 
sector. At the same time, unless the Government of Ethiopia embraces 
accountable and open governance and enacts market and trade reforms 
necessary to increase the capacity of local producers, Ethiopia will 
remain in a chronic state of hunger. It is critical that we all do our 
part to put the systems and policies in place that will prevent the 
next food security crisis in Ethiopia from occurring.
    In Afghanistan during 2002, the international community was faced 
with essentially a demand-driven famine. The countries surrounding 
Afghanistan had plenty of surplus food available, thus ensuring price 
stability, to meet the needs of the Afghan people. Unfortunately, 
approximately eight million people in Afghanistan did not have the 
purchasing power necessary to buy enough food. In this case, the United 
States and the international community both responded primarily with 
imported food aid. However, the tools did not exist for the U.S. 
Government to respond more effectively and, possibly, at lower cost to 
the taxpayer. Donors recognized that a more effective response in some 
cases would have been to create employment generating opportunities 
that would have put cash, rather than food aid, into the hands of the 
poorest people who are most vulnerable in any famine. Cash would have 
allowed the people to meet their food needs and simultaneously 
stimulate markets and trade, thereby further promoting agricultural 
development.
    It is not just the humanitarian and developmental community that 
recognizes the importance of employment and income generating 
initiatives in promoting market and trade development. Gary Martin, the 
President and CEO of the North American Export Trade Associations 
recently said in a speech to the Capitol Hill Forum, ``. . . that the 
best, most sustainable way to stimulate the growth of U.S. farm exports 
is to provide for income growth in developing countries.''
    The Southern Africa food crisis is the result of a major drought 
complicated by disastrous government policies in Zimbabwe. First, the 
government of Zimbabwe implemented price controls for staples, such as 
corn, which inhibit production and trade. Second, it has backtracked on 
the liberalization of grain marketing, bringing corn back under the 
control of the grain marketing parastatal and creating a monopoly that 
prohibits open commercial trade. Third, the government's irresponsible 
expropriation of land from commercial farmers has decimated the most 
productive part of Zimbabwe's agricultural sector. As a result of these 
political actions on the part of the government, Zimbabwe has lost its 
position as a net exporter of grain.
    Southern Africa is also struggling with high rates of HIV/AIDS 
which have exacerbated the effects of the political errors of the 
regional governments. With the highest HIV prevalence rates in the 
world, Southern Africa has 28.1 million people living with the disease. 
In many cases, the disease is killing the most productive members of 
society, most notably in the agricultural sector. The economic impact 
is massive as investments are depleted and human resources are lost. 
HIV/AIDS is causing the collapse of social safety nets for families and 
communities thus undermining the ability of both to weather economic 
downturns.
    Efforts to promote an economic recovery in Southern Africa must 
focus on addressing the economic and market policies that have tied the 
hands of the private sector while simultaneously providing critical 
assistance to vulnerable groups--in particular those infected with HIV/
AIDS. The donor community, in this case, plays only a supporting role 
in the recovery of Southern Africa as the critical initiatives and 
actions related to economic reform must be driven by the governments of 
the region.
Response
    Africa is the textbook case that at once highlights agriculture's 
contribution to reducing hunger and the consequences if we do not 
succeed. The problem of hunger in Africa is large,and getting worse. 
The impact that this has on the prospects of current and future 
generations of African children, women and men is devastating.
    Our projections from USDA, the International Food Policy Research 
Institute (IFPRI), FAO, and the UN indicate that hunger in Africa will 
increase, given current trends of economic performance, agricultural 
growth, conflict and limitations of existing policy.
    At present, one third of the entire population of sub-Saharan 
Africa falls below the poverty line and goes to bed hungry each night. 
By 2011, an estimated 50 percent of the world's hungry will reside in 
sub-Saharan Africa. We cannot wait until then to take action.
    In Africa, meeting the Millennium Development Goal of cutting 
hunger in half means reducing the estimated number of hungry from 206 
million as of 2000, to approximately 103 million people by 2015. This 
is achievable, if progress can be made to accelerate agricultural 
growth, improve health and education, and reduce conflict.
    If the conditions are created for agricultural growth to 
accelerate, the future prospects of rural households in Africa are very 
promising. Per capita incomes can triple. Recent analysis by IFPRI 
indicates that it is possible to achieve the Millennium Development 
Goal of cutting hunger in half. Specifically, the analysis shows that, 
it is possible to make significant improvement in the incomes of the 
rural majority in Africa.
    Investing in an integrated agenda to increase agricultural growth 
and rural incomes, not only reduces the number of hungry, it can also 
reduce and save emergency food aid costs significantly. By 2015, at 
current projections, it is estimated that emergency food aid costs 
worldwide will be approximately $4.6 billion per year. Fostering 
agricultural recovery in famine prone countries can create substantial 
savings in future emergency assistance. If we invest now and increase 
agricultural growth and rural incomes, it is estimated that food aid 
costs will drop to approximately $2 billion per year. This is a net 
reduction of over $2.5 billion per year.
    While agriculture alone is not sufficient to end hunger or 
eliminate famines, hunger cannot be reduced or ended nor famines 
mitigated or prevented without agriculture playing a large and driving 
role in the development effort. In agriculture-dominated economies, 
including many African economies, agriculture accounts for greater than 
40 percent of the impact (more than any other sector) on efforts to 
reduce hunger. Recent studies have shown that a 1 percent increase in 
agricultural productivity could reduce poverty by six million people in 
Africa.
    If agricultural sector and rural incomes do not grow, however, the 
future prospects are bleak, and rural households could be poorer in 
2015, than they were in 1997.
A New Agriculture
    Over the next five years, USAID is renewing its leadership in the 
provision of agricultural development assistance. This is framed by a 
new agricultural strategy that reflects adaptations to major emerging 
opportunities. These new opportunities include:

  <bullet> Accelerating agriculture science-based solutions, especially 
        using biotechnology, to reduce poverty and hunger;

  <bullet> Developing global and domestic trade opportunities for 
        farmers and rural industries;

  <bullet> Extending training for developing world scientists and 
        agricultural extension services to third world farmers;

  <bullet> Promoting sustainable agriculture and sound environmental 
        management.

    These ``new agriculture'' initiatives provide the framework for our 
future activities. Under each initiative, the Agency proposes to launch 
a set of activities that broadly signal a shift in USAID leadership in 
this sector and may leverage new commitments and funding from others.
    Equally important, agricultural development is now seen as part, 
not the whole, of the solution. Investments in infrastructure, health, 
and education both reinforce and are made more viable by investments in 
agricultural growth.
U.S. Commitment to Reducing Hunger
    Mr. Chairman, the United States retains its strong commitment to 
reducing hunger around the world. At the World Summit on Sustainable 
Development, the Presidential signature initiative to End Hunger in 
Africa was announced. This 15-year initiative is committed to the 
concerns of agricultural growth and building an African-led partnership 
to cut hunger and poverty. The primary objective of the initiative is 
to rapidly and sustainably increase agricultural growth and rural 
incomes in sub-Saharan Africa.
    Congressional support for agriculture has also been strong. In FY 
2000 Congress passed revised Title XII legislation restating the United 
States' commitment to the goal of preventing famine and freeing the 
world from hunger. This legislation provided USAID with a new and more 
positive legislative framework that supports the emergence of a ``new 
agriculture'' in developing and transition economies.
Global Food Aid Needs and Availability
    The United States government will be taking the steps I have just 
described to help address the long-term causes of food insecurity and 
famine. For the foreseeable future, however, significant levels of food 
aid will still be needed to provide an international safety-net for the 
world's food insecure. As I mentioned previously, the world is 
currently faced with a series of large-scale food security crises. 
These crises have pushed international food aid requirements to their 
highest level ever. Global food aid availability, however, has dropped 
to its lowest level in more than five years. According to some 
estimates, global food aid requirements will exceed more that 12 
million metric tons in calendar year 2003--more than 3.0 million tons 
more than the past global average. Needs in sub-Saharan Africa alone 
are expected to exceed 5.0 million metric tons.
    Global food aid availability has been seriously reduced by a number 
of coincidental factors. According to the Food and Agriculture 
Organization (FAO), global cereal production declined more than 3.1 
percent this year when compared to last year. More alarming is the fact 
that global cereal production was more than 80 million metric tons 
below consumption requirements. In other words Mr. Chairman, the world 
consumed more grain than it produced last year.
    Only through the availability of carryover stocks, primarily in 
developed countries, is the world avoiding a global food shortage. 
Because of the reduced global grain production, prices are rising 
significantly for most major grains. Early in 2003, U.S. wheat and corn 
rices, for example, rose more than 39 percent and 25 percent 
respectively, although some commodity prices have begun to decline. All 
of these factors, when combined with declining donor food aid 
contributions, are expected to reduce global food aid levels to no more 
than 8 million tons this year. With needs approaching 12 million tons 
this year and estimated food aid contributions providing perhaps 8.0 
million tons, a food aid shortfall of more than 4.0 million tons is 
expected--the annual food requirement of approximately 20 million 
people.
U.S. Commitment to International Food Aid
    Mr. Chairman, the commitment of the United States to use its 
agricultural abundance to help the less fortunate around the world is 
stronger today than ever. President Bush mentioned U.S. food aid 
programs during his State of the Union address on January 28th of this 
year when he noted with pride that ``Across the earth, America is 
feeding the hungry; more than 60 percent of international food aid 
comes as a gift from the people of the United States.'' The President's 
comment was based upon the percentage of U.S. contributions to the 
World Food Program (WFP) in 2002.
    Congressional support for U.S. food assistance programs also 
continues to be very broad and bipartisan. The Consolidated 
Appropriations Resolution for 2003, which was signed by the President 
on February 20, provides $1.44 billion for P.L. 480 Title II 
activities. This level of funding will again in 2003 position the 
United States to be the largest, most responsive food aid donor in the 
world.
U.S. Food Aid Programs
    Mr. Chairman, the United States has a number of food aid programs 
that it uses to meet a variety of food, market development, and food 
aid requirements. These programs, which include, P.L. 480 Titles I, II, 
and III, Section 416(b) of the Agricultural Act of 1949, the Food for 
Progress program, and the McGovern/Dole Education Nutrition Initiative 
(MDENI) are administered either by the United States Department of 
Agriculture (Title I, Section 416(b), Food for Progress, and MDENI) or 
by USAID (Titles II and III). These programs are projected to provide a 
combined total of more than 4.0 million metric tons of international 
food aid in FY 2003.
    The largest of the U.S. food aid programs, and the program that 
exclusively addresses the nutritional needs of vulnerable groups, is 
the P.L. 480 Title II program (Title II). The Title II program is 
administered by USAID's Office of Food for Peace and is the flagship of 
U.S. humanitarian efforts overseas. On average, the Title II program 
has provided more than 2.0 million tons of U.S. agricultural 
commodities per year with a value of more than $850 million. With the 
$1.44 billion that the President has just approved for Title II, I 
expect that the program will provide in excess of 3.0 million metric 
tons this year.
    During FY 2002, the Title II program supported activities in 
approximately 45 different countries, in partnership with international 
organizations like WFP and the leading NGOs like CARE, CRS, and World 
Vision. These types of activities bring direct assistance to more than 
61 million people annually in both non-emergency and emergency response 
activities.
    In addition to our appropriated food aid resources, the United 
States continues to maintain the Bill Emerson Humanitarian Trust. The 
``Emerson Trust'' is a critical ``humanitarian reserve'' that remains 
available to meet urgent and extraordinary food needs. It is my hope 
that other donors, both traditional and new, will do their fair share 
to meet the needs of the world's most vulnerable people and thus 
obviate the need for the U.S. to draw from the Emerson Trust.
    At the urging of the U.S., in an effort to address famine and food 
security issues including current crises and prevention of future 
crises, a Contact Group of G-8 officials will meet informally in New 
York on March 5. The Contact Group will discuss these issues with UN 
Secretary General Kofi Annan, WFP, FAO and IFAD. This meeting will 
provide a forum for the WFP to again share with the donor community the 
fact that there is a 4.0 million metric ton shortfall in food aid 
availability.
    Mr. Chairman, four particular crises have dominated U.S. 
humanitarian efforts during 2002/2003: Afghanistan, southern Africa, 
the Horn of Africa (Ethiopia), and North Korea. A brief examination of 
three of these crises and our efforts to address the causes and effects 
of each, will help define for you and the committee the strengths that 
U.S. food aid resources can bring to bear on complex food security 
crises. At the same time, this examination will also illuminate some of 
the difficulties that we face in our efforts to meet the needs of some 
of the worlds most food insecure people.
Afghanistan
    Afghanistan, a once agriculturally self-sufficient country, was 
brought to its knees by the repressive and destructive Taliban regime. 
As recently as 1979, Afghanistan was producing enough food to feed 
itself. It was also a producer and exporter of high quality fruits and 
nuts to neighboring countries and the world. By the late 1990s, 
Afghanistan produced less than half of its pre-1979 level of grain, 
millions of people were dependent upon international food assistance, 
and hundreds of thousands of people had fled the country--living as 
refugees in neighboring Pakistan.
    As a result of the war on tenor and critical assistance from the 
United States and other donors, Afghanistan has, in just 14 months, 
begun a remarkable recovery. In the agricultural sector, with improved 
seeds provided in part by USAID, favorable weather, and a dramatically 
improved security environment, production increased by over 80 percent. 
Requirements for international food assistance in Afghanistan have 
dropped from nearly 800,000 metric tons per year to a level of less 
than 420,000 metric tons in 2003. While many Afghans still require 
partial food assistance, the international community expects a steady 
significant decline in the beneficiary levels over the next few years.
    In the case of Afghanistan, the international community and the 
Interim Government must focus on providing strong incentives and 
agricultural development resources for continued recovery and growth. 
USAID will be focusing on activities that promote good governance, 
strengthen the educational sector, and stimulate agricultural 
development.
Ethiopia
    In the fall of 2002, the Government of Ethiopia issued its first 
appeal for a looming crisis that they, and the international community, 
felt, under a worst-case scenario, could affect as many as 15 million 
people. As a result of low and erratic rainfall during both the major 
and minor rainy seasons in 2002, Ethiopia was faced with an anticipated 
food deficit of more than 2.3 million tons. The drought, which followed 
just two years after another serious drought, had exhausted the coping 
mechanisms of millions of pastoralists and subsistence farmers making 
them completely dependent upon international food assistance for their 
survival.
    Since the first Government of Ethiopia appeal, the United States, 
through USAID's Office of Food for Peace, has provided more that 
500,000 metric tons of food aid to the people of Ethiopia with a value 
of more than $220 million dollars. This assistance totals approximately 
25 percent of the 2002/2003 food aid requirement in the country and, 
together with the contributions of other donors, is expected to meet 
the needs of the country through the end of May of this year. 
Unfortunately, even with this tremendous Level of assistance, Ethiopia 
will be faced with renewed food shortages beginning in June, unless the 
international community is able to provide further significant 
contributions of food.
    In addition to a lack of donor resources, Ethiopia faces a number 
of logistical issues that negatively affect our humanitarian programs. 
As a landlocked country, Ethiopia must rely on the ports in other 
countries to receive any donated commodities. The port of Djibouti is 
currently handling the vast majority of Ethiopia's food aid shipments, 
but it is stretched to its capacity. In addition to the port 
limitations, Ethiopia has a limited number of commercial trucks 
available to move food aid from the ports to the recipients around lie 
country. Any disruption in the availability of those trucks, such as 
their use for fertilizer deliveries or military uses, can severely 
disrupt the delivery of humanitarian goods.
North Korea
    Since 1995, the United States has provided approximately 1.9 
million tons of food aid to North Korea valued at more than $620 
million. The food provided by the United States since 1995 represents 
approximately 58 percent of the total amount of food aid provided to 
North Korea through the WFP since the inception of their program. The 
President has publicly shared his concern for the people of North Korea 
and has reaffirmed the policy that U.S. food aid will not be used as a 
weapon.
    Today, after eight years of international assistance, the 
government of North Korea has done little to reform the destructive 
policies that created one of the worst famines in the late 20th 
century. At the same time, the humanitarian community in North Korea 
must still operate in an environment that violates almost every 
principle upon which humanitarian assistance is based In fact out of 
all of the countries in which WFP operates, North Korea stands alone in 
its wholesale refusal to adhere to internationally recognized 
humanitarian standards.
    As early as 1998, many NGO's with outstanding international 
reputations made the difficult decision to withdraw from North Korea 
rather than ignore the fundamental issues that brought them to North 
Korea in the first place. In addition, in 1998, the UN felt the need to 
define the basic humanitarian principles that would guide its 
activities in North Korea. These principles were articulated in the 
UN's 1999 Consolidated Humanitarian Appeal.
    In the case of North Korea, it is time for the donors, the WFP, and 
the Government of North Korea to resolve the issues that currently 
undermine the effectiveness of the program. While some of the 
impediments and difficulties encountered by the humanitarian community 
in North Korea might be expected in first few months of an emergency 
response program in an area or country with no functioning central 
government, they should not be expected or tolerated in a program that 
is entering its eighth year of international assistance.
    WFP has, since the beginning of their North Korea program in 1995, 
performed in an exceptional manner in a very challenging environment. 
In the past, unfortunately, the international community, including the 
United States, did not make it a priority to support WFP in their 
efforts to promote and enforce basic humanitarian principles in North 
Korea. This Administration strongly supports WFP in their efforts to 
resolve these critical issues. Now, let me give you a few examples of 
the impediments the humanitarian community faces in North Korea:

  <bullet> The government of North Korea has, to date, still not 
        provided the WFP with a listing of all beneficiary institutions 
        that receive WFP food aid. In other words, WFP cannot tell 
        USAID where the majority of U.S. food assistance was to be 
        delivered.

  <bullet> The government of North Korea has never allowed the 
        international community to conduct a countrywide nutritional 
        survey. During both the 1998 and 2002 surveys, significant 
        portions of the country were excluded. Most recently in 2002, 
        two of nine provinces and all closed counties were excluded 
        from the nutritional survey.

  <bullet> The government of North Korea currently des not allow the 
        international community to have access to 44 out of 206 
        counties. By some estimates, as many as 3.0 million people live 
        in the counties which are off-limits to international 
        humanitarian assistance.

  <bullet> WFP is not allowed to randomly monitor any food aid 
        distributions. The government of North Korea requires WFP to 
        request monitoring visits a minimum of six days prior to the 
        date of the intended site visit.

  <bullet> The government of North Korea does not allow WFP to employ 
        any foreign interpreters to facilitate interviews with food aid 
        beneficiaries, all interpreters are currently North Koreans.

    The impediments that I described above have created concerns, 
because the international community cannot have full confidence that 
food assistance is reaching the people for whom it is intended. As I 
noted earlier, the donor community, the WFP, and the government of 
North Korea must address this issue.
    Beginning with our December 2001 contribution to the WFP/North 
Korea activity and again with our June 2002 contribution, the United 
States began a process of publicly raising our concerns related to 
humanitarian monitoring and access in North Korea. In addition, my 
staff began a series of consultations with other donors and, on August 
22, 2002, the North Koreans themselves. Through these public 
announcements and consultations, we hope to do two things:

  <bullet> Educate the American people and the international community 
        about the current humanitarian conditions in North Korea and 
        the limitations imposed by the Government of North Korea on the 
        WFP.

  <bullet> Convince the Government of North Korea that substantial 
        international assistance can only be provided over the long-
        term when the donor community is convinced that the assistance 
        is reaching the people for whom it is intended.

    The United States remains committed to helping the people of North 
Korea. In fact, I am confident that the United States will be making an 
additional pledge to WFP's program in North Korea in a matter of days. 
Only by improving the transparency of the activity, will the donor 
community gain the confidence to consistently provide the level of 
humanitarian assistance necessary to meet all of the needs in the 
country.
Conclusion: Gaps and Future Challenges
    Mr. Chairman, as I have just reported, global food insecurity is 
complex and dynamic. There is no standard recipe of assistance that 
will solve all of the country or regional crises that I briefly 
described above. Each food security crisis must be addressed based upon 
the unique causes of that particular situation. The international 
community must develop a set of tools that are flexible enough to 
address the unique causes of each particular crisis. Those tools, 
together with the recipient government's attention to good governance 
and sound policies, will enable the global community to provide truly 
effective assistance.
    The U.S. food aid programs that I described above are clearly the 
most effective in the world. This Administration, from the President 
and the Secretary of State down through the foreign affairs agencies, 
however, recognizes that food aid programs are just one tool among many 
that are necessary to address the complex needs of the least developed 
countries in the world. To meet these complex needs, the President has 
proposed a number of new initiatives that will give the U.S. the 
capacity to assist in both the prevention and mitigation of food 
security crises around the world. Let me briefly describe each 
initiative.
    With his 2004 budget submission, the President has announced a new 
humanitarian Famine Fund. The President's Famine Fund is to be 
established at a level of $200 million in FY 2004. Use of the fund will 
be subject to a Presidential decision and will be disbursed by USAID/
OFDA and would be modeled after the International Disaster Assistance 
funds to ensure timely, flexible, and effective utilization. It is 
envisioned that this fund would support the following:

  <bullet> Rapid and effective response to crises signaled by famine 
        early warning systems.

  <bullet> Initiatives that leverage other donor support.

    The President's Budget also includes a proposal to establish a new 
$100 million U.S. Emergency Fund for Complex Foreign Crises. This Fund 
will assist the President to quickly and effectively respond to or 
prevent unforeseen complex foreign crises by providing resources that 
can be drawn upon at the onset of a crisis. This proposal will fund a 
range of foreign assistance activities, including support for peace and 
humanitarian intervention operations to prevent or respond to foreign 
territorial disputes, armed ethnic and civil conflicts that pose 
threats to regional and international peace, and acts of ethnic 
cleansing, mass killing or genocide. Use of the Fund will require a 
determination by the President that a complex emergency exists and that 
it is in the national interest to furnish assistance in response.
    Mr. Chairman, there are clear limits to what U.S. assistance can do 
to promote peace, stimulate development, and prevent and mitigate 
crises. Without the combined efforts of the donor community and, more 
importantly, the recipient governments themselves, progress will be 
limited. By combining our established tools, like our outstanding food 
assistance and disaster assistance programs, with new initiatives 
designed to focus on prevention and mitigation activities in least 
developed countries, however, we can significantly increase the 
possibility of either preventing a crisis from developing or, at least, 
reducing the severity of a crisis that does develop.
    I urge Congress to support these critical new initiatives that have 
been proposed by the President.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions the committee may have.


    The Chairman. You have included in a few minutes some 
extraordinary facts for our background that I think are 
extremely important.
    Let me now call upon Senator Biden. I have had one seven-
minute period of questioning and we will commence with your 
questions.
    Senator Biden. I want to go back to Iraq, and not talk 
about the budget, but about the infrastructure. If, in fact, 
there is a massive need--and I do not know that there will be, 
but if there is a massive need for humanitarian assistance, 
including food, how--that will in large part be distributed by 
the military. I assume--I do not know. But, I mean, have you 
been in on any of the planning? Have there been any discussions 
with you all about what part you would play? Not the budget, 
but just purely from this standpoint of infrastructure.
    Mr. Natsios. Senator, one, there is no food emergency in 
Iraq. People are well fed. The regime has doubled rations over 
the last six months to get more political support. And they 
have a functional distribution system. It is, however, a 
totalitarian distribution system. The state is the sole 
supplier of food to 60 percent of the population.
    Senator Biden. Right.
    Mr. Natsios. And the danger of that, of course, is when 
that is disrupted for any reason, it is disastrous. They did 
disrupt it deliberately. They shut off the Marsh Arabs, they 
emptied the marshes, as you know, in the mid-1990s, and they 
facilitated that by shutting off all the rations for the Marsh 
Arabs, and many of them died as a result of that. When they 
were purging Turkmen, they did it by shutting off all of their 
rations. And so they use it as a political weapon, in addition 
to a way of controlling the population.
    But it does work officially. There are 42,000 distribution 
agents. The rations are published in the papers every two 
weeks, who get ration tickets. It is a computerized system, and 
it actually, other than the abuses of it that are used by 
totalitarian states whenever you put all that power in one 
government's hands, works efficiently. And I have to say, the 
World Food Program--and I will let Jim talk about that--works 
very well in terms of the efficiency of the macro picture, at 
least in the Northern part of the country and the Kurdish 
area.----
    Senator Biden. Well, but----
    Mr. Natsios [continuing].----But in terms of what will 
happen should there be a conflict, our intention is to protect 
the existing system. It is funded through the Oil For Food 
Program.
    Senator Biden. Right.
    Mr. Natsios. We expect that program, and want that program 
to continue because the system works. We do want to add into 
the system----
    Senator Biden. That will continue, assuming that the 
contingency plans do not have to be initiated if he blows up 
the oil fields. It will continue if, in fact, there is some oil 
through which they can raise the money for food.
    Mr. Natsios [continuing]. There is actually----
    Senator Biden. It will continue if, in fact, the--I mean, 
the plans as I understand within this Administration are that 
we may have to assume responsibility to be feeding between 40 
and 60 percent of the Iraqi people. And the UN oil--the UN's 
Oil For Food Program may be disrupted for weeks, if not months, 
depending on the damage to the oil fields and disruption in 
administrative structures that exist.
    So, I mean, there must be some contingency plans. You have 
all--I mean, everything works fine assuming that the ``X'' 
thousand distribution points are not disrupted, the computer 
system functions, the oil flows, and all goes well. I do not 
know where the hell you guys are living. I mean----
    Mr. Natsios. Well, I would just separate the oil fields. 
Over the long term, that is a problem years from now. There is 
seven months worth of purchases that have already been made, 
and the money to do those purchases is already in UN accounts.
    Senator Biden. Okay.
    Mr. Natsios. There are $3 billion or $4 billion in these 
oil accounts of money that has already been put in them by the 
program. The purchases have already been done in neighboring 
countries. I could go through the countries that are the 
principal sources of the food that is imported into Iraq. So we 
are not really worried for the first nine months, even if all 
the oil fields should be blown up or put on fire as they were 
in Kuwait.
    Senator Biden. Okay.
    Mr. Natsios. After that, we have a problem, if those fires 
cannot be put out in that nine-month period. I was a soldier 
during the Gulf War. I was activated, and I was in Kuwait City 
literally two days after the ground assault started. I watched 
the oil fires, and I know how horrifying they are, but they 
were put out within a reasonable point of time.
    Senator Biden. I guess what I am trying to get at here is: 
Does this assume--are you operating on the assumption that, 
notwithstanding the fact we may not get a second resolution? I 
think we will, but we may not get a second resolution. There 
has not been, to the best of my knowledge unless my colleagues 
know something I have not been informed of, there has been no 
judgment made yet as to what role the UN would pay in a post-
Saddam Iraq. I mean, if there is one, I am unaware of it.
    And are you assuming that the UN will step in and, through 
its existing systems that are in place, be the distributors of 
the food and/or purchase the food? In other words, I am a 
little confused here. There may be simple answers to this, but 
this seems a little more complicated to me than you are making 
it sound. Can you tell us whether or not you are assuming that 
the UN will provide this function?
    Mr. Natsios. I can tell you the planning off line, Senator, 
but there are security problems in me describing in too much 
depth what we are doing. We do have a plan. It is quite 
detailed. We have been working on it for four months now.
    Senator Biden. I come from that era that you do where I 
learned when I ran at 29 years old, never trust anybody over 
30, and never trust a government official saying there is a 
plan that I have not seen.
    Mr. Natsios. I can show you the plan.
    Senator Biden. Well, I would ask unanimous consent that 
that would be made available to us in whatever classified form 
is necessary. But can you tell us: Is the UN in on the deal?
    Mr. Natsios. Yes, it is. But going into more detail puts 
people at risk, and I do not want to do that.
    Senator Biden. I do not understand that, but I will let 
that go.
    Mr. Natsios. Okay.
    Senator Biden. Because there is--anyway. Thank you.
    The Chairman. Let me respond to the Senator by saying that 
by unanimous consent we will ask that the plan be made 
available in classified form and delivered in the proper way.
    And I would mention that I suppose members of the committee 
saw that over the weekend a very large meeting occurred here in 
Washington of governmental officials of several agencies. I 
found out last evening that it included officials of Great 
Britain. I am not aware of other nations that may have been 
involved.
    I was heartened by the fact that, in our own small way, 
perhaps the committee meeting we had on February 11th 
stimulated some of this dialogue. I would hope, however, that 
those who are conducting the meetings would be in closer touch 
with the committee. We are intensely interested in them and we 
will have additional hearings, and so the dialogue will flow 
more easily if we are all better informed. But I am heartened 
at least by a great deal of activity involving, as I 
understand, 150 officials or more and this agency described to 
us that commenced about five weeks ago Monday.
    Senator Biden. I am heartened that it is commenced. I 
regret that it did not start until five weeks ago.
    The Chairman. With that, I will call upon--yes, do you have 
a comment, Mr. Morris?
    Mr. Morris. Sure. The World Food Program, we have 850 
employees today in Iraq. We are feeding 3.6 million Kurds in 
the North, and we monitor the feeding program, the Oil For Food 
Program in the Central part and Southern part of the country. 
Any time there is likely to be a problem anywhere in the world, 
we, with our UN colleagues and our donors, look at the issues 
and try to get prepared to put in place relationships so that 
resources and people are available. And I am confident that in 
this circumstance we will be able to do what needs to be done.
    The Chairman. Thank you very much.
    Mr. Hagel.
    Senator Hagel. Mr. Chairman, thank you, and good morning. 
Thank you, gentlemen, for appearing before the committee this 
morning.
    Mr. Morris and Mr. Natsios, would you address the issue of 
genetically modified agricultural products? Some governments in 
Africa have refused genetically modified corn, and I would 
appreciate your views on this, especially at a time as you have 
both very clearly articulated, we have 24,000 people a day 
dying around the world of hunger. And certain governments, it 
is my understanding, are disallowing genetically modified 
agricultural products into their countries. Mr. Morris, we will 
start with you.
    Mr. Morris. Thank you, sir. Only Zambia in Africa 
absolutely will not permit genetically modified food to come in 
the country. We have been using genetically modified biotech 
crops, foods, for many, many years.
    Our basic policy is that when we buy food from a country or 
a country gives us food, we ask them to certify that it meets 
the health and safety standards for consumption by their own 
citizens. We then double check those representations against 
something the WHO and FAO have called the Codex Alimentarius 
that speaks to food security, food safety. Once those 
certifications are made, we turn to the country, the recipient 
country, the country that needs the food, and we make these 
representations. And we say, ``You are a sovereign country. You 
have the right to say, `Yes, we want this,' or `No, we do not.' 
We have absolute confidence that there is no risk. There is no 
safety issue. WHO, FAO, and WFP have gone on record saying that 
we have confidence in this.''
    There is, and I do not understand it as well as I wish that 
I did, an amazing amount of mythology or folklore in parts of 
the world that has frightened people to death about the use of 
genetically modified food. From a Western perspective, we would 
say that it is ludicrous and almost silly, but it is real in 
parts of the world where those views exist. People are 
concerned that they will have a higher tendency to be infected 
with HIV/AIDS, or they will not be able to bear children, they 
will lose their potency. And people are frightened. So we had--
in the beginning of the Southern Africa crisis, 75 percent of 
what we had to work with had a biotech, GM component to it, 
what we get from the U.S., what we get from Canada, and parts 
of what we get from South America, and what we get from South 
Africa. This is a worldwide phenomenon, although the U.S. is 
the most generous provider of the group.
    We have worked out a system in the six countries--in five 
of the six countries where the genetically modified product is 
milled, and once it is milled, it cannot be planted for 
agricultural purposes. And that takes away part of the concern. 
Now, milling comes at a huge expense. There is not much milling 
capacity in Southern Africa. The shelf life is shorter than the 
regular stuff. There are nutritional issues. There are capacity 
issues. If you mill something, you only end up with 75 percent 
of the aggregate that you started with, and it is very 
expensive. I do not know how the world is going to bring 
comfort to folks who are troubled by this issue. The President 
of Zambia sent a group at Andrew's invitation, a group of 
scientists to the U.S., to the UK, to The Netherlands, to 
Belgium, to look at these issues. And we actually thought they 
would come back persuaded that there was no risk. They did not 
change their mind.
    Now we have the obligation to feed the hungry poor, and we 
found ways in Zambia, to the credit of our extraordinary staff, 
to find non-GM food, and to find food from local purchases to 
feed the people so that we have not had a catastrophe. But if 
every country would have taken the Zambian position, we would 
have been out of business.
    The USDA, the FDA, the EPA, all certify in this country 
that the stuff is safe. The French National Academy in the last 
few weeks has certified that the food is safe. The European 
Community has said that the seven varieties of maize that we 
use primarily, they have no problem with it. They are much more 
concerned about hoof and foot and mouth disease in Southern 
Africa than they are with this issue.
    But you are dealing with something that is very hard to 
understand where it comes from, and where trying to make the 
rational case just does not work all the time. And some of our 
strongest supporters would come to me and say, ``Well, Jim, you 
ought to really be able to give the recipients a cafeteria. If 
they want it, fine. If they do not want it, you have to get 
something else.'' But that is just not realistic in a world 
that has as many problems as we have, and the people trying to 
be fed.
    So I am hopeful that somehow the scientific community will 
find a way to work with the principal UN agencies. Once again, 
WHO, FAO, WFP have no problem with this one health aspect. And 
we have pushed as hard as we can, but at the end of the day, we 
cannot force somebody to do something. But you put your finger 
on it. And the fact that this stuff is going to continue; there 
is going to be more of it produced over the long haul because 
it is good for the environment. It is good for yield. It is 
good for health. I mean, this is a marvelous invention that, in 
fact, could help save the world through a new green revolution 
for the next generations.
    So we have got something that is going to be a huge 
influence overhanging on the world for a long period of time, 
and we have got to find a way to give some comfort to people 
who are afraid of it.
    Senator Hagel. Well, thank you, and stay with it. We are 
grateful for your efforts.
    Mr. Natsios, would you like to add anything?
    Mr. Natsios. Yes. I agree with everything that Jim just 
said, but let me add just a couple of points. One is one of our 
agricultural strategies in Africa is to introduce biotech 
research capacity in Africa because we believe the food 
security crisis that Africa is facing generally, that one 
answer to that--not the only answer, but one answer--is 
biotechnology. And many African agricultural scientists want us 
to do that, and the heads of state want it. So there is an 
illusion that the Africans are all opposed to it. It is the 
exact opposite. In fact, they are asking us to come in.
    We opened a biotech research facility as part of the 
Ministry of Agriculture in Egypt, and it is having a 
revolutionary effect on Egyptian agriculture in a very good 
sense. Kenya and Nigeria are far ahead in this research, and 
they want our continued assistance to upgrade their capacity to 
do this research. Of course, the Danforth Center in St. Louis, 
I visited, is an extraordinary center of research. And we are 
working with many of the biotech research institutions in the 
United States, and the private sector, and the university 
sector, to try to bring this technology to the developing world 
because Jim is right; it is a miraculous thing.
    It is unfortunately woven into the trade disputes with 
Europe. And that is unfortunately what is causing, I think, a 
lot of this including some of the reluctance in Africa to 
accept this.
    So there are two issues in Africa that have been brought 
up. They are really separate issues. One is the health issue, 
and I have to just say that we have been eating this food. I 
have told people that the President eats it on his table, our 
Congress eats it every morning when they eat their corn flakes 
because about a third of our corn crop is biotech now. We have 
been eating it for seven years. I am unaware of any lawsuit, 
and we are a very litigious society as you know, Senator. 
Someone would have sued someone if there was a health issue 
surrounding this. And there is not any. I mean, there really is 
not.
    In all of the scientific research institutions around the 
world, the WHO, the World Food Program, the African-based ones, 
all have said the same thing, ``This is safe.'' But there are 
still these rumors, and I think it has something to do with the 
trade dispute.
    The second issue, which I think is more remote, frankly, is 
that if the food aid is sent in an emergency, people will take 
the seed and plant it, and then it will cross with the 
traditional varieties and they will not be able to export their 
foods. Well, the first thing is there is not a huge amount of 
maize that is being exported from Africa to Europe. In fact, 
there is none as far as I know.
    Number two, the major source of export, within South 
Africa, 9 percent of their crop that is commingled with their 
traditional varieties in corn is genetically modified, and it 
is dramatically increasing because the farmers want it very 
badly. There is an effort by some green groups in South Africa 
to stop this, and the farmers ran over them. They said, ``We 
want this. It is increasing yields 200 or 300 percent. We do 
not use pesticides. We do not have to use as much fertilizer. 
It is increasing our families income.'' So it is a big 
controversy in a good sense because they are with us on this 
issue.
    The reality is I have never seen a famine anywhere, or a 
food crisis anywhere in the world, where people take food and 
plant it, for a very good reason. Most of them do not think 
they are going to survive until the next crop is harvested. Why 
would they plant the food aid? Our big problem is we give them 
seed to plant and they eat it because they are so hungry. I 
have never seen that as a risk.
    The second problem is the amount of cross-fertilization 
that would take place with traditional varieties is almost non-
existent, even if they did plant all of it. Tests have been 
done on this. And that is a fallacious argument. There is no 
empirical evidence that this is a risk, but people are saying, 
``We will not be able to export our food,'' and that kind of 
thing.
    Jim and I were down in Southern Africa at the same time. I 
heard some of the most absurd arguments. ``Seed planted from 
corn will cross-fertilize with our avocado trees.'' I said, 
``The only seed that can cross-fertilize with corn is other 
corn.'' You cannot take corn and cross-fertilize it even with 
another cereal. It only can be with the same category of food, 
corn to corn, wheat to wheat. But you tell that to people, and 
they do not understand it.
    The other thing I was told in one country that has a lot of 
Muslims in it is that the Americans have cross-fertilized pig 
genes into the corn, and so now there are pork genes in our 
corn. I said, well, I am not aware of any animals' genes ever 
being introduced into a plant. I heard there was a discussion 
of a fish gene that might be put into tomato, but it was never 
done. So there are none anywhere in the world.
    But you hear these stories, and when you laugh, they get 
sort of offended. I said, ``Well, who told you these things?'' 
And it is these rumors, and again, I think it is part of the 
trade dispute that is going on, to be quite frank.
    Senator Hagel. Well, I am grateful as the committee is for 
both of your leadership in these areas. Please extend our 
thanks to your people. We are most appreciative for what they 
do. And, Mr. Natsios, as you were getting into areas that only 
our Chairman understands here with his intense deep 
agricultural background. So you lost me at the last paragraph 
even though I am from Nebraska. Only Senator Lugar understands 
these things, so thank you very much.
    Senator Lugar.
    The Chairman. The compliment is untrue. But let me thank 
Senator Hagel for raising the question because the answers you 
have given are really among the most definitive I think we have 
ever heard either on the Agriculture Committee or in this 
Committee. And it is an extremely important issue. While 
compassionate people are trying to feed people systemically as 
governments or as institutions, we may also be contributing to 
starving them. And the juxtaposition of this is very important.
    It is appropriate that our next question should be posed by 
Senator Feingold who has given such strong leadership on 
African issues. And I call upon him for his questions.
    Senator Feingold. I was wondering how you were going to 
connect this to the dairy industry. So I appreciate that being 
the connection.

  OPENING STATEMENT OF RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Thank you, Mr. Chairman and Ranking Member, for convening 
this very important hearing. And I thank all the witnesses for 
being here today.
    As the Chairman indicated, I have served on the 
Subcommittee on African Affairs since I came to the Senate 11 
years ago, and have spent about half of my tenure as either 
ranking minority member or chairman of the subcommittee. And I, 
like all of you, have watched with horror as food crises in 
Southern Africa and the Horn have unfolded over the past years, 
sometimes striking at populations already weakened by the HIV/
AIDS pandemic.
    In July of last year, I asked the GAO to examine some of 
the causes contributing to the Southern African food crisis and 
to evaluate the efficacy of our response so we can improve our 
performance and prevent crises in the future. I am looking 
forward to the GAO's final report, and hope that it can point 
the way toward proactive steps that we can take to work with 
all of our African partners on this issue.
    We also have to ensure that even as we focus on urgent 
needs, we work consistent and energetically over the long term 
to actually address some of the underlying causes of food 
insecurity in Africa so that we can reduce communities' 
vulnerability to natural factors affecting harvest. Certainly 
we need to join with many Africans who want to ensure that 
misguided policies and decisions are examined and discarded. 
And the tremendously destructive policies pursued by the 
Zimbabwean government leap to mind in this regard, as some of 
the testimony has already mentioned.
    We need to also help African societies reinvigorate their 
agricultural sectors and reduce barriers to interstate trade by 
working to get small farmers the technical assistance, 
infrastructure, and opportunity that they need to achieve.
    Mr. Chairman, I just returned yesterday, or Sunday, from a 
brief trip to Botswana in South Africa along with Senator 
Durbin of Illinois. I have been re-energized by the committed 
and talented people I encountered in those countries, just as I 
have been in each and every trip that I have taken in the 
region. We have excellent partners on the ground throughout the 
continent. That means that we can win the fight against 
cyclical famine if we stay focused and committed over the long 
term. So I am very pleased that this hearing is happening at 
this time.
    Let me ask some questions in my remaining time. Due to lack 
of funding, the World Food Program has been forced to curtail 
much needed food aid to refugee populations particularly in 
Africa. UNHCR and WFP issued a joint appeal for 112,000 metric 
tons of food worth an estimated $84 million in U.S. dollars 
over the next six months to avert severe hunger among refugees. 
It is also feared that a lack of food could compel governments 
that are hosting refugees, such as Tanzania, to then 
prematurely return them to their home countries. How has the 
United States responded to this appeal? Mr. Natsios.
    Mr. Natsios. Senator, I took some difficult decisions. I 
will just tell you what I did, and I can be criticized for it. 
But our first priority is the preservation of human life. And 
that meant the countries where starvation was imminent or 
already beginning got all of the food. We shut down food 
programs in development areas, in refugee camps where there was 
enough supply so people would not die, in order to shift the 
food to Ethiopia and Southern Africa and to Eritrea as well.
    In the areas of the world where refugee population such as 
Afghanistan were at risk of starvation, we provided $80 million 
worth of food to the World Food Program, which is the principal 
mechanism by which we distribute food into refugee camps even 
though they are run by UNHCR. The food system is run by WFP in 
those camps. And we are the primary contributor to those. But 
we made those decisions, and I am not being defensive about it.
    The budget had not gone through, and it is not just because 
of what happened in the city. It had--the budget for us, for 
Title II, had a $325 million increase. You know this shift--we 
can talk about it--in 416(b), shifted money into our budget. 
And that was in the 2003 appropriation. That was a very large 
increase in our budget over 2002, but we did not have it 
because the budget had not gone through. Now that it has, we 
are reviewing all of the programs we had to curtail to see what 
we can restore, but our first priority was: We could not miss 
one monthly shipment to Ethiopia, or we would have had a 
catastrophe on our hands.
    Senator Feingold. Well, let me ask Mr. Morris. What is the 
status of your appeal for these refugees? Will your program be 
able to help them?
    Mr. Morris. Part of the reason I am in Washington this week 
is to talk about the issue with people at USAID and people at 
the Refugee Bureau at the State Department.
    Our problems in Uganda, and Tanzania, in the Congo, and 
Burundi, and in several other places are enormous. We have food 
probably to get us through May/June, but we do not have food to 
get us through year end. And the numbers you have stated are 
accurate. That is exactly what we are trying to pull together.
    The U.S. traditionally has been our largest supplier of 
food for refugees. We have a memorandum of understanding with 
the UN High Commissioner on Refugees. And any time there are 
more than 5,000 refugees in a single location, we provide the 
food. So it is our responsibility.
    But once again, where you have all these emergencies in the 
world and there are limited number of resources, people focus 
on emergencies as opposed to focusing on development. And they 
will focus on people coming out of natural disasters or 
conflict as opposed to refugees. And the competition for 
resources is very intense right now, and the refugees are hurt.
    Back to the question of GM, we had 15,000 metric tons of GM 
food in Zambia feeding refugees from the Congo and from Angola 
which USAID had provided. And the government required us to get 
it out of the country. And we had been using GM food in that 
refugee camp for several years.
    Senator Feingold. Just for the record, because my time is 
running out, could you say a little bit about how these 
shortages contribute to exploitation of refugees in these 
camps? I would like to have that on the record. What happens to 
people?
    Mr. Morris. Well, these are already people that are in very 
difficult circumstances, and it leads to serious hostility and 
conflict and makes the camps almost impossible to manage. It 
also leads to conflict between the refugees and people living 
just outside the camp.
    If one is being fed and the other is not, the 
neighborliness of the situation disappears and it becomes a 
very tough situation. Also particularly vulnerable are young 
girls. Young girls, 10, 12, 13, 14, 15, are forced to turn to 
things that we would not find acceptable to find resources to 
be fed.
    I do not know if you have visited places, these refugee 
camps. I visited one in Pakistan, and I must tell you, it was a 
life changing experience to see so many tens of thousands of 
humans aggregated in places like this with nothing, and 
virtually no hope or opportunity as well as nothing, little 
food. These are some of the saddest situations that exist.
    Senator Feingold. All it took was one look at it in Angola 
in 1994, and you never forget it, and stay committed to it. I 
thank you for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. And, gentlemen, 
thank you for your very sobering testimony. There are three 
things that I just want to touch on and some have been raised, 
before I ask a couple of questions.
    First, Mr. Morris, thanks for talking about the United 
States' role and the leadership role that we play here. You 
know, as you go back to the home state and have a lot of talk 
about what is going on in the world and Iraq, there are 
unfortunately folks in our own country who think that we are 
the enemy and I think need to understand the important role 
that we are playing, not just in dealing with military 
situations, but in trying to, you know, win the peace around 
the world.
    Mr. Natsios, Senator Hagel raised the issue of genetically 
modified food. It is very important, very, very, very 
important.
    And as with the Chairman, thank you for holding these 
hearings, Mr. Chairman. The response is very, very helpful.
    Secondly, you have also talked about the need to increase 
the ability to buy food and aid. And I certainly got that 
message and will take that back. Obviously, the old adage, ``If 
you feed somebody, feed them for a day. If you teach them 
either to fish or to farm, you can feed them for a lifetime.'' 
And I think we have to do a much, much better job in that area.
    And then thirdly, the impact of AIDS and obviously what the 
President stated in the State of the Union speech, and the 
discussion we have had, a critical issue. And thank you for 
kind of reminding us, and I think we cannot forget the impact. 
We have great responsibilities.
    My question focuses in on just a little different 
perspective, and it gets to the issue of North Korea. You have 
talked about politically induced famine, and here is a concern 
that I have with that. On the one hand, we have a situation 
where we have food going out there. As I understand it, North 
Korea officials, you know, refuse to establish a full-fledged 
food verification distribution process. Where is the food 
going?
    So on the one hand, you see and we get the reports of 
incredible starvation in North Korea, and yet we hear 
anecdotally that, you know, the military is being fed, troops 
are being fed. How do we deal with that? What is the right 
thing to do? How do we make sure that food gets to those who 
need it? How do we not walk away from responsibility?
    But on the other hand, I do not want to be stuffing the 
coffers of Kim Jong Il and the henchmen that surround him. So 
how do we deal with that lack of a verification process?
    Mr. Natsios. Before we talk about North Korea, let me just 
give you one stark fact on the agricultural sector side. We are 
spending $216 million right now in food aid to Ethiopia to stop 
the famine. Do you know how much we are spending on agriculture 
programs in a food insecure country where 85 percent of the 
people live in the villages and are farmers? We are spending $4 
million. We are spending $216 million to stop the famine, and 
$4 million, that is all we have to spend on agricultural 
development. This situation is going to get worse and worse in 
Ethiopia until we invest in good policies and agricultural 
development.
    Okay. North Korea: This is a small, I do not want to use 
the word ``obsession,'' but of mine. I have been deeply 
involved in this issue for a long time. There are a set of 
international standards that all of us, USAID, the World Food 
Program, and the NGO community accept for monitoring food to 
ensure that it goes to the people it was intended to feed. It 
is intended as a humanitarian response to crisis only, okay?
    The position of the Bush Administration, the President has 
made it very clear to us privately and publicly and repeatedly, 
``We will not use food aid as a weapon.'' So who the government 
is is irrelevant. What is relevant to us is if people are 
starving. If they are, if they are very hungry, then we are 
going to provide assistance if we can, if people will allow us 
to in the government.
    Now, where the government is deliberately starving people 
as a tool of genocide, it is a little difficult to go in and 
feed people, because they want to kill them. The North Koreans, 
as far as the research I have done, actually do not want this 
crisis. They want to be able to feed them because it is a 
system of control. It allows them to control the country. They 
have lost control of the food system in the country because 
there is not enough food. And that is one of the findings from 
the research.
    I went up to the North Korean border with China to 
interview refugees before I was in the Administration, when I 
was at USIP doing research on this issue. I interviewed people 
and asked them what the reality was in their villages. And they 
told me disturbing stories. I interviewed 23 people for 3 
hours. There is a Buddhist NGO up there, run by a friend of 
mine, a Buddhist monk. There is MSF, Medecins Sans Frontieres, 
Doctors Without Borders, and they have done the same surveys. 
Jasper Becker, the British journalist, has done 18 trips up 
there, and all of us have the same impression that there is a 
problem with transparency, a problem with accountability, and a 
problem with the distribution system.
    Now some people blame the UN. Okay. Let me just say: The UN 
cannot negotiate from the same position we can with the North 
Korean government. They have to have us supporting them, and 
they have not had that support. They have done an exceptional 
job in North Korea under very, very, very difficult 
circumstances. And I want to just say that Jim and I have had 
discussions about this, and we are now united on what the 
negotiating position is.
    The standards are very clear. I call it the Herbert Hoover 
Standard because Herbert Hoover did the same thing we would 
like to do during the great Volga famine of the early 1920s 
where millions of Russians died from starvation. He insisted on 
these standards and said, ``We are are not going to run this 
program under these circumstances.'' And he succeeded in 
stopping the famine by enforcing what were then international 
standards. They are very similar to the ones that we now 
advocate here.
    Secretary Powell made a commitment in Seoul yesterday that 
we will pledge 40,000 tons of food immediately to the WFP 
appeal--the appeal was just over 500,000 tons--up to 100,000 
tons based on three factors.
    The first one is what the needs are elsewhere. People are 
not dying of starvation in North Korea right now. The famine in 
North Korea in terms of high mortality rates, I think about 2.5 
million people died in the mid-1990s in that famine, 10 percent 
of the population of the country. Right now we do not have 
evidence from the research that we have done that there is 
widespread starvation in North Korea. The famine ended about 
the spring of 1998 in terms of high mortality.
    Are kids hungry? Yes, they are. Is the food situation 
fragile? Yes, it is. Is there food insecurity? Yes, there is. 
Is there a famine? No, there is not. So we need to make 
distinctions.
    This is the best harvest they have had in eight years 
according to the WFP/FAO estimates. It is up to 3.9 million 
tons produced this year. So they are actually in a better 
position, but that still is not enough food to feed the 
country. So to answer your question, we do not want to feed any 
militaries anywhere. We cannot do that. We are not allowed to, 
and I would never do it anyway because it just violates our 
role. This is humanitarian assistance.
    We are going to provide assistance, but we are going to 
insist to the North Koreans--we have been meeting with them. We 
have had one meeting with them privately to say, ``We need 
these standards, which you have thus far refused to enforce, 
enforced. The donor countries are not giving anymore for the 
same reason. They are not saying it publicly, but that is the 
reason. We want to feed them. We will not use it politically. 
We will not use food as a weapon. We will not do it. But we 
want to make sure they do not use it as a weapon either, in any 
country anywhere in the world, whether it is Zimbabwe or 
whether it is North Korea.
    We are in favor of a robust effort to prevent hunger and to 
respond to the hunger, but we want to ensure that that food 
goes to the people it was intended for. That is our position. 
We are rigorously following our position in terms of our 
discussions, and we are doing it with other donor governments, 
not just the United States, because if this is not all of us 
together it is not going to work very well.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    As Mr. Natsios has pointed out, and the committee has just 
received this press release from the Department of State 
confirming that Secretary Powell during his visit there has 
announced the donation of 40,000 metric tons and 60,000 more; 
and also pointing out that the World Food Program received 
303,000 metric tons from all sources last year in 2002. And 
157,000 of that came from the United States or over half. But 
the amount the World Food Program received was about half of 
what they had sought around the world. So this is confirming 
Mr. Natsios' thoughts that donors around the world are drying 
up.
    But the United States has indicated and President Bush is 
quoted again in the release as saying that food would not be a 
situation in which we try to do strategic work, using food. We 
continue on our policy.
    Senator Coleman. Mr. Chairman, if I could have just one 
follow up then.
    The Chairman. Yes.
    Senator Coleman. Could you give me your best sense of 
whether, in fact, there will be compliance with these 
standards? Do you have a sense that we are going to be able to 
get what we want so that the food can be distributed?
    Mr. Natsios. Predicting anything about North Korea is 
somewhat difficult, Senator, but I would say we have an even 
chance. And maybe Jim has a different view. He was there more 
recently than I was.
    Mr. Morris. It is among the strangest experiences I have 
ever had to be there for a week. Our focus is the humanitarian 
focus on feeding very poor, hungry people, especially women and 
children, 4 million children in North Korea.
    And all we have asked for is a list of the institutions 
that receive the food. We do 440 monitoring visits per month. 
We did 320 a month last year. We want the ability to do them on 
a random basis so that we do not have to get clearance two days 
ahead of time to go in and do the testing. There is a bit of 
good news here, but UNICEF and WFP have just completed a 
nutrition survey of children under the age of seven, and this 
was done on a random basis. And it showed that the percentage 
of underweight children under seven went from 61 percent in 
1998 to 21 percent in 2002. The percentage of children that 
were wasted, low weight compared to height, went from 16 
percent to 9 percent, and this is the basic measurement. And 
the stunting went from 62 percent to 42 percent.
    So the impact of the U.S. food investment in children in 
North Korea has had a huge payoff. And I am frightened that 
that all could be lost. Nothing is--and the U.S., it is so 
extraordinarily important to divorce the humanitarian issue 
from the political issue. The U.S. is willing to provide the 
food. There is just no doubt in my mind. WFP just expects North 
Korea to behave like every other one of the 80 places that we 
work. And nothing we have interest in has anything to do with 
their national security, other than keeping their people alive.
    Thank you.
    Mr. Natsios. I might add, Senator, we announced the food 
aid the same day as they fired a missile into the ocean. So 
there is no connection. There genuinely is not, and it is very 
clear in the Administration that that is the case. Our problem 
is making sure that it is the poor who are fed.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Nelson. Mr. Chairman, before I get into the 
question of famine, I think this is an interesting question 
that you and Senator Biden ought to follow, and that is: Well, 
if what we are trying to do with North Korea to get them to 
stop the nuclear program and to stop proliferation and all of 
those things, we need a quid pro quo for that. And one aspect 
of it is food. Other things like trade, and energy, and 
economic assistance, but food is one element.
    And it is kind of hard for us, as Americans, to say, 
``Well, we are going to use food as a bargaining chip,'' 
because that is not in our make-up. And yet, at the end of the 
day, we have got to get North Korea to stand down with nuclear 
weapons and energizing nuclear material. So I know you and 
Senator Biden are right on this, and I look forward to a 
continuation of this subject on North Korea.
    Now, I would like to turn to the question of famine. Mr. 
Morris, I have had the privilege of visiting with your staff in 
your headquarters. You were on a trip at the time, so I did not 
meet you, but I spent a couple of hours with your staff.
    And, Mr. Natsios, thank you for your comments and the work 
that you do.
    Of the $250 million that we just got into the budget for 
2003, how is that going to be used?
    Mr. Natsios. We are now reviewing our entire portfolio to 
see where we are going to allocate that. I can give you a plan, 
Senator, as soon as we have gone over the allocation of it. But 
the majority of it is going to be used in the major emergencies 
because if we do not get up to a certain point in the apportion 
of the appeal, we are going to have serious results 
nutritionally. And we are reviewing that, and we are reviewing 
the refugee situations.
    We do want to put some of the money we took out of the 
development programs that were not--which did not have the same 
sense of immediacy, but we cannot put it all back in because of 
these multiple emergencies we are facing. But I will get you a 
plan. We are literally in the analysis process right now, 
working with WFP and the NGO community, the mechanisms through 
which this food will be distributed.
    Senator Nelson. As you know, we passed in the Senate $500 
million, and the compromise in the conference was $250 million. 
Are you expecting to request any additional in a supplemental 
for 2003?
    Mr. Natsios. At this point, we have not made a request for 
additional in the supplemental, but I do want to leave the door 
open should our analysis show that we need it.
    Senator Nelson. Let us talk about 2004. The 
Administration's request which was made some--well, it was made 
just recently. But it basically had a level funding from 2003 
and that was the 2003 level that has now been increased by $250 
million. So what should we expect coming from the 
Administration for the 2004 budget, which would start--if we 
can ever get around to passing an appropriations bill--which 
would start October 1st of this year?
    Mr. Natsios. Our appropriation in fiscal year 2002 for the 
Title II program which is the principal source of food for WFP 
and the NGOs for these emergencies and development, Title II, 
was over $800 million in 2002. It went up to $1.1 billion, 
almost $1.2 billion, in the request that we made for the 
current fiscal year. You added on top of that through your 
efforts, Senator, another $250 million. So we are up to $1.4-
plus billion, which will help us a lot this year.
    Should we need more this year in these emergencies, we will 
look to the Emerson Trust which still has 1.9 million tons of 
wheat in it. That is the purpose of that fund, as extraordinary 
measures.
    It is difficult to predict what the situation will be 
because we do not know whether there will be a second year of 
drought in Ethiopia and in Southern Africa. There is 
indications in some areas that there has been a recovery in 
terms of the weather conditions. So the crops may recover, and 
we may not need as much food.
    What we asked for for 2004 was what we asked for for 2003, 
which was this $325 million increase. So we have put in the 
higher level.
    But let me just point out what I said earlier, that the 
only tool we really have now to fight famines is food. And that 
is not the only one we need. We need cash for cash-for-work in 
situations where there are no roads. People die in famines in 
many areas of the world where there are no roads to move food 
from the United States or other donors. And if we could get 
them the cash, which we do not need roads for, they can buy it 
on the local markets----
    Senator Nelson. And you need other means of transporting. 
For example, there are other countries in the world that have a 
surplus of food but who cannot move it.
    Mr. Natsios  [continuing]. That is exactly right.
    Senator Nelson. Now is that part of this money? Is it going 
to be used for that?
    Mr. Natsios. One of the things we are looking at is this: 
There are a number of countries that actually have surpluses of 
food. India is one. They have about 2 million tons of food. I 
think it is wheat. Taiwan has some surpluses of rice. And they 
have offered it, but they do not have a way of paying for the 
transportation of the food.
    And so what we have discussed is what we call twinning. It 
is a concept--it would go through WFP and we would find donor 
governments that have cash they can use for the transport, twin 
with a country that has a food surplus they are willing to give 
WFP, and marry the two sources of resources together to help 
WFP increase the total amount of food they have available.
    Senator Nelson. Is it not incredible, Mr. Chairman, that 
India has surplus food, that if we can get it moved we can get 
it to these places where there is famine?
    Give me a concept of: How big is the United States in this 
whole thing? Are we about half of the assistance for food for 
famine relief?
    Mr. Natsios. I think generally on average, one year or two 
years ago we were 62 percent which is the figure that the 
President has quoted in a couple of speeches. I think this year 
it may go down to 52 percent, something like that. But 
generally speaking, the average of the last probably seven or 
eight years, the average is about 50 percent.
    But I want to say: I mean, any time one government gives 52 
percent of all the resources to any UN agency or international 
organization, you have to say that is pretty generous.
    Senator Nelson. Oh, exceptionally.
    Mr. Natsios. And the----
    Senator Nelson. Are there any other developed countries 
that are not carrying their load?
    Mr. Natsios [continuing]. We have had conversations with my 
counterparts in other donor governments that we need not to be 
the only country that gives that volume of food. We need to 
have other countries doing it. It used to be that the Canadians 
and the EU gave the other 50 percent. Or we would give a third 
and they would give a third, Europe and the Canadians would 
give a third. That has shifted dramatically in the last five or 
six years for a variety of reasons.
    I am not being critical of my colleagues because they are 
spending the same money in other ways, in development. But we 
have had conversations that the imbalance needs to change, 
because we cannot be expected to do half of this forever.
    Senator Nelson. Yes.
    Mr. Natsios. Jim has done something that I want to 
compliment him on----
    Senator Nelson. Yes.
    Mr. Natsios [continuing].----in going to countries that do 
not typically give food aid to the World Food Program. And 
perhaps he can talk about it. I just want to compliment him on 
the extraordinary effort that actually is beginning to yield 
something.
    Senator Nelson. Yes. And I am aware of that, Mr. Morris. 
You have-bag-will-travel, and you have traveled a lot. How 
about some of the other countries? Are they pulling their share 
of the load?
    Mr. Morris. We actually had a remarkable year last year. We 
raised over 200 million more dollars in food support, cash, 
from non-U.S. sources than we had raised the year before. We 
had really quite extraordinary--we had an extraordinary 
increase from the UK. Japan with its troubles economically 
worked hard to stay level, and that--they provided nothing for 
North Korea last year. Canada at the end of the year was very 
generous. The European Community had a sizable increase.
    The Nordic countries are remarkably generous, remarkably 
generous. Norway is normally our best per capita supporter. The 
Netherlands and Germany, the Swiss, Italy, have had very 
substantial increases as well.
    But there are 20 countries that need to help us in a 
substantial way: Russia, China, India, Thailand, Saudi Arabia, 
the Emirates, Poland, Hungary, Czech Republic, Mexico, Brazil, 
Argentina, Chile. And we are working very hard to get them on 
board.
    India committed 1 million metric tons of wheat, and we used 
part for biscuits for Afghan children. We have used the first 
40,000 tons for that. Pakistan would not allow us to transport 
it through Pakistan, so we had to spend $1.5 million cash out 
of our own pocket to take it the other way around.
    But we are working very hard. Russia has made a commitment 
of $11 million. We need China to be a major player in North 
Korea.
    Saudi Arabia at one time was giving us $25 million a year. 
That is not--that has lost steam. And I was there in January to 
sort of re-energize them. So we are working hard.
    And by the way, UNICEF would raise 40 percent of their 
resources from private sector sources. We have had little 
private sector support. And we aspire, over five years, to get 
to a point where 10 to 15 percent of our budget is coming from 
the private sector. And those dollars become very important in 
leveraging donations from places that can only give us crops, 
commodities.
    Senator Nelson. Why did Pakistan not let you transit the 
country?
    Mr. Morris. Well, they--I visited with President Musharraf 
to talk about this, and we had an understanding that they 
would. But when push came to shove, they wanted to transport 
the biscuits in Pakistani military trucks. The Indian 
benefactors were willing to either transport it in Indian 
trucks, commercially contracted trucks or UN trucks, and 
Pakistan did not find that to be acceptable. And this was a $1-
million-and-half cash hit to us.
    Senator Nelson. Politics often gets in the way, does it 
not? It is just like in Ethiopia almost twenty years ago. There 
you had a guerrilla war going on that, often, it was difficult 
to get the food out of Addis Ababa, out to the countryside 
where the people were starving, because of politics.
    Well, thank you, gentlemen. I appreciate what you are doing 
very much.
    Thank you, Mr. Chairman.
    Mr. Morris. Thank you very much, Senator Nelson, for your 
interest in this area and, likewise, for illuminating the ways 
in which political problems come back and damage nutrition.
    The Chairman. Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    In the testimony Dr. Von Braun submitted, he talked about 
the moral obligation that we have to help people who are 
starving around the world. And I think most everyone here would 
subscribe to that belief.
    In your testimony, Mr. Morris, you however suggested that 
it is not our place to judge the merits of land distribution in 
Zimbabwe or elsewhere. Now, it would seem to me that it would 
be your role as a leader on these issues to talk about and, in 
fact, to criticize any policy, any practice that was someone 
preventing the humanitarian effort from being completed, that 
was preventing us from helping in areas that we have this moral 
obligation for making a difference. I wondered if you could 
expound on that a little bit.
    In Administrator Natsios' testimony, I think he was a 
little bit more pointed in talking about the degree to which 
land confiscation in Zimbabwe has exacerbated an already severe 
humanitarian crisis, has led directly to increasing the levels 
of stunting or starvation in that country. How do you see your 
role in at least trying to provide criticism, or helping to 
communicate the degree to which Zimbabwe's policies are making 
this pressing problem worse?
    Mr. Morris. I have had six meetings face-to-face with 
President Mugabe in the last six months. I have had an agenda 
that is critical to pursue with him in terms of making it 
possible for the World Food Program to do its work. I doubt 
that there is anybody anywhere that has been more vigorous with 
the man face-to-face on these issues than I have been.
    I have tried to build a relationship there that enables--
half of the people at risk in Southern Africa live in Zimbabwe. 
In Zimbabwe 7.2 million people are hungry. It is a disaster. 
They have no foreign exchange to import agricultural products. 
They do not let the market work. They do not let the private 
grain dealers come in. Their crop production this year will be 
a third of the ten-year average.
    They have 780,000 children orphaned in Zimbabwe because mom 
and dad have died of AIDS. Thirty-four percent of the adult 
population in Zimbabwe is infected with AIDS. The number of 
children heading households, little tiny girls heading 
households in that country is enormous.
    The humanitarian crisis there is almost beyond 
comprehension. I have aggressively made the point that the 
World Food Program will have zero tolerance for any political 
interference from Zimbabwe in how we distribute our food. And I 
have said, with my humanitarian-special-envoy hat on, that 
``Sir, your country needs to do the same.''
    And I have offered him the resources of the United Nations 
to verify the claims that he makes, that are not well regarded 
elsewhere around the world about their not using political 
considerations for the distribution of their own food.
    Senator Sununu. But with regard to the land policy in 
particular, in your role as a humanitarian and as--and I would 
absolutely agree that you have probably done more to address 
the humanitarian needs in Zimbabwe than anyone here, certainly 
anyone that I know of.
    In your role as a leader of a critical humanitarian 
organization, is it not your responsibility to address programs 
and practices like land confiscation that has made a very grave 
problem even more severe?
    Mr. Morris. I do not know. I do not--my job is to find a 
way for WFP to do its work in Zimbabwe so that we can get food 
to people who are going to die if we do not do it. We started 
off with four NGOs accredited in the country. We could not do 
our work unless we got twelve. We now have twelve. So we have 
made that progress; Andrew's suggestion of trying to persuade 
them to open up the market in the urban environment where we 
could bring food in and subsidize the price so that there could 
be a market.
    I have been very critical--maybe ``critical'' is not the 
right word. But I have objectively said that land reform in 
Zimbabwe is a major, if not the major factor in the problems of 
Southern Africa. And I have been quoted in the media saying 
that.
    There was a time when we bought half a million metric tons 
of food a year in Zimbabwe, the World Food Program, and 
distributed it elsewhere. Zimbabwe always produced enough food 
with the commercial farmers to provide all of the needs of the 
rest of that part of the world.
    So while I guess maybe I might have been more low key than 
you would have liked for me to have been, I think there is no 
doubt in his mind where I stand on the issue. And I have been 
very candid in answering the question.
    But working in that place is not--this is not like working 
in downtown Indianapolis. This is a very difficult environment 
to work in. And I have tried to build the relationships that 
will enable us to do the work.
    Senator Sununu. I very much appreciate that answer. And I 
would not use the words ``low key.'' I do not think it is a 
matter of being low key. My only concern is that even though it 
may not be a policy point on which you lead, it is an important 
policy point to be made constructively.
    I want you to be able to do your job; absolutely. But you 
are also looked to by policy makers for guidance and 
information as to how we can construct policy or even encourage 
diplomacy that leads toward resolution of these crises, 
solutions that actually work. And if land confiscation is 
making it far more difficult for us to solve a humanitarian 
issue, we as policy makers need to be aware of it, and it needs 
to be highly highlighted.
    Administrator Natsios, in your testimony, you talked 
about--what was it?--policies, putting in place systems and 
policies that will prevent the next food security crisis. I 
think you were talking about Ethiopia in particular.
    Could you talk a little bit more specifically about what 
kinds of policies or systems you are referring to, either 
specifically in Ethiopia or in other parts of the world? What 
should we be looking at as policy makers?
    Mr. Natsios. Very good question, I might add, Senator, 
because ultimately the only way we are going to deal with 
particularly the Ethiopian food crises which are coming now--
they used to come every decade, then every five years; now, 
they are every two or three years. We are going to get to a 
point where we simply cannot respond because they are every 
year. And the Ethiopian government is very worried about that.
    I met with Prime Minister Meles Zenawi in January when I 
was there to see what was going one with the famine, to go out 
to the famine pockets because I think we have stopped the 
famine from spreading, but there are pockets of hunger that are 
very disturbing in the country. And we had a long conversation 
about what we in USAID and the U.S. Government believed the 
reforms needed to be. But let me mention several of them.
    They do not have a liberalized capital account, which means 
they cannot easily trade with neighboring countries. Two years 
ago, they had a surplus in some areas of Ethiopia and they 
could not export the surplus and the price of food dropped to 
10 percent of its normal level.
    Senator Sununu. They could not export the surplus because 
they did not have the capacity to send the surplus overseas and 
take an exchange of foreign currency.
    Mr. Natsios. Exactly, and as a result of that, the price 
dropped so much, the farmers who grew the surplus said, ``We 
are not doing this again. We have to buy extra seed to do this, 
and now we are worse off, having grown more food, than we were 
if we had just grown enough to feed ourselves.'' I had farmers 
tell me, ``The incentives are wrong. I am not growing any more 
food, any surplus.''
    So incentives count in a profound way in any country in the 
world. I mean economics do work. That is why our system--why 
the Russian Soviet system collapsed and our system succeeded, 
because we have the right incentives to encourage production in 
all of our sectors. So that is one thing.
    And if they liberalized the trade system in East Africa, 
what would happen is when there were droughts in Ethiopia, they 
could import food from Kenya and Uganda, which produced 
surpluses in some years, into Ethiopia. And they could do 
trading for some of their food deficits through the commercial 
system. But they have to liberalize their capital account to do 
that.
    The second thing is that they need to move to banking 
reform. They have six private, small Ethiopian banks, but none 
of them are international banks. So the mechanisms for 
borrowing money to do agricultural production, to buy new seed 
varieties, more fertilizer is all only from the state sector of 
the government. And it cannot be only from the state sector. It 
has to be from the private sector. And we need international 
banks to do that.
    They are concerned that they cannot regulate those banks, 
and so they are concerned. They have not approved as yet going 
to a liberalized banking, international banking system, which 
we think is very important.
    The third thing is: It is the poorest country in the world 
now. Their per capita income has dropped from $150 a year per 
capita ten years ago, to $107. They are the poorest country in 
the world now.
    The only way to increase income is to increase production, 
and one way of doing that is the incentives. But they--we need 
to invest more in Ethiopian agriculture. If they get their 
incentives right and their policies right, the donors need to 
respond.
    And our staff says, ``Andrew, you are sending us the wrong 
money. You are sending us money in other sectors.''
    I had health people stand up and say, ``Send more 
agriculture money.''
    I said, ``Wait a second. You are a health officer. Why are 
you asking for that?''
    And they said, ``Because nothing is going to improve in 
this country unless you invest in the agriculture sector.''
    We know that there are seed varieties that can increase 
production 200 or 300 percent, with no additional fertilizer. 
There is a new plow that was developed by the German aid 
agency, GTZ, that doubles the depth of plowing and will protect 
against drought, because the lower you dig when you do your 
plowing, the more you reduce the risk of a drought because, you 
know, there is less evaporation of the water in the soil, the 
moisture in the soil at the lower levels. And this will protect 
many areas that get some rain but not enough.
    And so we want to be able to get that new plow--it is very 
cheap. It is $30 a plow. It is for, you know, for oxen. There 
are a bunch of very simple technologies that, if we could 
invest in them on a mass scale, would improve things.
    Senator Sununu. In particular the first point you made, are 
these the kinds of policy reforms that you would want the 
Administration, the President to address in structuring their 
Millennium Challenge Account for assistance in Africa? And is 
there a mechanism set up where you in your capacity can 
communicate, really, formally what you observe as making the 
biggest changes in your ability to provide humanitarian relief 
to those shaping policy for the challenge account?
    Mr. Natsios. I forgot one very important thing. There is no 
private ownership of agricultural land. It is all owned by the 
state, and so the farmers tell me, ``Why invest in this land? 
We have a certificate. You know, we cannot sell it. We cannot 
aggregate farms.'' And so the lack of private ownership of land 
is a major impediment to improving the agricultural system.
    To go on to your question about the MCA: I am not going to 
run the MCA, but we will work with them on a very intimate 
level. And we have a----
    Senator Sununu. Can you describe that working relationship?
    Mr. Natsios. Well, it will depend on how the legislation 
goes through, and I think this Committee may have something to 
say about that.
    Senator Sununu. Very clear answer.
    Mr. Natsios. So you may have more to say about that than I 
do actually, Senator.
    But the MCA with respect to this issue has already made in 
the legislation and in the public, the speeches the President 
made, a statement about economic reforms necessary to qualify. 
If you have a country where you are not a democracy; you do not 
protect human rights; you have a large level of corruption; or 
you do not invest in health and human services, health and 
education for your people; and finally, if you do not have the 
right economic policies, you are not eligible in the first 
place.
    The presumption behind the MCA is you already--you may be 
very poor as a country, but you have the right policies in 
place, and all you need is capital to invest in that really 
good policy environment to take off economically. I do not want 
to project it. I do not want to tell you which countries will 
be eligible and which countries will not. But if you have very 
regressive agricultural policies in any country, you are not 
going to be eligible for the MCA.
    The Chairman. Let me just break in at this point because--
--
    Senator Sununu. Thank you, Mr. Chairman.
    The Chairman. The questions are important ones, but I want 
to recognize Senator Sarbanes.
    Regarding the MCA question, we will be having a hearing on 
that fairly shortly. And as Mr. Natsios has said and as is our 
first understanding, an MCA applicant must meet standard 
qualifications. Almost all of the economic situations we have 
been hearing about today are not likely qualified. So that 
raises the question: What happens to them? Even as we have more 
of an emphasis, perhaps, on the MCA.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I am 
pleased to welcome the witnesses. I have a couple of questions 
for each of them.
    Mr. Morris, how much do you utilize the expertise of the 
PVOs? We have Catholic Relief Services headquartered in my 
state. They are on the ground in the developing countries, a 
number of them have been there for a long time, and they 
probably know the local situation as well as anyone. How fully 
do you utilize them through the World Food Program?
    Mr. Morris. We use them in the most wonderful ways 
possible. Catholic Relief is one of the best, World Vision 
Care, AfriCare. We have 2,000 memorandums of understanding with 
NGOs, PVOs.
    Senator Feingold's comment about being so grateful and 
impressed with people on the ground doing the work, you just 
are so thankful that there are people that are willing to work 
for USAID or willing to work for WFP or the NGOs, and under the 
most difficult circumstances.
    We have 50 international employees in North Korea. They go 
for a two- to four-year term. You can imagine what the quality 
of their life is.
    But NGOs and PVOs are incredibly important to this. They do 
most of the direct distribution of the food, and we rely on 
them in the most important way possible.
    Senator Sarbanes. How do you coordinate the PVOs' 
perception of what the need is as they see it, since they are 
there on the ground, and what the World Food Program sees as a 
problem area?
    Mr. Morris. Well, we are also there on the ground, and my 
sense is that the collegial, day-to-day working relationship of 
the WFP staff and the UN team and the PVOs is very solid. I 
think we rely on each other. I think they rely on WFP for a lot 
of the vulnerability assessment material, and we rely on them 
for great expertise.
    We have to find a way to do a better job of relying more on 
indigenous NGOs; I recall an NGO that is only serving a 
community of 1,200 people that is located in Zambia. This is a 
big piece of the hope for getting at the HIV/AIDS issue long 
term. And we have discovered some absolutely remarkable people, 
mostly women, who are running these community agencies.
    Senator Sarbanes. Do you fully compensate the PVOs for 
their administrative costs for their operations in affected 
countries?
    Mr. Morris. I believe so.
    Senator Sarbanes. You do. Okay.
    I want to ask Administrator Natsios, the Alliance for Food 
Security sent a letter to the President last month. And, of 
course, these are some of the most distinguished PVOs and 
corporations and so forth, working in this area.
    They said that the severe food shortages in Southern and 
Eastern Africa were not anticipated when the Administration 
presented its fiscal year 2003 budget request, and these 
emergencies require an additional $603 million to $778 million 
above the Administration's request. They also mention that the 
commodity prices have risen 30 percent since the budget 
request.
    Do you agree with their evaluation of the shortfall?
    Mr. Natsios. Well, the shortfall in that letter, as I 
recall reading it, was based on certain assumptions about what 
our level of contribution would be. Some NGOs believe that if 
no one else gives any food, we need to give 75 percent of the 
food. Our planning figures now are that we will do the 
traditional response that we do, which is a third of the 
requirement, and in some cases 50 percent of the requirement. 
And so it depends on how you make estimates for what percentage 
we will give to----
    Senator Sarbanes. Well, apparently, they have premised it 
on half.
    Mr. Natsios [continuing]. Well, in some cases----
    Senator Sarbanes. Well, I am reading from their letter, 
``Beyond the fiscal 2003 appropriations, another $603 million 
to $778 million is needed to meet the historic U.S. commitment 
of providing at least half of the commodities required during a 
food crisis in poor countries.''
    So apparently, the premise of that figure is that we would 
provide half, which represents sort of a traditional standard.
    Mr. Natsios [continuing]. No, the traditional standard, 
Senator, is a third. That is, in the last few years, we have 
given half to the World Food Program, but what has happened in 
the last year is the World Food Program has succeeded in 
getting other donor governments to give more food, which we 
endorse. We expect, for example, in the Ethiopian famine this 
year, Ethiopia food emergency this year, to give 40 percent of 
the requirement. It will be different in each emergency, 
depending on what other donors give. So we will look at each 
individual emergency to see what other donors give and then 
what is needed to fill the gap.
    Senator Sarbanes. How much would you concede is needed to 
meet the 2003 problem? I mean, their figure is $603 million to 
$778 million. What is your figure?
    Mr. Natsios. The $250 million. We were actually moving a 
decision memo through the process when the Congress approved 
the ramp up of an additional $250 million. The budget for USAID 
is already $325 million for this year above in food what it was 
last year. And then you add the $250 million that you added to 
it. So the budget for this year over last year--this is just 
for AID now, I am talking about--is $575,000 more.
    But I must also say for 2004, which is the thing I am 
actually most worried about, is we have $300 million more but 
not in the food account. It is in the accounts that allow us to 
respond through other means than food aid, through cash-for-
work and through local purchase.
    Because we do not have in my view the right tools at our 
disposal to fight these famines, or to stop them from 
happening--food aid is the most important, but it is not the 
only one. And so we had a debate; and I suggested instead of 
just increasing the food account, we increase other accounts 
which is what the President has done. It is quite innovative. 
It is very new. It is in the budget for 2004, $300 million 
which is $100 million for complex humanitarian emergencies and 
$200 million for fighting famine.
    So we have increased the resources, but they are not in 
Title II. And I would urge the Congress to consider seriously 
that we need more flexibility in the tools that we have.
    Senator Sarbanes. Are you talking about the 2004 budget or 
the 2003 budget?
    Mr. Natsios. 2004 budget.
    Senator Sarbanes. Well, what about the 2003 budget? What is 
the shortfall?
    Mr. Natsios. That depends on what percentage. What I am 
saying is: The $250 million will relieve the pressure, I 
believe, on what we face right now. If we need more food before 
the end of the year, we can go to the Emerson Trust for it, 
which is what I would expect to do.
    Senator Sarbanes. Okay. I see my time is up. Can I put 
forth one more question?
    The Chairman. Go ahead.
    Senator Sarbanes. I want to just shift the focus for a 
moment since I have you here. I want to ask about this 
Millennium Challenge Account. What will USAID's involvement be 
in the functioning of that account?
    Mr. Natsios. We are going to have a hearing, apparently, 
before this Committee, and I am invited to testify next 
Tuesday, and I will go into more depth on that.
    But just a short answer, the office that will be running 
the Millennium Challenge Account, this independent office, will 
have only, I think it is 100 or 125 employees. But everybody 
understands that you cannot spend $5 billion with 125 people. 
You need far more people in terms of planning and programming 
and accountability and field staff and all of that, and that 
U.S. agencies that have people in the field in the countries 
that will be eligible for this will be, in fact, implementing 
various parts of this program.
    So we expect to be involved in it, but in terms of the 
management of the office centrally we may even secund staff to 
it. It will not be USAID that is managing the Washington part 
of this.
    Senator Sarbanes. Who makes the policy decisions for the 
operation of this office? Who makes that decision?
    Mr. Natsios. Well, it depends on what you mean by ``the 
policy decisions.'' If you mean on which indicators will be 
chosen for determining eligibility, the office will make the 
decisions, that is if the legislation is approved, Senator.
    Senator Sarbanes. Yes.
    Mr. Natsios. You have control over that, obviously.
    Senator Sarbanes. Yes.
    Mr. Natsios. But under the proposal that the President has 
made, which I support, there is an interagency board of 
directors, so to speak, of this office. That will be composed, 
I think, of the Director of OMB, the Treasury Secretary, and 
the Secretary of State, and I think one other Secretary. And 
they will sit on the board. They will make the determination 
based on staff response.
    Senator Sarbanes. Is the Administrator of USAID on that 
board?
    Mr. Natsios. I am not on the board according to the 
proposal that is made.
    Senator Sarbanes. Is that what we are going to be examining 
next week, Mr. Chairman?
    The Chairman. Yes. Yes.
    Senator Sarbanes. Well, I will defer it to then. But your 
field people are going to be doing all of the work and you are 
not going to be on the board?
    Mr. Natsios. Well, not all of the work. I think other 
federal agencies will be involved.
    Senator Sarbanes. A good part of the work, from what you 
just told me. But you are not going to be on the board as it 
stands now?
    Mr. Natsios. As it stands now. And I support the 
President's legislation as it is written.
    Senator Sarbanes. Thank you.
    The Chairman. That serves as a good advertisement for next 
Tuesday.
    Mr. Natsios. Yes, it does, Senator.
    The Chairman. We will all assemble again.
    Senator Biden.
    Senator Biden. I have one brief question.
    Director, can you describe the food aid study commissioned 
by AID and conducted by Bob Gersony? Can you speak to that?
    Mr. Natsios. I can tell you that a lot of research has been 
done on the work of food aid and the agricultural system in 
North Korea. We did not actually commission a study for North 
Korea ourselves. Other institutions have done that.
    Senator Biden. Do you have a copy of the study?
    Mr. Natsios. There is no study that was done. The research 
was done in terms of interviews, but there is nothing that has 
been written, per se, on it. It is a verbal report. And I think 
or I believe some people in the Senate, staffers, have talked 
with Mr. Gersony about his findings.
    Senator Biden. But there is no report that has been 
written?
    Mr. Natsios. There is no report, no, sir.
    Senator Biden. Well, is there a reason that there is no 
report? Do you know? I know it is not on your watch, but I mean 
why would there be no written report?
    Mr. Natsios. Well, you would have to ask the organizations 
that hired Mr. Gersony, but my understanding is that they 
wanted to find out some general conclusions of what they found, 
and it was communicated verbally as opposed to in writing.
    Senator Biden. Thank you.
    The Chairman. Thank you, Senator Biden.
    I have just one final question. My understanding is that 
South Korea and China have been supplying food assistance 
directly to North Korea. And I wondered whether either of you 
gentleman had an idea of the extent of this. It is outside of 
the World Food Program, apparently outside of any organization 
in which the United States is involved. How do they do it? What 
are their constraints? Have you detected actual evidence of 
these programs?
    Mr. Morris. Both countries on a bilateral basis provide 
food to North Korea. My sense is that their focus in doing it 
is altogether different than ours. Where we target the hungry 
poor, primarily women and children, they simply provide en 
masse significant blocks of food to North Korea, and North 
Korea makes the decision on how that is used.
    The Chairman. The government of North Korea?
    Mr. Morris. That is correct.
    The Chairman. I see.
    Senator Biden. Can I ask one question very briefly?
    The Chairman. Yes.
    Senator Biden. I want to go back to where I began, and that 
is the Iraq and any emergency food requirements assuming things 
do not go--do not leave intact the existing distribution 
network. You have 850 people in the country I believe you said, 
Mr. Morris. Is that right?
    Mr. Morris. Yes.
    Senator Biden. The reason I am a little confused is on 
the--yesterday in The Washington Post, an article written by 
Peter Slevin says, ``The Bush Administration is gearing up for 
a potential humanitarian crisis if U.S.-led forces attack Iraq, 
planners said yesterday, reporting that the U.S. Government is 
spending millions to stockpile food, medicine, blankets and 
other emergency supplies.''
    What are we stockpiling--I mean, if it is as copacetic as 
you guys say, why are we spending millions to stockpile food?
    Mr. Natsios. Senator, I was at the press conference and 
said some of those things, although they did not use my name in 
describing it. That particular comment was not made by me. It 
was made by someone from the Defense Department. The Defense 
Department has designed a humanitarian ration that looks like 
a----
    Senator Biden. An MRE?
    Mr. Natsios [continuing]. Yes, it is like an MRE except it 
is more appropriate for cross-cultural purposes, no pork and 
not much meat. And they have stockpiled a huge number of those. 
That is the food they are referring to. We are not stockpiling 
Title II food in the--and the other stuff that is being 
stockpiled that is mentioned is from AID. It is plastic 
sheeting for shelter. It is water purification systems. It is 
medicines and it is health interventions, and that sort of 
thing.
    Senator Biden. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    I thank both of you for remarkable and helpful testimony 
today. And we appreciate the work that you are doing.
    Mr. Morris. Thank you.
    Mr. Natsios. Thank you.


   Additional Questions Submitted for the Record to Mr. Natsios from 
                             Senator Biden

    Question. In fiscal year 2003 the President asked for a 39 percent 
increase in P.L. 480 Title II to make up for the phase out of the use 
of Section 416(b) surplus commodities. The Administration estimated 
that its requested Title II appropriations for fiscal year 2003 would 
provide around 2.2 million metric tons of commodities, whereas the 
combined volume of commodities from Title II and Section 416(b) in 
fiscal year 2001 and fiscal year 2002 were, respectively, 4.5 million 
metric tons and 2.8 million metric tons. It appears that while the move 
to increase funds for food assistance through regular appropriations 
has provided a steadier, more reliable source of assistance, the 
overall level of assistance has decreased. How do we make up for the 
practical consequences of the phase out of Section 416(b)?

    Answer. Since 416(b) programming of food aid relies on surplus 
determinations of food commodities, the Administration advocated an 
increase to a more reliable appropriation level under P.L. 480 Title 
II. While this would not guarantee that total food aid tonnage would be 
maintained, it would be a more reliable resource. A good example of why 
this approach makes sense can be found in how the recent U.S. drought 
has affected commodity prices and availability. If Title II had not 
been increased, the Administration would not have the resources under 
Title II through its increased appropriation or 416(b) due to the lack 
of surplus commodities. The tonnage actually programmed is highly 
dependent on such variable costs as commodity prices and freight rates. 
If events unfold that require additional resources as demonstrated by 
use of the Bill Emerson Humanitarian Trust in FY 2002 for southern 
Africa drought relief, the Administration will simultaneously review 
worldwide food aid needs, the anticipated U.S. response, resource 
availability under Title II, and ultimately potential releases from the 
Trust.

    Question. In yesterday's testimony Mr. Natsios indicated that 1.9 
million tons of food remained in the Emerson Trust. Do you have plans 
to make further draw downs of the Trust this year? How much food will 
you use? What are the administration's plans for replenishment/
reimbursement of the Trust?

    Answer. In addition to the 575,000 metric tons (MT) released by the 
Secretary of the U.S. Department of Agriculture for southern Africa in 
fiscal year 2002, the Secretary just announced an additional release of 
200,000 MT release from the Emerson Trust for identified emergency 
needs for Africa. Further, a release was recently announced in response 
to food aid needs for Iraq of up to 600,000 MT. Since Iraqi food aid 
needs are highly dependent on the dynamic events unfolding on the 
ground, the release will be programmed in tranches. If the full 600,000 
metric tons are programmed, approximately 1.2 million metric tons will 
remain in the Trust. Discussions within the Administration are 
currently underway with regards to reimbursement and replenishment of 
the Trust, with no firm decisions made at the present time

    Question. The President's 2004 budget submission requests the same 
amount for Title II resources that it did in fiscal year 2003. When 
inflation is taken into account, this represents a reduction of over 
$20 million from last year when measured in constant dollars. Given the 
tremendous amount of need around the world today, what is the rationale 
behind asking for less for P.L. 480 Title II rather than more?

    Answer. General inflation accounts for only a small percentage of 
the costs incurred in the overall food aid program. Most of the program 
costs are driven by the cost of food commodities and shipping. FY 2003 
experienced a sharp increase in food costs, largely resulting from 
drought in the United States and an increase in fuel costs for shipping 
in the run-up to the war. Both these factors are volatile and not 
necessarily related to rates of inflation. While it is still too early 
to tell what fuel and commodity prices will be during FY 2004, we 
expect a return to more typical levels. This should allow for the 
delivery of more food at the request level.

    Question. What new authorities will AID be asking for to administer 
the Famine Fund? When can we expect to see legislative language? How 
did you come up with the dollar figure for the Famine Fund? Do you have 
specific activities in mind for the Fund that you can give us budgetary 
details about?

    Answer. The Famine Fund included in the President's FY 2004 budget 
is a $200 million contingency fund subject to the approval of the 
President that uses existing authority under section 491 of the Foreign 
Assistance Act of 1961, as amended. The request is consistent with 
Administration estimates of the proportional increase in famine 
prevention resources required in years of peak need compared to other 
years. Because the Famine Fund is a contingency fund, no budgetary 
allocations for specific activities will be made in advance.

    Question. One of the primary means through which to enhance food 
security is through development of the agricultural sector. Preliminary 
USAID budget justification documents indicate that we are allocating 
nearly $23 million less for agricultural development than we did last 
year. Why are we pulling back funding on these crucial programs?

    Answer. Initial estimates of data for all USAID-managed accounts do 
indicate such a decrease between the FY 2003 request and the FY 2004 
request. The Development Assistance account itself, which USAID manages 
directly, reflects an increase of $8 million for FY 2004 over the FY 
2003 request of $260.5 million. Both years reflect an increase over the 
FY 2002 level of $200.4 million. The decrease noted is in the accounts 
that USAID and the State Department manage together. Current 
instability in the Middle East and elsewhere, as well as other new 
Administration initiatives, strain the Administration's abilities to 
meet both national security challenges and effect additional increases 
in some development programs. Agriculture programs remain a priority 
and every effort will be made to find ways to increase these programs.

    Question. The administration has indicated that the U.S. 
anticipates providing 2.75 million metric tons of food to meet the 
needs in Africa between now and the end of the year. What happens if 
there is another crisis that demands attention? Will the food be sent 
somewhere else? Is the administration prepared to include funding for 
food needs in any supplemental request that it sends to Congress?

    Answer. To some extent current food needs in Africa already 
represent extreme levels and the likelihood is that, in the worst case 
of continuing crop failures, they will not result in much incremental 
need but remain constant at these extreme levels. An even moderately 
improved harvest in the region, on the other hand, would improve the 
needs profile considerably. The current P.L. 480 Title II operating 
year budget makes allowances for unanticipated emergencies up to a 
certain level. Allocations can be made to meet requests for other 
regions, where complex or other emergency food needs may emerge.

    Question. I fully support the efforts of the U.S. and the 
international community to continue meeting emergency needs in Africa, 
but I am also interested in what we are doing to help Africans achieve 
long-term food security. How much is the administration planning on 
spending on agricultural development programs in fiscal year 2004 and 
how does it compare to this fiscal year?

    Answer. The Administration has requested a significant increase in 
funding for agricultural programs in Africa, including funding for the 
Initiative to End Hunger in Africa (IEHA) announced at the World Summit 
for Sustainable Development in Johannesburg in September, 2002. The 
actual amount expended for agriculture in FY 2002 is already a thirteen 
percent increase over FY 2001. The amounts requested for agricultural 
programs in fiscal years 2003 and 2004 represent further increases of 
24 percent and 17 percent over the spending for agriculture in Africa 
in FY 2002.


  Administration Requests for Agricultural Programs, FY 2001 through FY
                                  2004
                      (in millions of U.S. dollars)
------------------------------------------------------------------------
                  Fiscal Year                       Amount Requested
------------------------------------------------------------------------
                                         2001         102.2
                                         2002         115.1 (Includes
                                                 IEHA at 5.0)
                                         2003         142.0 (Includes
                                                 IEHA at 27.0)
                                         2004         134.1 (Includes
                                                 IEHA at 42.0 planned)
------------------------------------------------------------------------


    Question. There have been efforts made to push for the UN Special 
Rapporteur on the Right to Food to visit Zimbabwe to investigate 
accusations surrounding the politicization of food aid. Is this 
something the administration supports?

    Answer. Although the United States is not a signatory party to the 
International Covenant on Economic, Social and Cultural Rights in which 
the right to adequate food is affirmed in Article 11, we have agreed to 
participate in the Intergovernmental Working Group to provide voluntary 
guidelines on the implementation of the right to adequate food. In this 
context, we would welcome a visit by the UN Special Rapporteur on the 
Right to Food to any country in which he feels this right might not be 
fully implemented, and we will be eager to respond positively to any 
recommendations he might make.

    Question. What is the United States currently doing to ensure that 
the issue of donations of genetically modified food does not become an 
issue in the future?

    Answer. The United States has undertaken to clarify trade 
regulations affecting genetically modified organisms (GMO) through the 
``codex alimentaris'' principles regulating phytosanitary regulations 
under the World Trade Organization. Agreements reached last month in 
Geneva at a meeting of the codex committee are anticipated to put some 
clarity on what should be acceptable in international trade.

    Question. As you are aware, a combination of extreme drops in 
export coffee prices, (almost 50 percent in the past three years, 
falling to a 30-year low), drought, and tropical storms have brought an 
intense increase in the level of severe malnutrition in several 
countries in Central America. About half of Nicaragua's population of 
almost 5 million lives in poverty, with 17 percent living in extreme 
poverty. In Guatemala, about 83 percent of the people live in poverty, 
and almost 60 percent in extreme poverty. In Honduras, the per capita 
income level is $850 per year.
    What is USAID doing to address this crisis in Central America? How 
is USAID coordinating with other federal agencies, or multilateral 
institutions such as the United Nations and the World Bank to alleviate 
the increase in malnutrition and poverty?

    Answer. USAID programs in Central America have been essential to 
ameliorating the effects of the overall slowdown in the world economy 
and particularly important in addressing the effects of natural 
disasters in the late 1990s as well as the recent drought and coffee 
crisis. USAID provided over $188 million to the Central American 
countries for development assistance, emergency relief, and earthquake 
reconstruction in FY 2001, followed by another $254 million in FY 2002. 
In FY 2003, USAID plans to continue its efforts in Central America and 
Mexico with a $199 million program.
    With an additional $8.5 million in FY 2002 and $30 million planned 
for FY 2003, USAID's ``Opportunity Alliance'' is addressing the Central 
American economic crisis through agricultural diversification and 
trade-led growth in order to stimulate off-farm employment among the 
region's poorest inhabitants. Assistance for business development 
services will help small and medium farmers and rural enterprises 
improve competitiveness and tap new markets for nontraditional 
agricultural exports, specialty coffee, and eco-tourism. Innovative 
finance activities will stimulate small-scale rural finance to promote 
linkages between remittances, microfinance institutions, and credit 
unions. A regional activity to increase competitiveness among selected 
Central American coffee producers by assisting them to improve product 
quality and access the expanding specialty and quality coffee markets, 
began with $6 million in FY 2002, and an additional $2 million is 
planned for FY 2003. The Opportunity Alliance will also help farmers 
who cannot compete in coffee to diversify into agricultural or non-
agricultural alternatives. USAID is collaborating actively with the 
Inter-American Development Bank, the World Bank, and other bilateral 
donors in these efforts.
    The Opportunity Alliance will augment existing regional programs to 
build trade capacity to help prepare countries for the Free Trade Area 
of the Americas, the World Trade Organization Doha Round, and U.S.-
Central America free trade negotiations, and to meet trade obligations, 
e.g., sanitary and phytosanitary measures, customs, and intellectual 
property rights. USAID will also target legal, policy, and regulatory 
reforms to improve the trade and investment climate. USAID is working 
closely with the U.S.Trade Representative in this effort.

    Question. What are the governments of these Central American 
countries, if the capacity exists, doing to reduce malnutrition and 
hunger?

    Answer. USAID has been working with the governments of Nicaragua, 
Guatemala, Honduras, and El Salvador to support nutritional 
surveillance efforts and address malnutrition.

  <bullet> Nicaragua has achieved remarkable progress in key social 
        sectors in recent years, including major reductions in infant 
        and child mortality rates and chronic malnutrition. Many of 
        these improvements are due to the significant influx of U.S. 
        Government and other donor assistance following Hurricane Mitch 
        in 1998, and the Government of Nicaragua's strong investment in 
        the health sector. Given the country's dire economic situation 
        and small economic base, however, the gains are unsustainable 
        and the government's contribution to the social sector too 
        small. Although USAID's support to nongovernmental organization 
        efforts to prevent childhood malnutrition in high-risk areas 
        has played a major role in reducing overall malnutrition to 
        less than 10 percent for the first time ever, pockets of 
        malnutrition have been identified. A donor-supported assessment 
        by the Nicaraguan Ministry of Health found that among 
        unemployed coffee workers' families, 45 percent of children 
        under five years old suffer chronic malnutrition. USAID/
        Nicaragua is planning to continue to provide grants to private 
        voluntary organizations and nongovernmental organizations to 
        improve household nutrition practices.

  <bullet> The Government of Guatemala continues to combat localized 
        increases of acute child malnutrition, exacerbated by the 
        effects of last year's drought and slump in the coffee sector. 
        USAID has engaged the Guatemalan government to help it develop 
        a plan to focus on the neediest areas, mobilizing its own 
        resources and donor funding to implement the plan. USAID's 
        Office of Food for Peace provided additional emergency 
        resources to assist in this effort.

  <bullet> The Government of Honduras created the Multisectoral Drought 
        Committee (COMUS) composed of government, NGOs, and donor 
        institutions, such as the Food and Agriculture Organization, 
        USAID, and World Food Program, to monitor hunger-related 
        issues. Focusing its efforts on 30 vulnerable, southeastern 
        municipalities, COMUS promotes crop diversification and 
        reforestation. The Honduran government's short-term goal is to 
        ensure access to food with grains purchased from other Central 
        American countries and donations. Over the medium term, the 
        Honduran government plans to develop productive infrastructure 
        for management of water, soil, and forest resources. In 
        addition to encouraging food for work activities, the Honduran 
        government is considering establishing reserves of corn and 
        seed for planting. Donors, including USAID, are assisting the 
        government to meet these objectives.

  <bullet> In El Salvador, President Flores announced an $85 million 
        plan (reprogramming and reorienting resources and investments) 
        to assist jobless workers in coffee areas through construction 
        of social and productive infrastructure. The program, which is 
        being implemented by the Social Investment Fund for Local 
        Development, will provide jobs to 23,000 families in 69 
        municipalities. Also the Government of El Salvadoran is making 
        $100 million, based on a Taiwanese loan, available to producers 
        for agricultural diversification. The El Salvadoran government 
        has also begun an effort to assist coffee farmers to 
        restructure old debts. For the 2002/2003 harvest, a credit line 
        will be made available from private banks for farmers who are 
        current with debt payments.

    USAID is establishing a vulnerability management system for the 
Central America region, which will allow governments, NGOs, and donors 
to anticipate and mitigate severe fluctuations in crop yields and 
natural disasters. The system will serve as a decision-making tool for 
assignment of financial and technical resources to manage potential 
crises. It builds on USAID's Hurricane Mitch reconstruction experience 
as well as USAID's Famine Early Warning Systems Network in Africa.

    Question. What attention does the President's budget give to 
alleviating poverty and malnutrition in Central America?

    Answer. The FY 2004 request for USAID activities in Central America 
totals $226.4 million. Approximately $99.5 million (44 percent) is 
allotted for economic growth, trade, and agriculture and $49.9 million 
(22 percent) for child survival and health. In addition, $34.9 million 
in P.L. 480 Title II funds (16 percent) are allocated for humanitarian 
assistance, including commodities, for the poorest segments of the 
population in the region.


    The Chairman. At this point I will call upon our second 
panel of distinguished witnesses. And they will include Ellen 
Levinson, Ken Hackett and Joachim Von Braun.
    We welcome your testimony. Let me say at the outset that if 
you have prepared testimony, all of it will be published in the 
record in full, so you need not make that request, just 
understand that that will occur. If you would then summarize 
your testimony, that would be helpful and the Senators will 
then ask questions of you.

STATEMENT OF ELLEN S. LEVINSON, GOVERNMENT RELATIONS DIRECTOR, 
                CADWALADER, WICKERSHAM AND TAFT

    Ms. Levinson. Thank you, Mr. Chairman and thank you very 
much for holding this hearing. I think as we just heard about--
I am Ellen Levinson. I am the Government Relations Director at 
the law firm called Cadwalader, Wickersham and Taft, but I also 
represent a group of non-profit organizations engaged in 
international food aid as well as development. They are 
development agencies, not food distribution agencies. So their 
focus is on integrated development programs including those 
that use food. I have--in fact, one of my colleagues is right 
here.
    I am really glad that you are holding this hearing. When we 
heard just in the last panel this incredible focus on famine 
right now and on perhaps the looming crisis that we may be 
seeing in Iraq for food and for other assistance, I believe it 
is incredibly timely.
    One of my biggest fears is that when we see these famines 
we become very distracted from the underlying question that you 
are asking here, how to eradicate hunger. It is not a question 
of chasing famines. It is not a question of just getting money 
for pre-famine, which I completely support, pre-famine 
preparation or, you know, addressing the famines head on. It is 
a much, much bigger issue. And that is: What do you do about 
800 million people who are hungry day in and day out?
    I feel like it is very easy to forget that, because we get 
sidetracked. I was listening to the testimony today for example 
about the funding for food aid. Food aid is not an emergency 
program. And if you sat in this room today I think you would 
have the feeling that it is. It is not.
    I mean the PL 480 Title II program and the Farm Bill, which 
you were very active in, have 75 percent of the commodities for 
development to address food security and the underlying causes 
of hunger. I know that Ethiopia may only be getting $4 million 
in agriculture development aid but it is getting millions more 
in development aid through food aid.
    And 85 percent are a rural dependent in a country where it 
is $100 per day per capita--I mean, per year per capita income. 
When you have a company like that, you have got to get at the 
underlying causes. That is exactly what organizations are doing 
right now. So I do not want people to think that we are just 
responding to emergencies.
    In food aid, for example, in Ethiopia, the focus is a 
multifaceted approach where they are developing agricultural 
productivity, improved seeds, harvest, post-harvest technology, 
where they are working in also diversifying income because if 
it is famine-prone and you are a subsistence farmer, it is wise 
to have other sources of income.
    One of the areas of the problem, of course, is the coffee 
growers. Those are the export crops. They are suffering, too, 
right now. Their production is down 20 to 30 percent. They are 
not the staples that are eaten, the maize and the sorghum, but 
that is a separate issue which is not being dealt with 
necessarily directly through food aid.
    Also, the mother and child health care situation, you look 
to the most vulnerable groups in the community to also help 
them, and these are all going on right now, immunization 
programs, training, prevention programs, health and sanitation, 
hygiene training, all of that is being done through partially 
monetized food aid and some distributed food aid conducted by 
about five U.S. non-profit organizations under Title II.
    So I do not want us to lose that. Now, what I also heard is 
that the funding levels Senator Sarbanes was mentioning, 
funding levels for Fiscal Year 2003 right now, because of the 
famine in Africa, not just the regular refuge problems and 
ongoing hunger has faced 200 million people, not just that, but 
looking more at the famines, there is a great diversion of 
resources right now away from development programs in Africa, 
Central America--Central America, they are disaster-prone as 
well, Nicaragua.
    There are good development programs going on with food aid, 
Bolivia as well. Wherever a country is food insecure, meaning 
it does not have access to enough food to provide for a healthy 
population, where it is reliant on imports of food and it is 
poor, food aid is an appropriate intervention. We are using 
food aid in Central America and Bangladesh and other parts of 
Asia. We are using it in Africa for development. So what was 
not said today is that those programs are--up to $270 million, 
in fact, of those programs are threatened because of inadequate 
budgets or systems to provide the food that are needed for 
emergencies.
    So I wanted to get that across. As far as eradicating 
hunger, we have so many great things that we are doing, I just 
want to say that there are some wonderful programs that exist, 
but it is a bigger issue than just agriculture, health, 
education and food assistance programs. There is a need for an 
integrated approach to get underneath it.
    First of all, you need an enabling environment, which I 
really believe that Senator Sununu was getting at, the enabling 
environment at the government level. I believe that a good 
approach to that would be in the poverty reduction strategy 
papers that are developed along with the World Bank and other 
donors. Those should clearly address food security so it is an 
integrated approach within the government of a country that is 
food insecure to deal with those issues and that the donor 
funds that are coming in are coordinated because the kinds of 
programs that I described that PVOs are doing are critical. It 
is--they are organizing with thousands of people, thousands of 
local NGOs, building local capacity, but you need to have the 
enabling environment.
    When we talk about internal transportation in Ethiopia 
lacking from the south to the east so that you cannot take the 
surplus crops there, what is that all about? That is not 
something that food aid, monetization can do, or even our AG 
assistance. That is going to be something for an infrastructure 
at a larger level. Reforming the economic reforms needed, that 
is a larger level. Those are things that are needed through an 
enabling environment and I believe you need a coordinated 
approach. And it should not be something added on to what 
already exists, but rather I suggest improving that within the 
PRSP process.
    As far as an enabling international environment, there are 
issues very important there. Right now, we have the, you know, 
WTO DOHA Trade Round negotiations going on. They are 
threatening to eliminate in kind food aid for non-emergency 
programs. Now, that has been a major way we are providing $1 
billion more every year in those types of programs. What 
happens if we all of the sudden here in the United States take 
them away, our in kind food aid for non-emergency programs? 
That would be a terrific danger. We need to be careful about 
that. The food aid convention is an international multilateral 
agreement on food aid, defining the terms and conditions to 
provide food aid to the food insecure through governments, 
through multi-lateral organizations such as the World Food 
Program and through non-profit organizations. That is a very 
good mechanism for coordinating food aid as far as commitments 
and as far as the terms of bona fide food aid.
    I believe the trade organization should stay out of it and 
really allow what exists to continue. Currently, under the 
Uruguay trade round, we did allow the food aid convention to 
control bona fide food aid and exempted it from any export 
subsidy limitations in the agricultural agreement.
    So I think--yes, I am just mentioning some of these issues 
and I think that when we get down to the issues that I believe 
that you will hear from IFPRE, which I also agree are 
important, the agriculture development environment, taking 
use--making use of international research institutes, 
universities, expertise in private sector, which we really have 
not mentioned today, that first of all requires the enabling 
environment for private sector to invest, but those entities 
coordinated with all of these other forms of assistance are 
going to be critical to improving the food security in the 
developing world.
    So I would hope that we would refocus back on the 
underlying causes and as far as famine, Mr. Natsios said 
something very important. He mentioned that he is looking for 
cash, which is important of course, for flexibility, but also 
he mentioned that there is the Bill Emerson Humanitarian trust 
which is a reserve of food aid.
    The problem with it is there is no way to automatically 
replenish that trust. When you draw down commodities, it cannot 
be replenished readily if the Commodity Credit Corporation is 
not holding surpluses. If the Commodity Credit Corporation 
holds surplus commodities, you can refill it, not with non-fat 
dry milk. Sorry, Senator Feingold. You cannot use non-fat dry 
milk there. It is too perishable, but with grains and rice.
    So you cannot refill it right now, because we do not have 
anything held in CCC inventory. Therefore, it is requiring 
appropriations to refill it and that is a problem. So we need 
to look at that and come up with a smart and reasonable method 
so we do not sit here waiting for supplemental appropriations. 
Yes, we have provided half of the food aid traditionally.
    I hate to differ with Mr. Natsios, in the 1980s we have, 
for emergencies, not just in the past few years where we 
exceeded 50 percent, and when we come up to the plate early, we 
can help the world food program in its appeal to get more for 
famines, which is a very important role of the World Food 
Program, which is to do the assessments and the appeals 
worldwide, but we need to be up there and ready and I think 
that our leadership will help to make other countries ready as 
well. Thank you.
    The Chairman. Thank you very much, Ms. Levinson.
    [The prepared statement of Ms. Levinson follows:]


                Prepared Statement of Ellen S. Levinson

    Mr. Chairman, I appreciate this opportunity to testify before the 
Senate Committee on Foreign Relations regarding the status of and 
effective response to world hunger. I am Government Relations Director 
at the firm Cadwalader, Wickersham & Taft and also serve as Executive 
Director of the Coalition for Food Aid, which is comprised of 14 U.S. 
private voluntary organizations and cooperatives (jointly called 
``PVOs'') that conduct international food assistance programs. \1\
---------------------------------------------------------------------------
    \1\ The Coalition for Food Aid was established in 1985 and its 
members are: Adventist Development & Relief Agency International, ACDI/
VOCA, AfriCare, American Red Cross, CARE, Catholic Relief Services, 
Counterpart International, Food for the Hungry International, 
International Orthodox Christian Charities, International Relief & 
Development, Mercy Corps, OIC International, Save the Children and 
World Vision.
---------------------------------------------------------------------------
    Eradicating hunger is the oft-stated goal of international and 
American policies, from the U.S. declaration upon the establishment of 
the Food for Peace program in 1954 to the World Food Summit goal of 
reducing the number of hungry people from 800 million in 1996 to 400 
million by 2010. Achieving this laudable goal, however, has been 
elusive. At current rates, according to the Food and Agricultural 
Organization (FAO), it looks like the number of hungry people will not 
fall much below 700 million by 2010. The USDA Economic Research Service 
(ERS) ``Food Security Assessment'' (March 2002) reports that food 
access remains a common problem among the lower income populations in 
poor countries. ERS found a shortfall of 18 MMT of commodities to meet 
nutritional requirements in 67 low-income countries in 2001.
    What are the causes of and impediments to eradicating hunger? What 
is being done? What more can be done? What is the role of the Untied 
States in this worldwide effort?
    This testimony responds to these questions, considering both acute 
and chronic hunger. Acute hunger is associated with a severe food 
shortages due to emergencies and could lead to death from starvation or 
hunger-related illness if not immediately addressed. Chronic hunger is 
associated with insufficient amounts of the right mix of foods to meet 
nutritional needs over an extended period of time, which leads to 
stunted growth and development, greater susceptibility to disease, poor 
productivity and higher rates of mortality.
                             chronic hunger
What are the causes of chronic hunger?
    Chronic hunger has many causes and manifestations, but is most 
often associated with poverty and lack of empowerment. In developing 
countries, where poverty is endemic, employment opportunities are 
lacking, governments are unable to provide basic health and education 
services or sanitation and clean water due to low revenues and high 
debt burdens, agricultural productivity is often low, banking and 
marketing systems are usually weak and underperforming, and many people 
struggle just to meet their basic needs. At the individual and 
household level, insufficient incomes and/or dependence on subsistence 
farming are important factors.
    The opposite of hunger is food security--the ability to access 
through production and/or purchase adequate amounts of the right mix of 
foods for a healthy life. To develop a plan for achieving food 
security, first, the underlying causes of hunger in a particular 
situation must be analyzed and then interventions can be developed to 
remedy the problems. Multiple activities are often needed to have an 
impact.
    For example, Ethiopia has an average per capita GNP of $100/year, 
average life expectancy of 45 years, and under-five mortality rates of 
175 per 1000. The economy is based on agriculture, which employs 85 
percent of the workforce and provides 80 percent of export earnings. 
The main export crop is coffee, which is subject to price volatility. 
There is high population density and lands are being degraded due to 
overgrazing and deforestation. Adding to agricultural vulnerability, 
the county is subject to periodic drought and has very poor 
infrastructure. Therefore, in Ethiopia improving incomes and 
agricultural productivity and the health of women, infants and children 
are main focuses of PVO developmental food aid programs. The activities 
include agricultural extension for improved farming practices, 
diversification of incomes for subsistence farmers, food-for-work to 
build primary infrastructure and for land conservation, reproductive 
health, and children's health care and growth monitoring.
    Bangladesh is also a densely populated, low-income and disaster-
prone country with a rural-based economy. The PVO integrated food 
security programs, largely using food aid resources, target high-risk 
urban and rural communities, such as flood-prone areas and urban slums. 
Projects include flood proofing, health and sanitation training, 
increasing the capacity of local organizations for microenterprise, and 
farmer training. They also provide disaster management and rural 
maintenance programs.
What is being done to eradicate chronic hunger and what more can be 
        done?
    At the World Food Summit, each country was called upon to develop a 
Plan of Action to promote food security, with benchmarks leading to 
2010. It is not clear that this process is working. However, the United 
States and international community have many programs that can 
contribute to eradicating chronic hunger.
    Under the PL 480 Title II program, 1,875,000 metric tons of food 
aid is targeted for non emergency programs that reduce hunger and its 
causes. The Administration has asked to straight line this program at 
$1.185 billion in FY 2004, but $1.4 billion would allow a wider variety 
of processed and high-valued products to be purchased. This increase is 
also needed to help offset the loss of commodities provided under the 
Section 416 surplus program, which was providing on average $600 
million per year for food aid from FY 1999 through 2002 and is now 
providing about $100 million.
    The USDA-run Food for Progress program provided food aid grants to 
assist private sector agricultural development in countries that are 
making reforms in their agricultural economies and is providing about 
$150 million in assistance each fiscal year. The Administration's 
budget requested $50 million to continue the McGovern-Dole 
International Food for Education Program in FY 2004, which has the 
purpose of increasing school attendance and improving food security. 
The PL 480 Title I program provides loans to lower-income countries for 
the purchase of food commodities from the United States on highly 
concessional terms and appropriations for that program is straight 
lined in the President's budget request for FY 2004.
    Many development assistance programs, such as child survival, HP//
AID, other health projects, agriculture and education can contribute to 
food security. International institutions, such as the World Bank, 
international agriculture research centers and several United Nations 
agencies (such as IFAD, FAQ and UNICEF) also cover aspects of food 
security. Private companies, universities and other research centers 
can contribute technology and know-how to improve seed quality, 
cultivation techniques, post harvest storage, product quality and 
marketing.
    Below are some suggested ways to improve the targeting and 
effectiveness of efforts to eradicate chronic hunger.
1. Integrated programs demonstrate success.
    As the Ethiopia and Bangladesh examples above show, it may take 
several different types of interventions over a period of time to 
address chronic hunger. The emphasis on integrated development programs 
for food security rather than food for distribution is an important 
step forward in food aid programming and should be continued.
    Since 1995, programs under the PL 480 Title II have evolved from a 
focus on food distribution and public works to activities with a 
primary focus on sustainable development, and they have been 
successful. Agricultural and mother-child health programs have been 
integrated with complementary activities such as technical assistance 
and training, largely funded by monetization. Yields were increased, 
storage losses were reduced, household provisioning was improved, and 
nutritional status of children was improved. (FANTA Report of the Food 
Aid and Food Security Assessment, March 2002) Besides using 
monetization to enhance support improved programming, the process of 
monetization itself can stimulate wider participation of traders in the 
market of the recipient country, thereby strengthening the free market 
system.
    Besides agricultural and mother-child health programs, integrated 
approaches to address a variety of other impediments to food security 
should get attention. In some cases food aid alone could be used or 
development assistant funds alone can be used, or they could be 
blended.
    For example, community food security is challenged when there is a 
high prevalence of HIV/AIDS. When a person's immune system is 
compromised, it is important to maintain a nutritious diet. However, 
this is often difficult to provide in poor communities. In addition, 
when breadwinners are ill, children may have to forego schooling to 
work or care for younger siblings. Medical expenses drain funds away 
from food and other basic needs. Carrying for orphaned children creates 
a financial burden on relatives or others in the community. A downward 
economic and social spiral is often the result. The President's 
announcement of the HIV/AIDS initiative is welcome. These efforts 
should include best practices in prevention and care, enable families 
to provide nutritious foods for relatives living with the disease, and 
ensure the nutritional, educational and financial needs of orphans and 
affected community members are met.
2. Make multi-year commitments to address the underlying problems.
    In poor areas, eradicating hunger is a long-term process. A 
presence at the community level must be maintained during the duration 
of the program in order to assure it is properly implemented, to 
troubleshoot, to make needed modifications, and to monitor. USAID 
recognizes this and develops multi-year programs with most of its 
partners. For PL 480 Title II, five years is the norm, although longer 
is often needed to build local capacity and to tackle other aspects of 
food insecurity. Even when there is a multi-year agreement, the U.S. 
Government can be inconsistent in resource allocations because 
political and policy priorities change. Agreements with partners should 
be kept on track, except if there is a serious problem during an 
evaluation or appropriations are discontinued. Interruptions in agreed-
upon projects harm the credibility of the PVO that is the implementing 
partner, require the laying off of local staff, and set back progress 
towards results.
    The purpose of the PL 480 program is to use U.S. food aid to 
promote food security in the developing world and under Title II an 
explicit objective is to alleviate hunger and its causes. The law calls 
for 1,875,000 MT of Title II commodities to be used for non-emergency 
purposes so multi-year interventions to address chronic hunger can be 
implemented. These programs that are specifically designed to promote 
food security should be allowed to run their course.
    However, there seems to be pressure within the Administration to 
move away from integrated development to relief operations under Title 
II. This was most noticeable this year when PVOs were told that many of 
their non-emergency programs would be cut in order to divert funds to 
emergency needs. This sets a troublesome new precedent since 
emergencies are usually supplied through supplemental appropriations, 
surplus commodities or commodities from the Bill Emerson Humanitarian 
Trust.
3. Develop local partnerships through PVOs to address impediments to 
        food security.
    Designing solutions that can take root requires consultation and 
implementation with local institutions and community groups. Agreements 
with PVOs foster effective community participation and should be 
encouraged for food security interventions. PVOs are effective in 
working with poor communities, provide accountability for resources and 
are also cost effective partners for development. The Foreign 
Assistance Act of 1961 recognizes the importance of both PVOs and 
indigenous organizations and PL 480 Title II explicitly calls on PVOs 
to work with indigenous organizations. By working with and through 
local administrators and community groups, they also help the process 
of decentralizing decision-making. PVOs cooperate directly with the 
hungry and the poor and develop approaches from the perspective of 
people involved. They represent the goodwill of the American people in 
their work abroad.
4. Create an enabling environment at the national government level.
    Donors need to provide incentives for low-income, net food-
importing countries and countries where subsistence farming is 
prevalent to create an environment conducive to the eradication of 
hunger. Poor countries that receive World Bank funding develop Poverty 
Reduction Strategy Papers (PRSPs) in consultation with donors, 
nongovernmental organizations, private entities, and local 
administrators. Addressing food security should be integrated into the 
PRSP process. This would provide a strategic plan within a country for 
addressing the multi-faceted aspects of hunger.
    The country government, with the support of multilateral and 
bilateral donors, should take responsibility for large-scale projects 
needed to support food security, such as opening markets and creating 
laws that protect investments; developing the water, sanitation, and 
transportation infrastructure; and sustainable financing of education 
and health systems. Similarly, as intended in the President's 
Millennium Challenge Account proposal, governments should be given 
incentives and support to implement the rule of law, to exercise 
transparency in government transactions, to invest in the health and 
education of their populations and to support economic freedom and an 
environment conducive for private sector development.
5. Enabling multilateral agreements are needed.
    The food Aid Convention is the intergovernmental mechanism for 
defining food aid and for donors to make commitments to provide minimum 
levels of food aid grants. It allows donor counties to enter into 
agreements with nongovernmental organizations, governments and 
multilateral organizations for both emergency and non-emergency 
purposes. The objectives of the FAC are to contribute to world food 
security by making appropriate levels of food aid available on a 
predictable basis and to provide a framework for coordination among 
member counties, as well as a reporting mechanism to track food aid 
donations.
    Article 10.4 of the Agreement on Agriculture recognizes that 
countries with agricultural bounty may provide food aid to less 
developed, net food-importing countries under terms that do not 
interfere with commercial trade but are flexible to meet the different 
types of programming needs in each country. Food aid is exempt from 
limitations placed on subsidized agricultural exports if the terms 
under which it is provided meet the requirements of the FAC. Article 
10.4 should not be changed. The current draft Doha Round language 
(``Harbinson Draft''), which is being discussed at the WTO Special 
Session on Agriculture in Geneva this week (February 25, 2003), must be 
rejected. It would severely limit in-kind food donations and would end 
all non-emergency food aid through governments and nongovernmental 
organizations, such as PVOs.
                              acute hunger
What are the causes of acute hunger?
    Natural disasters and conflicts continue to impede progress towards 
food security. They compound the suffering of the poor, erase the 
economic progress made by struggling, developing countries and thrust 
millions of low-income, and even middle-income, families into poverty. 
Droughts, floods, pestilence, and other natural disasters reduce or 
destroy agricultural production and livestock, inhibit imports and 
internal trade of commodities, and result in inflated prices.
    If natural disasters occur in the United States, there are 
governmental and nongovernmental emergency mechanisms in place to 
respond with assistance rapidly, which saves lives, prevents the spread 
of disease and restores normal living conditions more quickly. If 
natural disasters occur in a poor, less developed country, where 
infrastructure is lacking and many people are already vulnerable 
because they live in poverty and often do not have adequate diets on a 
regular basis, the result is a sharp increase in deaths due to 
starvation or hunger-related diseases and long-term setbacks to the 
economy and development.
    Ethiopia is a current example. Poor, lacking in infrastructure and 
dependent on rainfed agriculture, the country was hard hit in 2002 when 
both the minor rains (March-April) and major rains (June-September) 
were insufficient. Yields of maize and sorghum were reduced by 45 
percent and 34 percent, respectively. The cereals deficit is 2.489 MMT 
(FEWS NET) for 2003. An emergency has been declared and there are 11.3 
million at immediate risk and another 3 million are considered 
vulnerable.
    Livestock are dying, cereal shortages have led to inflated food 
prices, purchasing power of the poor has decreased, people are selling 
their assets (livestock, equipment, personal goods), people are 
migrating to seek fodder and water for livestock, and the number of 
homeless people in cities is increasing. In the hard hit areas, acute 
malnutrition among children under 5 is 15 percent and death from 
starvation and hunger-related diseases is increasing. In some areas 
food aid is the only source of food available.
What is being done to eradicate acute hunger and what more can be done?
    In cases of emergency in poor, developing countries, outside 
intervention is needed for both the emergency and recovery phases, and 
international response must be rapid to limit morbidity and mortality. 
Besides food aid, investments in potable water, health care and 
agriculture, such as fertilizer, seeds and tools, are often required. 
With the prevalence of HIV/AIDS in disaster-prone areas. There is 
greater susceptibility to weakness and disease when there are food 
shortages. This makes the need for quick response more urgent and also 
means that the special needs of such groups must be taken into account 
when developing the food rations and recovery plans.
    Below are steps to limit the impact of emergencies and to prevent 
acute hunger in poor countries.
1. Prevention and early warning systems.
    Early warning systems track weather, price and commodity 
availability, and other conditions that could indicate potential food 
shortages. The purpose is to identify early signs of stress in poor and 
vulnerable communities before food shortages lead to declining health, 
sales of assets and migration. USAID's FEWS NET serves this purpose in 
parts of Africa and the UN FAO also has a mechanism for early warning. 
When possible, these findings should be linked more closely with 
prevention activities, including activities by PVOs under PL 480 Title 
II, to address chronic hunger. In the case of political instability and 
war, it is very difficult to help people in their communities and often 
preparations are made to intervene after the conflict and/or through 
displaced persons and refugee camps.
2. Assessment of the extent of the food crisis.
    When there are signs of a food crisis, an on-ground assessment is 
used to identify the number people at risk, those population groups 
that are particularly vulnerable and estimated food shortages. These 
assessments are conducted by teams from governments, intergovernmental 
organizations, such as the UN World Food Program (WFP), UNICEF and FAO, 
and PVOs. Sometimes these assessment teams wait until there are 
significant events, such as the beginning of harvest, to conduct their 
field studies. Even if a complete assessment is not completed, plans 
should be made to provide food and other assistance when there are 
early signs of problems, such as failed rains during the growing 
season, that are confirmed by local observations of PVOs or others 
working in the field.
3. Relief-recovery project development and implementation through PVOs.
    PVOs coordinate with communities (a) to identify the interventions 
that are needed immediately, such as they types of food, who should 
receive commodities and the best ways to deliver goods and services; 
(b) to identify the interventions for recovery, such as seeds, tools 
and fertilizer; and (c) to implement and monitor programs. Recently, 
USAID has recognized the importance of linking recovery directly with 
emergency relief and has approved a PV0 consortium program (``C-SAFE'') 
for the southern African emergency that will accomplish this goal. 
However, it took months to work out that agreement, and it is taking a 
long time to develop similar programs for Ethiopia. Such relief-
recovery agreements with PVOs demonstrate a new approach to restore 
health and productivity when there is acute hunger and are good models 
for the future.
4. Early response by donor countries.
    To fulfill the needs identified by assessments mechanisms must be 
in place in donor countries to allow the timely allocation of 
resources. International appeals for emergencies should encourage broad 
donor participation, but the United States, because of its agricultural 
bounty and traditional commitment to hunger relief, should continue to 
provide one-half of needed commodities for an emergency. However, the 
USG needs to develop a revolving food aid reserve/fund for early 
response to urgent humanitarian needs. The lack of such a mechanism is 
a significant impediment to rapid recovery and also endangers efforts 
to use food aid to promote development and to overcome the causes of 
hunger.
    Some funds under PL 480 Title II are available for emergencies, but 
these are insufficient and were not intended to provide for large 
emergency needs. In the case of the 1984-85 Ethiopian famine, the 
Afghanistan emergency and the Yugoslav war, supplemental appropriations 
were provided. In other years, surplus USDA Section 416 commodities 
were available for emergencies. Four times since its inception, 
commodities from the USDA emergency reserve, called the ``Bill Emerson 
Humanitarian Trust,'' were used for urgent humanitarian needs. However, 
the value of the commodities released from the Trust must be repaid to 
CCC in subsequent years with PL 480 funds. Further, the Trust must be 
replenished through appropriations since CCC does not hold inventories 
of grains, rice or oilseeds that can be used to replenish the Trust. 
(See Attachment A for a description of the Trust.)
    This year is a prime example of a time when emergency funds for 
food aid are greatly needed. The funds needed to buy and to deliver 
one-half of the food needed for current emergencies in eastern and 
southern Africa would require $600 million above the funding request 
provided in the Administration's FY 2003 budget request for PL 480 
Title II. (See Attachment B.) Instead of seeking these extra funds from 
Congress, has decided to provide only \1/3\ of the food needed for 
these emergencies rather than the traditional \1/2\ Further, it will 
limit funds for other emergencies, such as Uganda and Angola, and is 
diverting up to $270 million in funds from previously-approved PV0 
programs in such countries as Bolivia, Guatemala, Peru, Ghana, 
Mozanbique, Bangladesh, Malawi and parts of Ethiopia where the drought 
is not severe but there is chronic food insecurity.
    Cutting these programs is against the intent of the law, which 
calls for 75 percent of Title II commodities to be used for non-
emergency programs in order to tackle the issues causing chronic 
hunger. As our nation faces potential war with Iraq and seeks 
cooperation in the war against terrorism, it is important for the 
United States continue to show our compassion towards needy people in 
poor countries. Without additional funding, millions of people will be 
eliminated from other food aid programs across the world and the U.S. 
will reduce its level of assistance for emergencies. This comes at a 
time when prices for most commodities have increased by 20-60 percent 
over the past several months.
    For the current food crises in eastern and southern Africa, 
additional FY 2003 appropriations are needed. May I express great 
appreciation that Senator Bill Nelson offered and the Senate approved 
an amendment to the FY 2003 Omnibus Appropriations Bill to provide $500 
million in additional emergency funds through PL 480 Title II. In 
Conference Committee this level was cut to $250 million, which is 
insufficient to meet the emergency needs or to avoid cutbacks in other 
PL 480 programs. The immediate remedy is to provide the remaining funds 
in the supplemental appropriations bill and to use 500,000 MT of wheat 
from the Trust. However, action is needed as soon as possible because 
it takes about four months to buy commodities and to ship them. 
Additional funds may also be needed to meet the new commitment of food 
aid to North Korea; and if there is war in Iraq, significant additional 
food aid will be needed.
    The long-term remedy for timely and adequate interventions in times 
of emergency and to address acute hunger is two-fold. First, a 
revolving fund for food aid emergencies should be created, using the 
Bill Emerson Humanitarian Trust Act as the starting point. Pre-
positioning of commodities in strategic locations could be used in 
conjunction with the revolving fund to enhance the ability to respond 
quickly. Second, the President's proposal to create a Famine Fund under 
the disaster assistance authority of section 491 of the Foreign 
Assistance Act of 1961 should be considered, although more specific 
authorizing language may be needed and funds should not be taken away 
from disaster assistance to fund this program. In FY 2004, the 
President has proposed $200 million in appropriations for the Fund, 
which it seems could provide food and non-food assistance. It would be 
managed by USAID under the policy direction of State Department, 
subject to Presidential approval, with the purpose of addressing the 
root causes of famine and to respond to famines that cannot be 
prevented.
    Mr. Chairman, thank you for the opportunity to testify. I would be 
pleased to answer questions you or the committee may have.
                                 ______
                                 
             attachment a.--bill emerson humanitarian trust
    The Trust started in 1980 as the Food Security Wheat Reserve. It is 
managed the CCC. It can hold a maximum of 4 MMT of a mix of 
commodities: wheat, corn, rice and sorghum. When commodities are 
released they may be processed or fortified or exchanged for other 
commodities, including powdered milk, vegetable oil, peas, beans and 
lentils.
    The Trust provides food aid overseas as a back-up to P.L 480 when 
(1) U.S. commodity supplies are tight or (2) there is an urgent 
humanitarian need and P.L. 480 funds for the year have been allocated. 
P.L. 480 funds are used to reimburse CCC for the value of commodities 
released, either in the same year when the commodities are released or, 
when used for unanticipated need, in subsequent fiscal years.
    There are three ways to replenish the Trust: (1) surplus 
commodities acquired by CCC may be deposited into the Trust, (2) 
Congress may specially appropriate funds for the Trust, and (3) in each 
fiscal year through 2007, $20 million of the P.L. 480 funds that are 
used to reimburse CCC for the value of commodities released from the 
Trust will be available to purchase additional commodities to replenish 
the Trust.
    The Trust is supposed to be used, as follows:

    1. ``Short Supply.'' Up to 4 MMT can be made available for use in 
P.L. 480 programs in any fiscal year when domestic grain supplies are 
so limited that the Secretary of Agriculture determines that such 
grains cannot be purchased on the market for P.L. 480 programs, except 
for Title II humanitarian programs. Thus, in times of domestic short 
supply commodities can be purchased from the Trust for P.L. 480 
programs, so these programs do not have to be disrupted. This is 
primarily how the Trust has been used over the past 22 years.

    2. ``Unanticipated Need.'' When an emergency occurs, but P.L. 480 
Title II funds for emergencies for the fiscal year have already been 
allocated, up to 500,000 MT of commodities can be released from the 
Trust for the emergency. If the full 500,000 MT is not used, the 
remaining amount can be carried over for use (if needed) in the next 
fiscal year. CCC (not P.L. 480) covers the transportation and inland 
distribution costs. The Trust has only been used three times for this 
purpose.

              Unanticipated African Emergencies Minimum FY 2003 Funding Shortfall Using $600/MT \1\
----------------------------------------------------------------------------------------------------------------
                                                 Southern Africa\2\     Eastern Africa\3\
                                                     (Thru 3/03)           (Thru 9/03)             Totals
----------------------------------------------------------------------------------------------------------------
Number of People at Risk......................          14.4 million          15.5 million          29.9 million
Number of Metric Tons Needed to Meet Shortfall             1,000,000             2,500,000             3,500,000
Minimum Cost of Buying and Delivering                   $600,000,000        $1,050,000,000        $2,100,000,000
 Commodities..................................
50 Percent of Cost (U.S. Share)...............          $300,000,000          $750,000,000         1,050,000,000
Amount Already Committed by U.S...............          $265,904,000          $185,400,000          $451,304,000
FY 2003 Funding Shortfall.....................           $34,096,000          $564,600,000          $598,696,000
----------------------------------------------------------------------------------------------------------------
\1\ This is a minimum estimate that assumes $600/MT, which is approximately the amount needed to deliver one
  metric ton of a mix of grains, vegetable oil and beans, pulses and fortified products that are considered
  essential components of the food basket when emergencies occur.
\2\ Zimbabwe, Malawi, Zambia, Lesotho, Swaziland and Mozambique. Estimated needs are through March 2003 from
  USAID FEWS NET reports, although recent assessments indicate that food aid will continue to be needed at least
  through June 2003. Amount already committed by U.S. from January 24, 2003 USAID/OFDA Fact Sheet.
\3\ Ethiopia and Eritrea. Number of people at risk and cereal and pulses shortfall from January 2000 USAID FEWS
  NET reports. Amount already committed by U.S. from January 30, 2003 from USAID/OFDA Fact Sheets, showing
  358,200 MT fro Ethiopia and 30,600 MT for Eritrea. Administrator Natsios recently stated that an additional
  150,000 MT will be made available for Ethiopia.



    The Chairman. Mr. Hackett.

 STATEMENT OF KEN HACKETT, EXECUTIVE DIRECTOR, CATHOLIC RELIEF 
                            SERVICES

    Mr. Hackett. Thank you very much, Senator. It is a real 
pleasure. I want to thank you particularly for raising the 
attention level to this most pressing issue in our world. Many 
of us, and I am representing here today a group of about 15 
American private voluntarily organizations, CARE, Adventists, 
Lutherans, et cetera, who are working on the issues of hunger 
and food security and we are so pleased that you have brought 
this issue forward.
    The causal factors of hunger in our world, I think have 
been pretty well laid-out. We see in our community maybe three 
that have already been explained. First, the whole question of 
governance, bad governance and the failure of governments to be 
accountable to their people. The instances of that have been 
reiterated by Jim Morris and Andrew Natsios. War and civil 
unrest, what we are seeing in the Ivory Cost, what we are 
seeing in Liberia right now as well as Gaza and the Holy Land 
tells us that people are terribly hungry and food secure when 
there is war and civil unrest. And I do not think I need to go 
into any detail about the dramatic impact of HIV/AIDS on hunger 
and the world.
    Let me focus on one particular role for the American 
private voluntary organizations and faith-based organizations 
around the world and our constituents as it relates to this 
question of helping governments to be accountable to their own 
people, because we see that element as being critical to 
forestalling famine and food insecurity.
    I think what Senator Sununu was getting at is something 
most important, that when governments are not accountable to 
their people or are blatantly corrupt or exhibit continuing 
patterns of decisions that are harmful to their population, we 
see hunger. We see famine. We see civil unrest.
    Rooted in the American character, I think, is the belief 
that free people, organized into civil society with resources 
that sometimes come from their government can provide for the 
well-being of society. We have a very rich tapestry of American 
private voluntary and faith-based organizations and they are 
spread throughout the world carrying out the wishes of their 
constituents and relating to constituents in other countries.
    Faced with governance problems around the world, our 
nations unique contribution is to preferentially support the 
development of a civil society where it is nascent or weak in 
countries that we operate.
    Our solution to a range of development programs, problems 
including hunger should be to support private, civil society 
responses to these issues to engage people to trying to get an 
accountability from their own governments.
    American private voluntary organizations and the food aid 
programs they implement are not just some sort of abstract 
expression of American identity. The PVOs and their staff 
represent the commitment and the image of the American people 
and contribute in my opinion to a very positive perception 
about the United States and Americans.
    As a community, just of our 15, we probably have 2,000, 
maybe close to 3,000 Americans working for us in countries 
around the world. They are in a way ambassadors. They represent 
different faiths, different ethnicities, different political 
persuasions, but they are Americans and they exhibit the values 
that we as Americans hold dear.
    Our official government to government programs and our 
multi-lateral assistance, I think what Andrew was saying about 
the World Food program, we have seen some real improvement. Jim 
Morrison, Andrew came up to Baltimore in early December to talk 
about new ways of doing things together with the American 
private voluntary organization, new partnerships so that there 
is some positive things there.
    But merely our American official response, our bi-lateral 
assistance or our multi-lateral assistance is in our opinion 
not complete. We have got to have opportunities where people 
relate to people. That is where organizations such as the 
Catholic Relief Services, Save the Children, UNICOR deal, deal 
at the level of the community where we are relating on a 
people-to-people basis trying to overcome problems and trying 
to support the capacity of local organizations, be they at the 
small village arrangement or the district arrangement or at the 
national level to bring about a higher standard of 
accountability from their own government.
    Let me just mention the wonderful work that you did, 
Senator, to bring about the changes in the Farm Bill and a new 
framework that allowed the PVO communities to realize better 
potential in managing food aid programs around the world. We 
are just at the beginning. The reforms that were placed in the 
Farm Bill must be given a chance to work. We are working very 
closely with Food for Peace and we appreciate their efforts to 
streamline the procedures, the cumbersome bureaucracy that has 
been associated with it and they have asked and we have 
participated actively with them in trying to work these things 
out, but it needs to be continued.
    Meanwhile, we and other PVOs have develop comprehensive 
long-term food security initiatives. Andrew talks about the 
fact that in AID there is very few agronomists now. I know for 
Catholic Relief Services, we have about a dozen PhD's spotted 
around the world dealing with agricultural security issues and 
agricultural production issues. The same is true with CARE, the 
Mennonites and others.
    We need to make further progress on dealing with the 
question of hunger. That is quite obvious. Ellen mentioned the 
WTO draft agreement for agricultural trade for the DOHA round 
negotiation, which would include a proposal on food aid that 
would eliminate monetization, which as you know, Senator, has 
been a primary and very effective tool for the American Private 
Voluntary Community to engage in programs that will deal long 
terms in food security.
    Other foreign aid and foreign policy issues--and we are so 
happy to hear that you are going to be holding hearings on the 
Millennium Challenge account, the efforts such as the Africa 
Growth and Opportunity Act and some of the free trade 
initiatives in the America can be tools to effect a more 
positive behaviors on behalf of world governments.
    But I go back to my original point. First and foremost, we 
have to recognize that we should be supporting strong and 
engaged civil society as the most effective way to pressure 
their own government to be more accountable and transparent in 
their efforts. I thank you very much for this opportunity, 
Senator.
    The Chairman. Thank you very much, Mr. Hackett. [The 
prepared statement of Mr. Hackett follows:]


                   Prepared Statement of Ken Hackett

I. Introduction
    Mr. Chairman: I thank you for calling this hearing on global 
hunger. No issue more justly cries out for U.S. leadership: we must end 
hunger to advance human dignity and to remove a major source of unrest 
in the world.
    I am Ken Hackett, Executive Director of Catholic Relief Services 
(CRS), a private voluntary organization (PVO) with programs on 5 
continents and in 92 countries, where we are actively addressing 
famines and promoting food security. The problem of hunger is age-old; 
the President's vision of government support for faith-based and 
private efforts to provide accountable solutions, though, has never 
been more possible. We can build a world rooted in social justice and 
in which no one goes to bed hungry and in which every nation enjoys the 
protection of food security.
II. State of Hunger in the World
    Yet around the world, food insecurity continues. For example, in 
Sub-Saharan Africa, the food-insecure population doubled during the 
same period (IFPRI, 2001). Right now, more than 30 million Africans 
face the risk of starvation--with about equal proportions in the Horn 
of Africa and southern Africa.
    I will leave to others to elaborate all the complex root causes of 
food insecurity and hunger. However, CRS field experience points to 
several current trends around the world:

          1. Bad and Unaccountable Governance: Zimbabwe and Haiti are 
        two prime examples where one can attribute the food insecurity 
        and hunger of large portions of the population to government 
        practice and policies that are neither accountable to their 
        citizenry nor beneficial in alleviating the poverty and misery 
        of the people.

          2. War and Civil Unrest: Instances today in Ivory Coast and 
        Liberia, and most regrettably in Gaza and the Holy land, show 
        us that fighting and civil disturbance takes its toll most 
        immediately on the young, the old and those who are made 
        vulnerable in the hostilities.

          3. The Pandemic of HIV/AIDS is having an increasingly 
        negative impact on farmers' ability to expend energy in 
        farming. The death of adult breadwinners and the debilitating 
        impact of the disease on those stricken with it, mean that 
        fewer hectares are cultivated less intensively. Even more 
        troublesome is the specter of hundreds of thousands of orphans 
        who will not have the training or motivation to farm in the 
        future.

    Obviously there are other factors such as poverty (aggravated by 
drought), overstressed agricultural systems (due to drought, poor land 
management, and lack of proper investment), world trade practices, and 
others. The three causes initially mentioned are to our mind the most 
critical and ones that can and should be addressed in our foreign and 
food aid, in our diplomatic efforts and though the fullest range of 
American representation abroad. American PVOs are best positioned to do 
so.
III. Constraints to an Effective Response
    Improving food security and alleviating hunger require a long-term 
commitment to communities and families. Inadequate resources, 
administrative delays, and the lack of a comprehensive, long-term 
development strategy have hindered our nation's response to global 
hunger.
    CRS appreciates the Administration's commitment to provide 
additional funds for development through the Millennium Challenge 
Account. Reversing the long-term decline in foreign assistance levels 
is a credit to the Administration's understanding of the links between 
poverty and hunger and our nation's security in the post 9/11 world. 
These funds must not displace other regular development accounts that 
are meeting critical needs, though, or our commitment to do more will 
be hollow and our rhetoric cynical.
    The MCA also must be complemented by a strong commitment to 
expanding developmental and emergency food aid programs. The Farm Bill 
created the framework for a U.S. food aid program that meets U.S. 
interests and also provides for the needs of hungry people. The program 
Congress enacted relies on needs-based programs such as an expanded 
Title II program, Food for Progress, and a small International Food for 
Education program. The approach cut supply-driven surplus food aid 
programs, such as 416(b), and increased demand driven food aid in order 
to allow for a sufficient and predictable source of food for rational 
programming.
    While the FY 2003 budget increased Title II, it did not do so at a 
level commensurate with the loss of surplus food aid resources. The 
Administration had also proposed to prohibit PVO access to Food for 
Progress. Only in the final Omnibus spending bill did an amendment 
mandate PVO access to this valuable resource and ensure that the 
authorized level of 400,000 metric tons would be fully utilized. I want 
to thank the Chairman and other Members of the Committee for their 
leadership and support on these issues.
    The hunger crisis in Africa has further aggravated the funding 
crisis. Right now, total global needs greatly exceed the resources 
available. CRS and other PVOs applaud the bipartisan effort in the 
Senate to add $500 million in emergency food aid for Africa. We 
eventually got $250 million in the FY 2003 Omnibus spending bill and 
must immediately press to get the other $250 million. Without further 
supplemental aid, a New Jersey-sized population faces starvation.
    Globally, USAID is being forced to cut food aid development 
programs in order to provide emergency food aid. Already, critical CRS 
developmental food aid programs are being cut or delayed because of 
resource shortfalls. We have been told that programs in Haiti, Malawi, 
Ghana, and Central America will not be funded as planned and approved 
or will be significantly delayed. In Nicaragua, for example, where 
drought and decline in coffee prices have hurt food security, CRS was 
asked to integrate 5,000 coffee farmers into our program without 
additional resources; Title II programs were then reduced mid-year. 
Cutting these programs only contributes to future famine.
    In FY 2004, we believe that a baseline of $1.4 billion in regular 
Title II food aid appropriations is needed. We must fully fund the 
needs-based programs in order to compensate for the loss of surplus 
commodity programs, as envisioned by the Farm Bill.
    I know many of you share my concern about the long-term resources 
for food aid and foreign aid. The prospect of massive tax cuts, war 
with Iraq, increases in other military spending, and homeland security 
requirements may drain the budget, regardless of one's views on these 
issues. Our staff around the world are concerned about how we as a 
nation are being perceived. Direct anti-terrorism efforts must be 
accompanied by a vigorous, expansive anti-hunger, anti-poverty campaign 
that expresses our best motivations.
    Administrative delays have also hampered our global hunger 
response. In Southern Africa, CRS, World Vision, and CARE developed an 
innovative response called C-SAFE that took 3-4 months to be approved. 
Millions of people had to wait for critically needed assistance. 
Meanwhile, another large CRS response for the Horn of Africa was 
delayed, waiting for approval of the C-SAFE proposal. We understand 
that staffing gaps in Food for Peace have delayed their internal 
processes, and that investment in their information systems would 
improve their responsiveness. We certainly support providing adequate 
resources to Food for Peace to allow them to expand their capacity. 
Streamlining these review and approval processes is critical for PVOs.
    Finally, food is not a panacea; simply feeding hungry people will 
not solve the problem of hunger. CRS links food aid to a wider strategy 
of investing in food security and local agricultural development. We 
applaud AID for its recent recommitment to agricultural development. 
But we need even more than the FY 2004 budget recommends.
IV. U.S. government Support to American PVO Food Aid Programs
    Long-term hunger alleviation that contributes to stronger more 
stable societies requires both American PVO and multi-lateral 
responses. Food aid programs implemented through U.S. PVOs meet 
community and family level needs, while increasing the capacity of 
local groups and structures to address a range of social service and 
development problems. Multi-lateral programs reflect our nation's 
commitment to provide resources through the World Food Program, which 
also has an important role in addressing food emergencies and famines.
    U.S. PVOs have a uniquely American role in alleviating hunger:

  <bullet> Like our food aid program in general, PVOs embody the 
        generous spirit of the American people. They represent the 
        diversity and creativity of our nation as well as our 
        commitment to the poor. They serve as unofficial ambassadors of 
        the people of the United States, contributing to a positive 
        perception about the United States.

  <bullet> U.S. PVOs are also ambassadors to the American people for 
        our food aid and overall foreign assistance programs. My 
        organization, Catholic Relief Services, is expanding 
        dramatically its effort to educate Americans about their moral 
        responsibilities to assist the poor overseas, including through 
        support for increased food aid and foreign aid.

  <bullet> U.S. PVOs also provide significant value added on the 
        ground. We work through networks of partners that provide a 
        level of accountability, community access, and knowledge that 
        most governments in the developing world are unable to provide. 
        These private networks supplement and in some cases replace 
        government networks that due to corruption, inadequate 
        resources or other problems are dysfunctional.

    In India, for example, 2,500 local organizations partner with CRS 
to deliver food aid. These partners have developed strong relationships 
in their communities due to their food aid role and are therefore able 
to work with them on peace building, disaster prevention, and 
participation in local and district-level political structures, in 
addition to a variety of more traditional development issues such as 
health education, HIV/AIDS prevention and care, water management, and 
social welfare. The cumulative effect of this network in parts of India 
with the poorest and most disenfranchised people is massive.
    Even if governments in the developing world were all adequate as 
food delivery and development mechanisms, our nation in particular 
should support the capacity of private, non-profit efforts to alleviate 
hunger. Strong societies, such as ours, are supported by a web of local 
groups and organizations that hold the government accountable, provide 
a range of services to the community, and allow citizens to contribute 
to their own development. U.S. PVOs are uniquely qualified and 
positioned to accomplish this and food aid is a critical tool in this 
task.
    The WTO draft agreement on agricultural trade for the Doha Round 
negotiations includes a proposal on food aid that would eliminate 
monetization and only allow non-emergency food aid through WFP. 
Developmental food aid programs implemented without a civil society 
focus and the value added of U.S. PVOs will be less effective and less 
popular with the U.S. population. Before and at the Doha Round 
negotiations, the U.S. should vigorously oppose this proposal.
V. New Approaches for Food Aid
    The Farm Bill provided a food aid framework that will allow CRS and 
other PVOs to realize their potential in food aid programs and in 
increasing food security. The reforms in the Farm Bill must be given a 
chance to work. We have appreciated Food for Peace's efforts to 
streamline food aid procedures, with our advice and participation. This 
needs to continue.
    The Farm Bill's needs-based approach to food aid ensures that 
surplus commodities are not dumped irrespective of local consequences. 
Instead, we tailor aid to meet local food needs without disrupting 
local markets or displacing commercial transactions. We can further 
integrate such aid with a wider strategy to promote food security that 
engages local partners and that includes programs to promote 
improvements in education, health, water and agriculture, as well as in 
economic performance and governance.
    In West Africa, for example, CRS has developed a model food 
security strategy that includes improving human capital, increasing 
income, preparing for and responding to emergencies, and integrating 
sectoral responses. This strategy seeks to alleviate immediate hunger, 
while at the same time changing the conditions under which food 
insecurity develops and persists. The strategy relies on an overall, 
long-term approach of social capital/civil society formation. U.S. food 
aid programs must support the full spectrum of these needs.
Social Capital Formation
    The primary responsibility for development rests with developing 
nations themselves. Weak and authoritarian governments have impeded 
progress and maintained or worsened poverty levels. Local organizations 
and groups that are part of civil society have a vital role in 
assessing problems, prioritizing investments, and identifying practical 
approaches to service delivery. Informed and helped to organize, civil 
society is likely to hold government accountable more effectively than 
donors. Supporting partner networks and civil society development is 
thus a critical long-term strategy in increasing food security. Foreign 
assistance including food aid should therefore have an explicit focus 
on civil society development, with the necessary commitment of 
financial and technical resources.
    Long-term community mobilization and participation in the political 
process should be an explicit objective of developmental food aid 
programs. U.S. PVOs are uniquely qualified and positioned to accomplish 
this and food aid is a critical tool in this task.
Human Capital Formation
    If an ``iron law'' of sustainable food security exists, it is that 
the way to escape food insecurity in the long run is through human 
capital development. The importance of investing in human capital in 
terms of the provision of education and health care has figured 
predominantly in the literature. Empirical data on the impact of 
education and health demonstrates that improved human capital has 
positive effects on economic growth, productivity growth, long-term 
development and the quality of life.
    Expanding food-assisted education would contribute greatly to human 
capital, and thus to food security. Illiteracy and the resulting lack 
of knowledge and skills impact overall availability, access, and 
utilization of food. A 1993 USAID study showed that for every 
additional year of schooling, farm output increased by 5 percent. CRS 
manages Food-assisted Education programs in Benin, Burkina Faso, and 
Ghana. Title II Food Aid provides school lunches that improve access to 
education for approximately 400,000 schoolage children. CRS leverages 
the food aid with resources from other sources to improve the quality 
of the education provided.
    Food aid programs that address the increased nutritional needs on 
persons and communities affected by HIV and AIDS are also critical for 
preserving the human capital in society. Particularly in Africa, where 
the AIDS pandemic is most severe and where hunger is endemic, food aid 
is necessary to save lives.
Preparing for and Responding to Emergencies
    Food aid is a critical component of emergency response. The current 
crisis in Africa is but one example. Critical food shortages exist in 
Afghanistan, Central America, and Haiti. Most scenarios of a war in 
Iraq indicate millions of refugees and millions more requiring 
emergency food aid. Addressing these emergency requirements and ongoing 
development needs around the world requires $1.8 billion in U.S. food 
assistance for FY 2003. So far Congress has provided only about $1.2 
billion in regular Title 11 food aid and another $250 million in 
emergency assistance as part of the Omnibus Appropriations Bill. At 
least $250 million more will be needed immediately for CRS and other 
organizations to respond to the crisis.
    In addition to the immediate crisis in Africa, our experience has 
generated several recommendations for responding to hunger emergencies:

  <bullet> Disaster mitigation and prevention needs to be a part of 
        every development program. One dollar of emergency preparedness 
        and mitigation saves seven dollars on relief. CRS' development 
        food aid programs, implemented through networks of local 
        organizations, are frequently platforms for disaster 
        mitigation. Development programs, especially those supported by 
        food aid, should include risk and vulnerability assessment, 
        community-led early warning systems, and community coordination 
        for emergency preparedness and community-led mitigation 
        initiatives. CRS is testing many of these community-focused 
        emergency preparedness and mitigation methods in India, 
        Madagascar, Niger, Latin America, and East Africa.

  <bullet> Disaster reponse programs need to move to recovery as 
        quickly as possible. In East and West Africa, CRS has 
        experimented successfully with market-based programs in 
        disaster recovery, such as seed fairs, that build productive 
        capacity after a disaster. These restart local economies, 
        support local entrepreneurs and avoid dependence on imported, 
        external, sometimes locally inappropriate supplies.

  <bullet> Our nation's emergency food aid program needs a permanent 
        revolving fund to respond quickly. The Bill Emerson Trust has 
        been a good first step. It has not been a reliable mechanism, 
        however.

  <bullet> The Famine Fund included in the FY 2004 budget could be a 
        helpful mechanism. We look forward to studying it further as 
        specifics become available.

VI. Conclusion
    Global hunger remains and in some cases grows, eroding the 
conditions for a safe and secure world for all. American PVOs are 
positioned to take advantage of the reforms in the Farm Bill to address 
emergency and long-term hunger needs. In partnership with the U.S. 
government and consistent with the President's vision of accountable 
solutions managed by private and faith-based charity, we can help end 
hunger as we know it.


    The Chairman. Dr. Von Braun.

   STATEMENT OF DR. JOACHIM VON BRAUN, DIRECTOR GENERAL, THE 
          INTERNATIONAL FOOD POLICY RESEARCH INSTITUTE

    Dr. Von Braun. Thank you, Mr. Chairman. It is an honor and 
a privilege to be in front of your committee and I very much 
appreciate that you draw attention, international attention to 
the problems of world hunger. At least 50 million people in 36 
countries and most of these in Africa are in urgent need today 
of food and other humanitarian assistance. The hearing brought 
out a lot of very important information related to that.
    But, Mr. Chairman, this is only the tip of the iceberg of 
world hunger. The emergency which each and every household 
faces which is hungry today, the Food and Agriculture 
Organization estimates it at 890 million people in this world, 
this is the true dimension, the recorded dimension of world 
hunger.
    However, I have some bad news to add to that. My institute 
currently executes a research program together with the Food 
and Agriculture Organization and finds that in Africa, the 
numbers on food insecure households seem vastly underestimated, 
underestimated by 20 to 30 percent. Knowing from your earlier 
questions, Mr. Chairman, that you are interested in the 
detailed facts such as the 24,000 children or people each day 
dying from hunger, I think it is important that your committee 
notes that the problem is significantly larger than what we 
thought it is on the international established records.
    What is more, we need to broaden our notion of what is 
hunger and have to include the devastating micronutrient 
deficiencies. Two billion people suffer from anemia mainly due 
to iron deficient diets. In addition to that, vitamin A 
deficiencies is a leading cause of blindness in children and 
raises the risks of disease and early death from severe 
infections.
    Now, brought together the billion-calorie-deficient, the 2 
billion micronutrient-deficient people, part of these 
populations overlap, gives you a realistic picture of what 
currently hunger is and how many people in this world are 
affected.
    Now, I am not here today to be the voice of doom and gloom. 
There is much that we can do to turn the situation around, and 
you play a leading role in that, and I applaud that. But we 
need to take recognition of the fact that hunger is a diverse 
phenomenon, hitting on different populations and countries in 
different ways and needs to be responded to with an equally 
complex set of instruments. Let me make seven recommendations 
to address key areas which would in our opinion based on our 
research lead to successful reduction in hunger.
    First, we need to invest in human resources, access to 
health, education, clean water and safe sanitation for all. Our 
research at IFPRE has found that educating girls, as well as 
boys, has a huge impact on reducing hunger. The improvements in 
female education accounted for about 40 percent of the decline 
in child malnutrition between 1970 and 1995, almost half, 
through education. I come back in a moment and say how food can 
play a role in that.
    The second point, broad-based agricultural and rural 
development, is essential to further food security. Andrew 
Natsios has driven that point home strongly and I am not 
elaborating further on it. It is excellent that USAID under 
Andrew Natsios's leadership is re-emphasizing agriculture which 
has been not sufficiently emphasized by many international 
organizations in the past two decades.
    Third, poor people must have access to well-functioning 
markets, infrastructure such as roads, storage and water 
facilities. Africa needs real roads, a road network. It needs 
to be planned, invested in, the major development finance 
organizations, the World Bank and others should see this as a 
very important task. Africa currently has less than half the 
roads India had in the 1960s.
    The fourth point is that it is essential to expand research 
and technology that is relevant to solving the problems of poor 
farms and consumers in developing countries. New developments 
in molecular biology and information technology hold great 
promise to address food security and science-oriented nations 
like the United States can provide leadership there.
    The Consultative Group for International Agricultural 
Research is at the forefront of this. And I thank the U.S. 
Government for its support of this leading global agricultural 
research network.
    Now, new opportunities to select and breed crops with high 
micronutrient content to address the vitamin A and the iron 
deficiency problems have great promise and we have recently 
launched a large new research program to address this 
biofortification opportunity to fight hidden hunger.
    Fifth, Mr. Chairman, we need to improve the management of 
natural resources on which agricultural and food security 
depend in the long run.
    Sixth, the current round of global agriculture trade 
negotiations must result in fair sets of rules for poor 
countries with access to markets. However, we often hear the 
slogan ``Trade, not aid.'' In fact, it must be trade and aid. 
Sufficient levels of development assistance are absolutely 
vital to accelerate the progress against hunger.
    My institute calculated that incremental resources of about 
$5 to $6 billion a year are needed in Africa alone in order to 
meet the millennium goal to cut hunger in half in that 
subcontinent. It is large, but it is doable.
    The seventh and last point, good governance, including the 
rule of law, transparency, the elimination of corruption, sound 
public administration and respect and protection for human 
rights is essential to achieve food security for all. That is a 
political agenda to fight hunger. The slow progress in reducing 
world hunger in the past decade much relates to the increased 
numbers of conflicts and local wars.
    Governance failure, hunger and war are in a complex 
relationship. When we mapped out the distribution of world 
hunger country by country in 1999, Afghanistan came out as the 
worst nourished country. In those days, it was not on our radar 
screens or the radar screens of many and we were often asked: 
Why Afghanistan? We thought it would be Ethiopia. Well, it was 
a problem.
    Mr. Chairman, I would like to applaud the administration 
having established the millennium challenge account in this 
context as a means to increase the availability of development 
aid. However, the access criteria to that account must include 
growth- and development-oriented criteria such as due attention 
to rural development and agriculture, and growth in 
expenditures by the countries in order to have a sustained 
impact on poor people and hungry people in particular.
    Lastly, Mr. Chairman, I see four areas where our research 
shows that food aid which we have addressed today very well and 
I am happy to say that Mr. Morris and our institute collaborate 
closely and we are participating in their meetings, we do 
research together in order to assist them with their concepts 
which I think are right on the mark.
    But there are four specific areas where we feel food aid 
can play key developmental roles and that is food for 
education, and intelligent food for education programs do not 
just give the sandwich to the child, but give food to the 
parents so that kids go to school. In Bangladesh, that has 
increased girls' participation in schools by 40 percent. This 
was done in collaboration with world food program.
    Secondly, food for child nutrition. Third, food for work. 
Those have been discussed. And fourth, food for market 
development.
    Mr. Chairman, investing in people, correcting bad policies, 
investing in agriculture in developing countries are key to win 
the struggle against hunger. I thank you for your attention.
    The Chairman. I thank you very much, Dr. Von Braun, for 
your testimony.
    [The prepared statement of Dr. Von Braun follows:]


                Prepared Statement of Joachim Von Braun

    Mr. Chairman, it is an honor and a privilege to be able to testify 
before the committee today. It is also gratifying that the committee is 
turning its attention to the problem of world hunger. I truly 
appreciate the efforts that you, Mr. Chairman, along with the other 
members of the committee, have undertaken over the years to address 
this pressing problem.
    Mr. Chairman, as you know, at least 50 million people in 36 
countries are in urgent need today of food and other humanitarian 
assistance. Some 38 million people, about 75 percent of those currently 
in need, live in Sub-Saharan Africa, where the deadly combination of 
drought, protracted conflict, and a raging epidemic of HIV/AIDS have 
created a catastrophe.
    However, Mr. Chairman, I wish to emphasize that these severe 
emergency needs, which the international community has a moral 
obligation to meet, are but the tip of the iceberg of world hunger. 
Today, 840 million people, nearly 15 percent of humanity, live in food 
insecurity, meaning that they do not have assured access to the food 
they need for active and healthy lives. Ninety-five percent of these 
people live in developing countries, mainly in the rural areas. The 
figure includes 170 million malnourished children under the age of five 
in the developing world one of every three developing-country 
preschoolers. Unless their nutrition improves today, right now, some 
five million of them will die this year, next year, and in the years to 
come. Those who make it to their fifth birthdays are unlikely to 
achieve their full mental and physical development. They will grow into 
adulthood as less productive workers, at high cost to their societies, 
and will most likely have children of their own who are malnourished 
and poor.
    Also, I must stress that it is inadequate to define hunger only as 
lack of access to a diet with sufficient calories. Our notion of what 
``hunger'' is needs to be broadened, to include the devastating 
micronutrient deficiencies: 2 billion people suffer anemia, due mainly 
to iron deficient diets, including 56 percent of pregnant developing 
country women. They have a 23 percent greater risk of maternal 
mortality than non-anemic mothers. Their babies are more likely to have 
low birth weights and die as newborns. Anemic preschoolers face 
impaired health and development and limited learning capacity. Even 
when iron deficiency does not progress to anemia, it can reduce work 
performance in all age groups. Vitamin A deficiency is the leading 
cause of preventable blindness in children and raises the risk of 
disease and death from severe infections. It affects 100-140 million 
children, mainly in Sub-Saharan Africa and South Asia. One-quarter to 
half a million children go blind each year, and half of them die within 
12 months of losing their sight. Pregnant women with vitamin A 
deficiency face increased risk of mortality and mother-to-child HIV 
transmission.
    Hunger diminishes all of us. Think of the writers, artists, 
scientists, entrepreneurs, farmers, and workers we lose needlessly to 
hunger. The international community has repeatedly made pledges to do 
something about it. At the 1996 World Food Summit, the high-level 
representatives of 186 countries, including many heads of state and 
government, agreed to take concerted action to reduce the number of 
people living in food insecurity to half the current level by no later 
than the year 2015. The 2000 Millennium Summit and last year's World 
Food Summit: five years later reaffirmed this solemn goal.
    I regret to inform you, Mr. Chairman, that the world is not on 
track to make good on these pledges. Indeed, during the decade of the 
1990s, the number of food-insecure people in the developing world 
decreased by just 2 percent, or barely 2.5 million per year. If China 
is excluded, the number actually increased by over 50 million people. 
In contrast, between 1970 and 1990, the number of food insecure people 
dropped by 15 percent, meaning an average annual decline of 7 million 
people, despite a faster rate of population growth than at present.
    I am not here today to be the voice of doom and gloom. There is 
much that we can do to turn this situation around. In fact, the 
knowledge base for promising action has much improved.
    Mr. Chairman, last year, my organization, the International Food 
Policy Research Institute, produced a document entitled Achieving 
Sustainable Food Security for All by 2020. I am pleased to provide the 
committee and staff with handouts based on this document, and would be 
delighted to submit the full document for the record if you would like. 
In my statement today, Mr. Chairman, I want to highlight some of the 
key points for a strategy to reduce hunger, then I want to turn to the 
specific question of what the United States can do to help end the 
scourge of hunger and malnutrition. Food aid, in which the United 
States has long been a global leader in terms of both tonnage and 
program innovation, is an important part of the answer to that 
question. However, I also want to touch on the broader areas of 
development cooperation and trade policy.
    The causes of hunger are complex, and include violent conflict, 
environmental factors (such as natural resource degradation, increasing 
water scarcity, and climatic change), and discrimination based on 
gender, ethnicity, age, and other factors. The fundamental cause of 
hunger, however, is poverty: people are hungry because they cannot 
afford to buy all the food they need, and they lack the land and other 
resources necessary to produce food for themselves.
    In view of the complex causes of hunger, an equally diverse set of 
actions is needed for success. If we are to make progress in reducing 
hunger, action is needed in seven key areas.
    First, we need to invest in human resources: access to health, 
education, clean water, and safe sanitation for all. Our research at 
IFPRI has found that educating girls, as well as boys, has a huge 
impact. Improvements in female education accounted for over 40 percent 
of the decline in child malnutrition levels between 1970 and 1995. 
Effective social safety nets are needed in order to permit poor rural 
households to grow out of subsistence farming.
    Second, given the rural center of gravity of poverty and hunger, 
broad-based agricultural and rural development is essential for further 
food security. It not only boosts the incomes of rural poor people, but 
spurs growth economy-wide in low-income countries where much of the 
workforce is concentrated in agriculture. Our research has found that 
in Sub-Saharan Africa, each new dollar of agricultural income means up 
to $2.60 in total income as demand for goods and services increases in 
rural areas. This helps to create income-earning opportunities in urban 
areas that will allow people to meet their needs for food and other 
necessities. Let me stress, Mr. Chairman, that developing agriculture 
is not a zero sum game. Our research has found that agriculture-led 
growth in developing countries stimulates demand for imported 
agricultural products. Supporting agricultural development is a win-win 
proposition.
    Third, investments in human resources and assuring poor people 
access to productive resources and employment will only contribute to 
reductions in hunger and poverty if poor people also have access to 
well-functioning and well-integrated markets; infrastructure such as 
roads, storage, and water facilities; and supporting institutions. This 
needed investment in infrastructure is essential to connect poor people 
to markets.
    Fourth, it is essential to expand research, knowledge, and 
technology that is relevant to solving the problems of poor farmers and 
consumers in developing countries. New developments in molecular 
biology and information and communications technology hold great 
promise for advancing food security. The Consultative Group for 
International Agricultural research (CGIAR) is at the forefront of this 
and I take this opportunity to thank the U.S. Government for its 
continued support of this research consortium. New opportunities to 
select and breed crops with high micronutrient content to address the 
Vitamin A and Iron deficiencies have been initiated by my institute and 
currently new alliances with public and private partners are formed 
under this program of Biofortification.
    Fifth, we need to improve the management of the natural resource 
base upon which agriculture and food security depend, including land, 
water, trees, and biodiversity. Otherwise hunger will affect future 
generations. When poor farmers have secure ownership or use rights, 
they are more likely to engage in sustainable management practices.
    Sixth, the current round of global agricultural trade negotiations 
must result in a fair set of rules for poor countries. At present, 
developed countries, including the United States and the European 
Union, provide trade-distorting subsidies to their own agricultural 
sectors, impose tariff barriers to developing country exports that 
escalate with the value of the product, and, particularly in the case 
of the European Union members, subsidize their exports. Let me add, Mr. 
Chairman, that I very much appreciate your efforts during your tenure 
as Chairman of the Senate Committee on Agriculture, Nutrition, and 
Forestry to eliminate these distortions. The United States should work 
with other industrialized countries to reform global agricultural trade 
in ways that will benefit everyone.
    We often hear the slogan, ``trade, not aid.'' In fact, however, 
trade alone cannot raise developing countries out of poverty. 
Sufficient levels of development assistance from the wealthy countries 
are absolutely vital if we are to accelerate progress against hunger. 
In this regard, I am pleased that the United States and several other 
donor countries have taken steps to reverse the precipitous declines in 
aid levels that occurred during the late 1990s.
    Seventh, and probably most importantly, good governance, including 
the rule of law, transparency, the elimination of corruption, sound 
public administration, and respect and protection for human rights, is 
essential to achieve food security for all. The lack of progress in 
reducing world hunger in the past decade much relates to increased 
numbers of ethno-political conflicts and wars. Governance failures, 
hunger and war are in a complex relationship. In 1999 we identified 
Afghanistan on our world map of nutrition as the worst nourished 
country in the world. This was before world attention was drawn to that 
country by the war on terrorism. The political and security dimensions 
of hunger require renewed attention. Appealing to so-called political 
will is not sufficient. Investing in democracy building and empowerment 
of hungry people, by strengthening their rights, is fundamental to 
overcoming hunger.
    In this context I very much welcome President Bush's establishment 
of the Millennium Challenge Account as a means to increase the 
availability of development assistance. I also commend the 
Administration for basing eligibility on both level of need and 
criteria relating to good governance and commitment to poverty 
reduction. Given what I have said previously, you will not be surprised 
to know that I believe that there should be a much stronger emphasis in 
the Millennium Challenge Account program on agriculture and rural 
development. Countries that do not sufficiently allocate resources to 
rural development and agriculture have their development strategy 
wrong. In this regard, Mr. Chairman, let me remind the committee that, 
in real terms, development assistance to agriculture and rural 
development today is at lower levels than in the mid-1980s, and 
represents a smaller share of total aid. Given the crucial need for 
such aid, I urge the United States to work with other donors to make 
this area a major development priority.
    Finally, Mr. Chairman, I would like to join my colleagues on this 
panel in saying a few words about food aid. Food aid is critical to 
address emergency situations such as that in Southern Africa right now. 
The United States historically has taken the lead in providing 
assistance, both through private voluntary organizations and through 
the World Food Program. The United States must continue to play this 
role, and I hope that the committee will press for additional resources 
beyond those provided in the recent appropriations bill for the current 
fiscal year. The needs are tremendous.
    I would also like to say a bit about food aid as a development 
resource. U.S. private voluntary organizations have a proven track 
record in making use of food aid both for feeding programs and, through 
monetization of the commodities, a wide variety of additional 
development activities. The World Food Program likewise has many years 
experience in making food aid work as a development tool. I would like 
to draw your attention to four areas in which food aid can help advance 
food security: food for education, food for child nutrition, food for 
work, and food for market development. These uses of food aid directly 
support three of the seven priority action areas I have identified: 
investment in human resources, access to productive resources and 
employment, and development of markets and supporting infrastructure.
    Our organization has recently completed evaluations of food for 
education programs in Mexico and Bangladesh. These are not traditional 
school lunch or breakfast programs, such as those carried out under the 
Global Food for Education Initiative, but rather involve providing food 
directly to poor families who agree to send their children to school. 
We have found that such programs result in increased enrollments for 
boys and girls alike, without any substantial reduction in school 
performance. The programs also boost household food security and 
nutrition among beneficiaries. While such programs need not utilize 
external food aid, it may often be an important component, as in 
Bangladesh.
    Second, food for child nutrition has often proved to be an 
effective component of integrated child survival efforts. In India, the 
Integrated Child Development Services use food aid commodities for 
supplemental and therapeutic feeding to complement a variety of health 
services.
    Third, food aid can support reconstruction efforts following war 
and/or natural disasters through food for work programs. In order that 
these efforts boost purchasing power and not undermine local producers, 
it is important that wages be paid in a mix of cash and food. The World 
Food Program and the PVOs have had many years of experience in carrying 
out effective programs of this kind.
    Lastly, food aid for market development can support the local 
processing and marketing of food products. IFPRI is currently carrying 
out research on such programs. These may involve direct processing and 
marketing of food aid commodities or their monetization, with the 
resources then used to further local processing and marketing 
activities. We believe that food aid can have a lasting development 
benefit when it is used in this manner.
    Mr. Chairman, I would note that in all the examples I have 
provided, food aid commodities might be procured locally or from a 
neighboring country, as well as from a donor country. There are some 
advantages to the first two approaches in terms of developing regional 
trading links and reducing transportation costs. Fostering regional 
prosperity and stability in this way will benefit the United States in 
the long run. The third procurement mechanism, which is most commonly 
used here in the United States, has the obvious advantage of directly 
benefiting the U.S. farm sector as well as developing countries. It is 
important that external food aid be provided in a manner and with 
timing that does not undermine local food production, given its 
importance to food security and poverty reduction. I urge the committee 
to continue its effective oversight of U.S. food aid programs to assure 
that they are compatible with local agricultural and rural development. 
As I have repeatedly stressed, agriculture in the developing countries 
is key to winning the struggle against hunger.
    Mr. Chairman, and members of the committee, I thank you again for 
the opportunity to testify today. I would be happy to answer any 
questions you have.


    The Chairman. I think as each one of you indicated, you 
appreciated the work of the first panel as they discussed 
emergencies, the difficulties that are faced in keeping people 
alive now, the 24,000 people that are dying each day, and you 
even suggested that that may understate the statistics. But 
your mission, then, was to talk about hunger in a more general 
way, and the changes that must occur in governance as well as 
of the expertise that the private sector brings to the table. 
Governments and administrations come and go, but fortunately, 
others have some continuity, some institutional memory of these 
things.
    One of the pleasures I had when I was chairman of the 
agriculture committee was to hear testimony by Dr. Norman 
Borlaug each year, and to find out what Dr. Borlaug was doing 
in that particular year, because he has been an indicator of 
progress and part of the green revolution throughout the last 
two or three decades. He has been very active in Asia and in 
Africa, where he has been involved in institutional questions 
of seeds, agricultural procedures, the governance structure of 
the country, land ownership or the incentives for land 
ownership, all the things that might lead to production, such 
as higher supply and movement toward the evaporation of both 
tariff and non-tariff barriers, so that food can move, or at 
least so that there are incentives for transport systems for 
food movement.
    I just ask each one of you as you take a look at the green 
revolution as it is proceeding in Africa or, as the case may 
be, perhaps not proceeding. What sort of prognosis do you have? 
That is a broad question because the term ``green revolution'' 
covers lots of things but essentially it is a development 
issue, a long-term one, but a fundamental one.
    I ask it in the context that just a few years ago many 
lecturers were pointing out that the population of the world 
would increase by as much as 50 percent during the century 
ahead. Some had higher range estimates and some had lower, but 
these 6 billion people were morphed into 8 or 9 billion around 
the earth. The thought was that the caloric production would 
have to increase very, very substantially on lands that might 
now be as fertile or as promising as the ones that are already 
under cultivation. This seems to have disappeared a little bit 
in the last few years. The sense of impending doom, that 
somehow we simply would have a number of people that exceeded 
any reasonable bounds of production. But is that the case?
    Have we been distracted and lost track of the overall 
situation, or in fact is there some optimism that maybe world 
population is not increasing as fast as we thought? Perhaps 
agricultural production is not evenly distributed. Do any of 
you have any broad comments on these issues? Yes, sir, Mr. 
Hackett.
    Mr. Hackett. Senator, I do not think I can address the 
whole question of the green revolution and its impact on Africa 
or other places in the world, but what I see in parts of 
Africa, particularly Southern Africa but also in East Africa 
and the horn, is that the HIV/AIDS pandemic will change the 
very demography of those countries.
    So where you have situations which are rather pervasive in 
places like Botswana and Zimbabwe, Zambia, Malawi to some 
extent but also other places where more and more children are 
leading families or households, 13-year-old boys with two or 
three siblings, maybe supported by the community, maybe not.
    The question becomes: Who will teach those kids how to 
avail themselves of the opportunities for improved techniques 
in agriculture? Where will that kind of support come from and 
when you have government that just do not seem to be willing to 
invest and be responsive to those people, quite honestly, I am 
very worried about the next generation and what its impact will 
be on agriculture and I am not hopeful.
    The Chairman. Just picking up that point, Mr. Hackett, some 
very pessimistic forecasters in certain African countries are 
indicating that one reason why there is not a huge expansion of 
world population is because a lot of people are dying because 
of the HIV/AIDS epidemic. With rates as high as 30 percent 
infection of the entire population--that is the statistic that 
is often projected as we have ambassadorial nominees for our 
committee--that means many more prospective deaths, as well as 
the salification of development of education of normal 
pursuits.
    In fact, some taking a look at the trend lines of this see 
the population decreasing to the point that nation states 
simply would not be able to continue, where people could be 
absorbed elsewhere by some other entity. That is a new idea, 
but I think the World Food Program report on South Africa that 
Mr. Morris and others have been involved in, really forecast 
that this intersection of HIV/AIDS with hunger issues makes the 
hunger problem an impossible one to solve.
    Ms. Levinson. But in a way, and I want to follow up on what 
Ken was just saying, it is interesting, there is a linkage, for 
example, on HIV/AIDS. Besides prevention and care, there is 
also working on incomes in the community and some of it is 
agriculture related and so there is an effort underway through 
integrated programing--so this is the positive side, through 
integrated programming to address in areas that are HIV/AIDS 
positive and have a great deal of problems with the whole 
community to address those issues. So you are dealing with the 
care and prevention, raising the ability of the people in the 
community who are affected to be parts of that society without 
the kind of shame that is associated with it, but also you are 
working at the level of trying to improve the incomes in the 
community and the development.
    So I think greater linkages together of those programs are 
very important. So there are ways to get at that. And then as 
far as there is research and there is technology that can be 
transferred, from talking to private sector, particularly on 
the biotech issue, they feel that, for example, some of the 
specialty crops that they could be helping in biotech research, 
it is difficult when you have a small crop to get the kind of 
investment that we had for example in our corn and soybean 
crops here. So some of that has to do with economics, so it 
does need a lot of assistance from governments and intra-
governmental organizations for funding for some of that 
research and to do more. But I will let Mr. Von Braun may want 
to say something to that.
    Dr. Von Braun. Thank you. Why did the green revolution not 
happen in Africa or happened only very selectively? That is one 
of the issues where we worked with Norman Borlaug also. He just 
visited our institute. We still benefit from his wisdom and 
advice.
    The major problem of Africa is that markets do not develop 
because the road systems are so bad, and traders have no money 
to buy and the second area of problems is the agricultural 
research systems from which the technologies must come. The 
green revolution did not fall from heaven. It was an investment 
effort combining good money with good knowledge and both is 
lacking in Africa. Good knowledge also costs money. Investing 
in the national agriculture research system which develop the 
seed and fertilize and irrigation technologies, adapt it to the 
complex fragile ecologies in Africa is very complicated. It is 
much more complicated than it used to be in East Asia, the 
Philippines and in South Asia, say, in India. But the number of 
good progress especially with the root crops in Africa has been 
achieved; and biotechnology holds promises, especially 
addressing the drought problem, which currently triggers the 
famines in the horn of Africa in the long run; but this will 
take another 10 or 20 years.
    In the short run, I think the key issue is to invest in 
getting good seeds and fertilizers out to farmers and building 
the road systems. That is the core agenda. On top of that, of 
course, improving the incentive structures.
    Mr. Chairman, on the population front, yes, population 
growth rates have come down. The world has seen the entry into 
an S curve. It is no longer this Malthusian curve, just 
straight up, pointing upright. But we will in the middle of 
this century be about 9 billion people. Currently, we are about 
6 billion. This additional 3 billion, this additional 50 
percent, will be very hard to swallow for world agriculture and 
ecological systems. That is why the investment in agriculture 
research is so essential.
    Globally, the HIV/AIDS disaster will not change much on 
this population figure. Locally, in some countries, it does, 
but yes, there is a lot of more dying, but there is also a 
response with more birth. Families falling apart. One million 
orphans in Ethiopia are among the most vulnerable famine 
victims and most of these are HIV/AIDS victims.
    The Chairman. Thank you. I want to yield to my colleague. I 
would just point out that the committee is fortunate to have 
tomorrow as our chief witness President Karzai of Afghanistan. 
I suspect members will be asking him questions in a very 
practical way in the immediate about the road system, about the 
development of agriculture, the potential trade that might come 
if Afghanistan had a road system so that goods could be 
conveyed in and out of the country among other things and 
really what the responsibility of our country and other 
countries and private organizations might be to have a 
successful stage there.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I will not take 
a lot of time, but I am glad I could be here for the entire 
second panel, and I just want to ask one question.
    Could you comment on charges that international donor 
policies have emphasized a private sector free market approach 
to the point where we are actually encouraging the abandonment 
of technical assistance, like extension services, 
infrastructure improvement, and even access to better 
fertilizers? Can somebody comment on that, please?
    Dr. Von Braun. If I may?
    Senator Feingold. Doctor.
    Dr. Von Braun. Well, that is a very important question. 
What is the appropriate balance between investing in the public 
goods, and where can we rely on the markets?
    The story on fertilizer policy is a very specific one, but 
I think it is a telling example. Fertilizer used to be 
distributed in much of Africa and Asian countries where hunger 
dominated, by the public sector. And reforming fertilizer 
markets has worked well in Asia, but has not worked well in 
Africa. Africa still does not use fertilizer. The private 
sector has not come in because of the market limitations; no 
roads, no trade financing. So the private sector saw no 
incentive to go in there.
    I think the fertilizer market is sort of a borderline case 
where we have tough choices to make, and probably stick a bit 
longer to public action and public sector actions than we in 
the profession--and than I thought--maybe ten years ago.
    Secondly is the area of public health and education and 
agricultural research. Those are public sector domains and 
require public attention and public investment. This does, of 
course, not mean that there are not ample opportunities for 
good public/private collaboration especially in agricultural 
research. Yes, very much so. But there is a public sector core 
which governments have to build; otherwise, things are not 
forthcoming.
    Senator Feingold. Mr. Hackett.
    Mr. Hackett. If I may, Senator. I would just like to offer 
an example--it is, admittedly, a small example--of some of the 
kind of new things that are happening in terms of distribution 
of seeds and fertilizer and things like that. We have a program 
that we are promoting in Southern Africa and in East Africa to 
set up seed fairs.
    Now, for two decades at least, we thought that what happens 
in a famine is that you should buy some seed over here and move 
it to people who have probably eaten their seed. But our 
researchers found that that just plain was not the case. Even 
in the worst of famine, even in Ethiopia 1984 in the highlands, 
people had their seed in a small bag hidden or buried. And the 
problem was how you move it around the community.
    So what we have done is a very simple thing. It is to give 
somebody a voucher that you can take to a market and buy seed 
and fertilizer with it instead of trying to give them seed that 
comes from another country that may not grow anyway.
    I witnessed 5,000 women coming together in a school lot 
last November where we had one of these seed fairs. And what 
they did was they brought their seed, and they traded it or 
sold it to other women. And aware that that was a tremendously 
good market, the commercial seed traders and fertilizer people 
also came, you know, when you get 5,000 moving into that 
situation.
    So it is small, rather unique. We have not rolled it out as 
any answer to a great problem. But I think there are some new 
and innovative things that are happening.
    Senator Feingold. Ms. Levinson.
    Ms. Levinson. Well, first, I would like to go back to 
something very important which was in my testimony but I did 
not get to say it, which is: Solutions are really local, and 
we--so I do not want to say anything that can be interpreted as 
a, you know, international standard. What we have to do, and I 
think this what these PVO organizations are excellent at, is 
getting into a country and identifying what the impediments 
are.
    So, for example, in recent years as we all know, the past 
decade, many countries have transitioned to market economies. 
And so where you used to have parastatal organizations in many 
countries that controlled the purchase, the marketing of 
grains, seeds, fertilizers, and also of all of the produce that 
came out, and then you transition into a system where it is a 
free market, there are many gaps that occur in that kind of a 
situation.
    We see that in agriculture marketing. The PVOs I work with 
are amazing because they are experts in agriculture and 
bringing and dealing with food aid within the agriculture 
context of the country, but also in the agriculture development 
in that country. And what they often find is that there are all 
sorts of gaps. So you could say because of the free market in 
some areas, indeed, there are gaps. And that is because the old 
trade distribution systems and relationships have to be 
rebuilt.
    Through food aid--I just want to mention that through food 
aid we are doing something called monetization, and some if it 
is done in small lots where we sell the food that comes in; and 
when we do, we try to enhance the trade systems to get more 
traders involved because they may not have access to the 
regular importers, the big companies that are importers. And so 
you want to get back down to the distributors and strengthen 
those systems. But there are a lot of ways to do it.
    As far as technology goes, we get back to that thing of: 
Yes, there are seeds that are well developed for a country, and 
how do you multiply it, and how do you increase that? And 
again, I think that is a challenge now that you have free 
market systems, to come up with ways.
    I mean what Catholic Relief Services just described was a 
private voluntary organization working with many indigenous 
groups, but they have to get the money from somewhere to do it. 
So we do need financial input to make up for those gaps.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Let me just ask a final question of each of you, because 
you stressed the fact that our government and other governments 
play important roles, as do private voluntary organizations. 
How, legislatively or administratively, can we increase or 
enhance the relationship between government and PVOs? This 
question arises from time to time because we have testimony 
that PVOs are simply not in the bill or in the program or have 
not been consulted, and yet some are very active anyway. They 
are out there in the field. And I am just intrigued with the 
thought as we move towards this authorization process in our 
Committee, which is a primary reason that we have authorizing 
committees and try an ambitious program in terms of our own 
authorization this year, what sort of language we ought to 
include.
    And you may not be able to recite this today off the top of 
your heads, but all of you have given a lot of thought to it in 
your professional careers. That is reflected in your testimony 
today. If you have general thoughts, please give them for the 
record today. And if you have additional supplementary 
thoughts, please provide them, because we have talked about the 
Millennium Account, we have inevitably addressed the question 
of not only the deserving but those that are not so deserving, 
and what our humanitarian policy should be. How do you move a 
government that deliberately deprives its people into action?
    And we could editorialize that it should not happen; there 
should be better governance. But at the same time, those who 
are in charge have perhaps selected survival of their own 
families or parties or so forth as more worthy objectives than 
whether people are living or dying even in their realms. So 
that gets into deeper problems as to what our commitment for 
change ought to be; and how the PVO activities, even under 
these very desperate circumstances, work together with this 
goal.
    Do any of you have some preliminary glimpse of what you 
would say? And promise me that you will say some more at least 
on paper, in due course.
    Mr. Hackett. I have a preliminary observation. And I think, 
simply stated, the American private voluntary organizations and 
faith-based organizations should be supported to do what they 
do best, and not absorb the role of our government and what it 
does best or the World Food Program.
    We as agencies, groups that have come from constituencies 
and work with constituencies have a level of trust and 
credibility in the community. At the national level, the people 
in the embassy do not have that trust, and they recognize that. 
We should be supported rather than become part of necessarily 
the embassy's plan. We should be seen as an expansion of what 
we, as Americans, want to do. So it is each identifying our own 
special role in the process.
    The Chairman. Ms. Levinson.
    Ms. Levinson. Thank you. I think within the context of 
international development, that there needs to be a great deal 
of coordination within each--that is why I get back to this 
concept that when a developing country is making plans and is 
working with donor agencies, they should be bringing into those 
discussions right there in the country the organizations, the 
private voluntary organizations, the U.S. private voluntary 
organizations or other countries' private voluntary 
organizations that are working there.
    And the good thing about private voluntary organizations is 
not just that they exist and can work locally, but that they 
help to strengthen local NGOs and local administrators, not 
just in non-government, but actually the local governmental 
entities that are often weak and underfunded. So I think that 
first of all, you should--they should be engaged in any kind of 
discussion about, for example, on the Millennium Challenge 
Account, or any kind of that type of thing.
    They should be engaged in the discussions from the 
beginning, because they are active players and they actually 
can give you information and actually say what is going on that 
cannot necessarily said through the UN because it is 
intergovernmental and it has limitations of what it can say and 
do. And I think Mr. Morris was--when he said the thing about 
Zimbabwe, what he is saying is it is not his role in life to 
talk about the Zimbabwe government and what it is doing, right 
or wrong, in agriculture reform. His role in life is getting 
food to people when they need it.
    So sometimes there are limitations, whereas NGOs do not 
have that. They have a much greater freedom to express things. 
And I think that is an important element.
    When it comes to allocations with or by the U.S. 
Government, they are efficient and cost effective mechanisms. 
So I think supporting the direct allocation of resources 
through these organizations that have capacity in the field is 
a very important element. I also believe they give a very good 
monitoring and accountability for their work and, of course, 
can focus on results.
    So I think both levels, the consultation, bring them in 
early on, and letting them bring the voice of the people up to 
the discussions; and second, also the direct allocation through 
such organizations should be a part of any kinds of programs 
that really try to help the poor. Thank you.
    The Chairman. Dr. Von Braun.
    Dr. Von Braun. Let me just make three comments based on our 
experience and research. First, I think it is fair to say that 
we should look always for optimal distance between governmental 
and non-governmental organization.
    And I think the OECD countries have their legal system well 
in place for that. That is not the case in developing 
countries. That is my second point. Therefore, it should be a 
foreign policy objective to widen the space of--for freedom for 
operation of credible non-governmental organizations in 
developing countries for various reasons, and that would have 
large payoffs at the hunger front.
    Third, what is required for that, in order to be credible, 
is that we come to some sort of a code of conduct of 
transparency and credibility in the NGO community. And I think 
northern and southern NGOs can help each other in that respect, 
to improve the governance in the global NGO sector. Thank you.
    The Chairman. Let me ask just one more question, having 
this collective expertise present. Our Committee surely will be 
discussing a proposal by the Administration to dramatically 
change our federal government's focus on the HIV/AIDS question. 
That has come into the testimony today for obvious reasons, as 
we are talking particularly in Africa about the World Food 
Program.
    There are different schools of thought about this question. 
I will not try to characterize all of them, but one is that the 
global program of the United Nations should be a major focus. 
Another holds that monies appropriated by the Congress would be 
administered by agencies of our federal government in bilateral 
work with a limited number of countries, ones that show the 
most promise, the most cooperation and effect.
    Do any of you have comments about this? We have been 
talking about consultation with the PVOs and so forth. But we 
are about to get into a very large area, I think, which will be 
broadly supported, I believe, by the Congress, although the 
particulars may lead to considerable difference of opinion 
among members of Congress. And a part of my role and that of 
Senator Biden and others is to try to at least guide through 
this Committee, at some point, some legislative vehicle that 
the Senate as a whole can discuss. The House will, I am sure, 
in their own way take up the President's proposal. But do any 
of you have a comment in this area?
    Dr. Von Braun. If I may make one?
    The Chairman. Yes, sir.
    Dr. Von Braun. Thank you, Mr. Chairman. Our institute co-
manages a network in East Africa in four countries addressing 
HIV/AIDS and hunger issues simultaneously. And I would be happy 
to share related information with you and your colleagues.
    Secondly, the conclusion from our research and action 
research in that area is that the local communities have to be 
very much engaged in addressing the consequences and the 
prevention issues simultaneously related to HIV/AIDS. 
Otherwise, it is lacking impact and it is unfinanceable. So 
whoever, whatever structure it is at macro-level, UN or big 
international NGOs, the key, the litmus test is: Do they reach 
down? Do they have the local communities engaged, the women, 
the teenagers and the grandparents' generations in particular? 
Is it a community-based initiative?
    And time does not permit to go into detail here, but I 
would be happy to share what we had as a major focus at the 
International Food Policy Research Institute in our current 
year's annual report. And that was done in conjunction with the 
United Nations' HIV/AIDS program and with local communities. So 
there is a lot that can be done in order to address the hunger 
problem and the HIV/AIDS problem simultaneously. And if it is 
not done simultaneously, it is going wrong.
    The Chairman. Well, we will ask our staff members to visit 
with you, Dr. Von Braun, and your staff, so we can avail 
ourselves of some of that material, because as I have indicated 
it is a very timely issue for us.
    Mr. Hackett.
    Mr. Hackett. I could not agree more. We spend about $30 
million a year in Africa dealing with the consequences and 
behavior change related to AIDS. And our experience over the 
last ten years has shown us that you have to reach down into 
building the capacity of that community to support the 
children, if they are the young head-of-household, to deal with 
the prevention and the issues of stigma and some of the other 
issues. It is in the community that the change can happen.
    The Chairman. Is your impression that the global fund of 
the UN is doing this? Or is it too early to tell? Are they just 
gearing up for their programs?
    Mr. Hackett. I could not comment really.
    The Chairman. Okay.
    Ms. Levinson. And I feel the same about it, as far as the 
global fund. The global fund, of course, is broader than HIV/
AIDS. It is, you know, other types of infectious diseases. And, 
of course, TB and HIV/AIDS are the are pretty much the same 
side of--you know, different sides of one coin anymore. When 
you go into HIV-affected areas, TB is right there and 
prevalent.
    So it is an interesting dilemma because you, on the one 
hand, want to support an international effort because then you 
leverage money. And I am, you know, real strong about that, 
leveraging other support.
    But on the other hand, what has just been said very well, 
and so I do not have to repeat it, is that if you leverage 
that, fine, but then what do you get out of it? So really 
looking to the community development and realize that there are 
so many really good programs that are working right now. And 
there have been, as you know, establishment of best practices 
and for HIV/AIDS, and how to work with communities and how 
governments can be engaged. So there is so much information. I 
would suggest--and this is not the proper moment for it--but to 
take a look at that, which goes back to the community side, and 
how much at the community level is going on and best practices, 
and how to best achieve that. And I cannot comment on whether 
the global fund would be the best way.
    The Chairman. Well, I thank all three of you very much for 
staying with us throughout this hearing. I think it has been 
very valuable for the committee and, hopefully, for the general 
public who also listened in. We thank you for working with the 
committee over the years.
    And for the moment, we are adjourned.
    Dr. Von Braun. Thank you, Senator.
    Mr. Hackett. Thank you.
    Ms. Levinson. Thank you.
    The Chairman. Thank you. [Whereupon, at 12:40 p.m., the 
hearing was adjourned.]


</pre></body></html>
